<html>
<title> - ISLAMIST EXTREMISM IN EUROPE</title>
<body><pre>[Senate Hearing 109-818]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-818
 
                      ISLAMIST EXTREMISM IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 5, 2006

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
33-941                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                    GEORGE ALLEN, Virginia, Chairman

GEORGE V. VOINOVICH, Ohio            JOSEPH R. BIDEN, Jr., Delaware
LISA MURKOWSKI, Alaska               PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
LINCOLN CHAFEE, Rhode Island         RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, opening statement     1
Benjamin, Daniel, senior fellow, International Security Program, 
  Center for Strategic and International Studies, Washington, DC.    48
     Prepared statement..........................................    52
Crumpton, Hon. Henry A., Coordinator for Counterterrorism, 
  Department of State, Washington, DC............................    14
    Prepared statement...........................................    16
Fried, Hon. Daniel, Assistant Aecretary for European and Eurasian 
  Affairs, Department of State, Washington, DC...................     3
    Prepared statement...........................................     7
 Habeck, Dr. Mary, associate professor of stretegic studies, the 
  Paul H. Nitze School of Advanced International Studies, the 
  Johns Hopkins University, Washington, DC.......................    43
    Prepared statement...........................................    47
Korologos, Hon. Tom C., Ambassador to Belgium, Department of 
  State, Washington, DC..........................................    23
    Prepared statement...........................................    25
Niblett, Dr. Robin, executive vice president and chief operating 
  officer, director of the Europe Program, Center for the 
  Strategic and International Studies, Washington, DC............    30
    Prepared statement...........................................    35

                                 (iii)

  


                      ISLAMIST EXTREMISM IN EUROPE

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                               U.S. Senate,
                  Subcommittee on European Affairs,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. George Allen 
(chairman of the subcommittee) presiding.
     Present: Senator Allen.

   OPENING STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM 
                            VIRGINIA

    Senator Allen. Good afternoon to everyone. I call this 
European Affairs Subcommittee to order. Today, we will be 
examining the prevalence and origin of Islamic extremism in 
Europe, as well as how it might impact the United States and 
our ongoing global war on terror. We have three panels of 
witnesses to provide various perspectives on this issue.
    It's estimated that up to 20 million Muslims live in Europe 
representing both the largest religious minority and the 
fastest growing religion on the continent. Liberal immigration 
policies and labor needs account for much of the immigration of 
Muslims to Europe while more recently, Muslims from North 
Africa and the Middle East resettled as political refugees.
    Regardless of how people of the Muslim faith have 
immigrated, a large and seemingly disproportionate number of 
European Muslims are poor, unemployed, and some believe that 
this is a significant contributing factor to the prominence of 
extremism in the European/Muslim community. While the vast 
majority of people of the Muslim faith in Europe are not 
affiliated with extremists sects, there are a few who do preach 
hatred. They also preach violence against non-Muslims and 
support terrorism in the name of Islam.
    Some of the most high-profile promoters of this version of 
Islam found their way fairly recently, to London. This is 
significant because it's believed that both Zacharias Musawi 
and Richard Reid, the so-called shoe bomber, were both 
indoctrinated into radical Islam at a noted extremist mosque in 
London.
    London, as we all know, was also the site of terrorist 
bombings in July of 2005 that killed 52 people. Authorities 
have named four young British-Muslim men in those attacks. Now 
it's not an issue that is isolated only to Great Britain--we 
know that other countries have been hit like Spain. Authorities 
in a number of European countries have disrupted plans to carry 
out attacks throughout Europe. They've also disrupted plans to 
assassinate government officials and disrupted plans to recruit 
European young men to fight for the terrorist insurgency in 
Iraq.
    The European governments have taken a number of steps to 
combat the violent effects of this religious extremism. For 
example, France and Italy have expelled clerics for hate 
crimes, and the United Kingdom has instituted a policy to more 
easily deport individuals who insight violence. This is fairly 
controversial, as one might guess.
    Now, while it may not be so obvious, there are implications 
for the United States. The United States and Europe enjoy an 
open travel arrangement, making it simple for anyone carrying a 
European country's passport to come to the United States on a 
day's notice. Thus, how Europe handles this issue is important 
to our own homeland security.
    I'm hopeful that through this hearing we'll learn more 
about the scope, and some of the root causes of Islamic 
extremism or Islamist extremism in Europe, what is being done 
to combat it, and how the United States can assist our European 
allies in addressing the issue that's really in the interest of 
our mutual security.
    I want to thank all our witnesses for being here today. We 
may have at--and this is all tentative--at about 3:15 or maybe 
later, members will be called to the floor. I will suspend or 
recess for a short moment or say, 15 minutes, in the event that 
there's activity that will call me and other members to the 
floor. I do though, very much want to thank our witnesses 
providing testimony this afternoon. If Senator Biden, our 
ranking member in his stead come through here, he'll have his 
opening remarks. We'll hear from our first panel of witnesses 
and I'll introduce each panel as we proceed sequentially. At 
the outset, I want to encourage our witnesses by the way, to 
summarize their prepared remarks. You're remarks that are 
written will be made part of the record, and if you could limit 
your remarks to say, 5 to 7 minutes. I know this is going to be 
a busy afternoon. I want to make sure that we have an 
opportunity to fully explore these issues with each of our 
panels.
    Now our first panel of witnesses includes Daniel Fried, the 
Assistant Secretary of State for European and Eurasian Affairs 
and Henry Crumpton, the State Department Coordinator for 
Counterterrorism. Daniel Fried began his career with the 
Foreign Service back in 1977. He went on to serve in a number 
of posts including as Political Officer in the United States 
Embassy in Belgrade and Political Counselor in the United 
States Embassy in Warsaw.
    Ambassador Fried served on the staff of the National 
Security Council from 1993 until 1997 when he was confirmed as 
the United States Ambassador to Poland. Before taking the helm 
at the Bureau of European and Eurasian Affairs, Ambassador 
Fried served as special assistant to the President and senior 
director for European and Eurasian Affairs at the National 
Security Council.
    Ambassador Crumpton joined the Central Intelligence Agency 
in 1981, and served as an operations officer both at the 
headquarters and abroad. He has served in several foreign field 
assignments, including two as chief of station. In Washington, 
Ambassador Crumpton has held the senior management positions in 
a variety of fields, including a 1 year assignment at the FBI 
as Deputy Chief of International Terrorism Operations section. 
Ambassador Crumpton, also, was Deputy Chief of Operations of 
the CIA's Counterterrorist Center from 1999 to 2001 and lead 
the CIA's Afghan campaign in 2001 and 2002.
    We thank you for your service. More recently, Ambassador 
Crumpton has served as Chief of National Resource of the 
National Resources Division.
    Ambassador Fried, we'll begin with you. If you have an 
opening statement, please proceed.

    STATEMENT OF HON. DANIEL FRIED, ASSISTANT SECRETARY FOR 
EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Fried. Thank you, Mr. Chairman. And thank you 
for the opportunity to speak about the challenge of Islamist 
extremism in Europe today. I'm not here to speak of a challenge 
posed by the vast majority of Muslims living in Europe who, 
like most Muslims anywhere, have no radical agenda. I am 
speaking of the minuscule minority of Muslims who seek to 
distort Islam for radical and destructive political ends, and 
thereby defile a noble faith by committing terrorist acts 
against the United States, our European allies, or others in 
the world. In this testimony, I'll describe the nature of 
Islamist extremism in Europe and attempt to describe the 
factors that drive it. I'll conclude with a discussion of what 
we and our European friends are doing about it.
    Western Europe is home to between 15 and 20 million Muslims 
and, as you've said Mr. Chairman, they are the fastest growing 
religious minority in Europe and the largest religious minority 
in Europe. Islamist extremism is a global phenomenon, but the 
nature of the problem in Western Europe, we find to be 
distinct--both in its character and its potential to threaten 
the United States.
    We should start with the basic and difficult sociological 
fact which is that many, perhaps most, Muslims in Western 
Europe feel themselves outside the mainstream in their home 
countries in several aspects. They are a minority, and even the 
third generation of residents is still predominately viewed as 
foreign in their countries of residence.
    Muslims' struggles with unemployment, discrimination, and 
issues of integration have created an audience within that 
community potentially open to receiving an extremist message. 
In many countries, this is compounded by legal institutions 
that struggle with the challenge of free speech that is 
exploited by extremists, thus leading to the phenomenon 
sometimes called ``tolerance of intolerance.'' Add to this a 
deeply negative perception and a distorted perception of United 
States foreign policy among many of Western Europe's Muslim 
communities, and relative freedom of movement across the 
Atlantic, and you have a particularly dangerous mix. So my 
focus today is on Western Europe.
    Muslims there comprise only about 5 percent of the total 
population. But the numbers tripled in the past 30 years, and 
will double again by 2025. As I said earlier, the vast majority 
of West European Muslims are either mainstream followers of 
that religion who only wish to practice their religion in 
peaceful coexistence with their neighbors, or are relatively 
nonpracticing.
    Extremists comprise a tiny of minority of Muslims living in 
Europe, with 1 to 2 percent of West Europe's Muslims involved 
in any kind of extremist activities. Of these, only a small 
fraction has the potential to cross the threshold into actual 
terrorism. But a handful of extremists can carry out a 
devastating terrorist attack.
    Since September 11, al-Qaeda and its affiliates have 
claimed responsibility for several terrorist acts on European 
soil. In some cases, these attacks appear to have been carried 
out by terrorists inspired by al-Qaeda rather than tied to a 
central leadership structure. This includes the double suicide 
bombings in Istanbul in November of 2003, the March 2004 
attacks in Madrid, and the London subway and bus bombings of 
July last year. Al-Qaeda has inspired a global movement that 
has spawned small, unaffiliated terrorist groups including the 
Netherlands-based Hofstad group whose leader murdered filmmaker 
Theo van Gogh in November 2004 in Amsterdam.
    A variety of factors is driving Islamist extremism in 
Europe by creating a sense of alienation in the Muslim 
communities from mainstream society in Europe. These include: 
Demographics; high rates of poverty and unemployment; anti-
Muslim discrimination and racism; a strict adherence by many 
Muslims to the language and traditions of their countries of 
origin; and issues of identity. In addition, a general 
opposition to United States and Western policies in the Middle 
East, including support for Israel and the operations in 
Afghanistan and Iraq, has given recent focus to Islamist 
extremism, and helped increase its attractiveness among 
Europe's alienated Muslim population.
    Many marginalized European Muslim's who cross the threshold 
to extremism seem to be driven by a sense of spiritual 
alienation. They are less concerned than were their parents 
with economic survival in Europe, and many of Europe's second- 
and third-generation Muslims seem to long for spiritual 
fulfillment and they find that their local communities, now the 
mainstream institutions in their communities, cannot meet these 
needs. So foreign financiers and religious activists, often 
from abroad, fill this spiritual vacuum by building local 
mosques and supplying them with extremist imams. Disconnected 
from often tolerant traditions of their families' original 
homelands, these Muslims are susceptible to foreign propaganda 
and sermons that preach narrow and hateful interpretations of 
Islam.
    The two most common models of social integration, 
assimilation and multiculturalism, have proven difficult to 
implement in Europe. Assimilation, the approach taken by 
France, seeks to counter alienation by minimizing cultural or 
religious differences and forging a secular, multiethnic, 
French national identity. This approach has strong arguments in 
its favor, in principle. In practice, however, minorities feel 
excluded and rejected by mainstream society.
    Multiculturalism, the approach taken by the Netherlands, 
acknowledges the cultural, religious, and racial diversity of 
that nation's citizens. This approach also has arguments in its 
favor, in principle. In practice, however, multiculturalism has 
not eliminated, but instead has often just obscured, elements 
of xenophobia, racism, and anti-Islamism that still exist in 
mainstream society.
    We Americans know something from our own history of racism 
and efforts in integration, and we should, of course, be modest 
in accessing others' efforts.
    The recruitment of alienated European Muslims into 
extremist networks is a bottom-up process. Just as the Islamist 
movement is largely a loose, nonhierarchical, global network of 
disaffected radicals, there's also no real structure or process 
for enlisting recruits in a conventional military sense. Often, 
perspective terrorists undergo a process of self-radicalization 
by seeking out extremist mentorship among friends and 
acquaintances, or over the Internet.
    Much of the recruitment occurs in mosques and prisons. 
Extremist recruiters also seek out vulnerable second- and 
third-generation Muslim youths in their neighborhoods, 
ultimately isolating them from their families and stepping into 
the role of mentor. In a new clique like this, young recruits 
find the social integration and spiritual meaning that they 
yearn for, and radicalism then intensifies, and bonds tighten 
around a shared and distorted world view.
    I mention this because the transatlantic community has a 
deep and legitimate interest in the outcome in the ``battle of 
ideas'' between moderate and extremist voices in the Muslim 
world, including in Europe. The United States cooperates 
closely with our European allies and counterterrorism measures, 
as Ambassador Crumpton will speak to shortly. But we must also 
intensify our efforts to counter the extremist ideas that drive 
Islamist terrorism. Defeating extremism requires us to work 
with our allies to connect European Muslims with the cultures 
of their adopted countries and equip them to fend off extremist 
recruiters.
    European leaders are devoting more energy to integrating 
Muslim communities into the secular mainstream, with a focus on 
economic development, job creation, and improved social 
services. This is appropriate and necessary, but as many 
European leaders recognize, it does not go far enough.
    For European Muslims to sense that they are full members of 
society, both the majority and minority populations need to 
better understand each other. Prejudice and discrimination need 
to be countered and we must bolster moderate voices and 
appreciation for democracy in Muslim communities as part of a 
greater effort by minorities to fulfill the obligations of 
living in a Western democratic country.
    Achieving these goals will require a difficult discussion 
within European societies, similar in some ways to our own 
debate over civil rights and diversity. Drawing from the 
lessons of the United States' civil rights experience, which is 
still a work in progress, Europe has a chance to meld the 
positive aspects of various approaches into one that could be 
called ``tolerant integration.'' In this way, European Muslims 
could be viewed as wholly European even while retaining some of 
the values of their original cultures.
    European governments are taking initiatives to improve 
dialogue and explore concrete measures to empower and integrate 
their immigrant and Muslim communities. These initiatives, as 
our American initiatives, are in early stages and have had 
mixed reactions from minority and majority observers, but it is 
a good beginning.
    The United States is taking its own initiatives. One of our 
main goals is to improve European Muslims' understanding of the 
United States. We use exchange programs and innovative outreach 
efforts at our embassies.
    Many foreign policy professionals regard exchanges as our 
single most effective public diplomacy mechanism. These 
programs were unquestionably one of our most potent tools 
during the cold war, as Eastern European alumni frequently 
stress. Two flagship exchange programs such as the Fulbright 
academic exchange and the International Visitor Leadership 
Programs, bring emerging leaders to the United States for 
extended and short visits.
    Active and innovative outreach by our European embassies 
over the past year is also helping build bridges among 
Americans, European minorities, and European governments. 
United States Ambassador to Belgium, Tom Korologos, who is a 
witness on the next panel, pioneered one such effort last 
November. I believe he'll speak about it and I commend it. Our 
Embassy in Slovenia recently held a similar conference and 
other embassies are seeking to do the same. In May, our Embassy 
in Rome is hosting an international seminar addressing models 
of Islamic integration in Europe and the United States. Again, 
other embassies are considering similar events. Our ambassador 
to Denmark is supporting a Danish initiative. He uses 
basketball to build cross-cultural connections between Muslim 
and non-Muslim youth. His visit to a bazaar in a Muslim area 
highlighted our Embassy's focus on promoting tolerance and 
understanding. Several of our embassies are working 
innovatively with host governments, civil society, and in the 
business communities in their host countries to share our 
experience with integrating immigrants and minorities into 
mainstream society.
    We are finding a growing receptivity among European mayors 
and other European officials to listen to our thoughtful 
explorations of our own past, stressing our own long struggles, 
and ultimate relative success in fostering tolerant 
integration.
    Traditional public speaking events and media outreach 
reinforce such efforts. As part of our exchange programs, we 
are sending both Muslim and non-Muslim American experts as well 
as our embassy officers to speak to students in community 
groups throughout Europe. These are important efforts, but we 
can do more.
    We can have a positive impact on political thinking by 
embracing and cooperating with partners among European Muslims 
who share our desire for tolerance to triumph over extremism. 
Such efforts should involve working with select civic, 
religious, and government leaders in the countries from which 
European Muslims immigrate, to sustain contact with tolerant 
traditions, and thus, fill a cultural vacuum that might 
otherwise be exploited by extremist recruiters. Working with 
our European allies, we might also identify partners among 
European Muslims willing to sponsor modern Islamic scholarship 
and transparent charities to counter extremist inroads in 
Europe's poor Muslim communities.
    Finally, we need to expand training of United States 
officials posted abroad to understand the cultural context and 
motivations of European Muslims. We will need additional 
funding to expand our training programs, as well as the 
outreach programs I've mentioned.
    Mr. Chairman, I'm grateful for the opportunity to speak 
before you today. I look forward to your questions, and 
continuing to work with you on this complicated, important 
issue. Thank you.
    [The prepared statement of Ambassador Fried follows:]

   Prepared Statement of Hon. Daniel Fried, Assistant Secretary for 
   European and Eurasian Affairs, Department of State, Washington, DC

    Chairman Allen, Senator Biden, members of the committee, thank you 
for the opportunity to speak to you today about the challenge of 
Islamist extremism in Europe. I must emphasize from the very beginning 
that I am not speaking of a challenge posed by the vast number of 
Muslims living in Europe who, like most Muslims anywhere, have no 
radical agenda. As President Bush has said, ``America treasures the 
relationship we have with our many Muslim friends, and we respect the 
vibrant faith of Islam which inspires countless individuals to lead 
lives of honesty, integrity, and morality.'' Rather, today I am 
speaking of the ``minuscule minority'' who would distort Islam for 
political ends and defile a noble faith by committing terrorist acts 
against us or our European allies. In this testimony, I will describe 
the nature of Islamic extremism in Europe and the factors that drive 
it. I will conclude with a discussion of what we and our European 
friends are doing to combat this problem.

                       EUROPE'S MUSLIM POPULATION

    Europe (including Russia and the states of the South Caucasus) is 
home to over 120 million Muslims. Over half of these live in Turkey, a 
key partner in our effort to counter extremism, with its secular 
democracy, predominantly Muslim population, and 80-year experience with 
modernizing reforms. Significant Muslim populations are also present in 
the Balkans, Russia, and Azerbaijan. Within the Balkans, Albania and 
Kosovo have predominantly Muslim populations, while Bosnia is 40 
percent Muslim and a considerable Muslim minority has lived in Bulgaria 
and Macedonia for hundreds of years. In Russia, the Muslim population, 
including immigrants from Central Asia, is growing faster than non-
Muslims, however most are nonpracticing. Militant extremists have been 
active in Chechnya and have tried to co-opt the secessionist movement 
or Chechen attitudes, which do not generally subscribe to the extremist 
agenda. Azerbaijan has a chance to emerge as a secular democracy that 
has a predominantly Shiia population. Approximately 15-20 million 
Muslims live in Western Europe.
    While Islamist extremism is a global phenomenon, we find the nature 
of the problem in Western Europe to be distinct--both in its character 
and in its potential to threaten the United States. Many, perhaps most, 
Muslims in Western Europe are outside the mainstream in several 
respects. They are a minority, and even the third generation is still 
predominantly viewed as ``foreign.'' Muslims' struggles with 
unemployment, discrimination, and integration have created an audience 
potentially open to receiving an extremist message. In many countries, 
this is compounded by legal institutions that struggle with the 
challenge of free speech that is exploited by extremists, thus leading 
to the phenomenon sometimes called ``tolerance of intolerance.'' Add a 
deeply negative perception of United States foreign policy among 
Western Europe's Muslims, and relative freedom of movement across the 
Atlantic, and you have a particularly dangerous mix. Therefore, while 
this testimony makes reference to countries farther east, our main 
focus today is on Western Europe.
    Muslims in Western Europe comprise only about 5 percent of the 
total population. However, this number has tripled over the last 30 
years, and is expected to double again by 2025. The most common areas 
of origin are Turkey, North Africa, and Pakistan. The countries with 
the most Muslims are France (over 5 million), Germany (over 3 million), 
the United Kingdom (2 million), Italy (over 1 million), and the 
Netherlands (950,000). Western European Muslims are generally 
characterized by isolated diasporas, for example, Algerians or 
Moroccans in France, Turks in Germany, South Asians in the United 
Kingdom, and Moroccans in Spain. The vast majority of Western European 
Muslims are either mainstream followers who only wish to practice their 
religion in peaceful coexistence with their neighbors, or are 
relatively nonpracticing.
The extremist minority
    Extremists comprise a very small minority of Muslims living in 
Europe, with only 1 to 2 percent of Western Europe's Muslims involved 
in any kind of extremist activity. Of these, only a small fraction has 
the potential to cross the critical threshold into terrorism. Still, a 
mere handful of extremists can carry out a devastating terrorist 
attack.
    Pockets of Islamic extremists exist in a broad range of European 
countries. Some mujahideen who fought in the Bosnian war remained in 
Bosnia after the fighting, acquiring citizenship and propagating anti-
Western interpretations of Islam that run counter to the country's 
secular traditions. With United States urging, the Bosnian Parliament 
recently enacted legislation that strengthens the Government's 
authorities to denaturalize foreign-born fighters that fraudulently 
obtained citizenship during and after the war. But Islamic extremism 
remains a threat in Bosnia and beyond. And of course it exists in many 
European cities. In Germany, a small group of radical Islamist students 
led by Egyptian immigrant, Mohammed Atta, plotted the September 11 
attacks from an apartment in Hamburg.
    A variety of transnational groups seek to spread extremism across 
Europe by claiming to be nonviolent and moderate, while appealing to 
the idealism of socially alienated and/or spiritually hungry Muslims in 
Europe. One such group is Hizb ut-Tahrir (Party of Liberation). Founded 
in the Palestinean territories in the 1950s, Hizb ut-Tahrir is 
secretive, organized around cells of four or five people. Its European 
headquarters is in London, from which it transmits a hateful, anti-
Semitic and anti-American call for the overthrow, albeit nonviolent, of 
existing governments and the reestablishment of a single Islamist 
theocracy (or Caliphate). While it claims to be nonviolent, Hizb ut-
Tahrir's Web sites have deemed justified the killing of Americans or 
Jews, and even the flying of airplanes into office buildings. Germany 
banned Hizb ut-Tahrir in 2003 for urging violence against Jews. The 
United Kingdom is now instituting a similar ban, and recently 
prohibited Hizb ut-Tahrir's splinter group, the radical youth movement 
Al-Muhajiroun. We lack evidence of Hizb ut-Tahrir having organized 
terrorist actions, but we know it skillfully uses Western freedoms to 
provide the ideological foundation for Islamist terrorists.
    Other groups operating in Western Europe more actively blur the 
distinction between nonviolent extremism and terrorism. These include 
the Salafist Group for Preaching and Combat (GSPC), which seeks to 
overthrow the Algerian Government and institute an Islamic state, and 
the Moroccan Islamic Combatant Group (GICM), which has similar aims in 
Morocco.
    At the outright terrorist end of Europe's continuum of Islamist 
extremist groups is al-Qaeda. Since al-Qaeda's structure and training 
camps were destroyed in Afghanistan following September 11, al-Qaeda 
and its affiliates have claimed responsibility for several terrorist 
acts on European soil. In some cases, attacks appear to have been 
carried out by terrorists who are inspired by al-Qaeda rather than tied 
to a central leadership structure. These include the double suicide 
bombings in Istanbul in November 2003 that killed 57 people, the March 
2004 attacks on 4 trains in Madrid that killed 191 commuters, and the 
London subway and bus bombings that killed 52 in July of last year. 
With its extremist message and multiple, highly visible attacks, al-
Qaeda has inspired a global movement that has spawned other small, 
nonaligned groups, some operating in Europe. One example is the 
Netherlands-based Hofstad Group, a cell of Islamist militants, mostly 
second-generation Muslims of North African ancestry. In November 2004, 
Hofstad's leader, a 27-year-old Dutch Muslim of Moroccan descent named 
Mohammed Bouyeri, murdered filmmaker Theo van Gogh on the street in 
Amsterdam.
    We and our European allies are vigilant concerning the potential 
consequences of the insurgency in Iraq on European Muslim populations, 
but to date there have been only a handful of European-residing Muslims 
who have gone to become foreign fighters. A November 2004 suicide bomb 
attack in Baghdad was perpetrated by a young man from near Paris. We 
also know that Western Europe has served as a stopover point for 
radical fighters wounded in Iraq. Spanish court papers show that, as 
early as February 2002, Abu Musab al-Zarqawi was laying out plans for a 
pipeline to send European recruits to Iraq in one direction, and 
recruiters to Europe in the other. Since June 2005, Spanish police have 
broken up three networks dedicated to sending suicide bombers to Iraq. 
Prior to the Iraq war, extremists traveled from Western Europe to 
enlist in Bosnia, Afghanistan, or Chechnya.

                    THE CAUSES OF ISLAMIST EXTREMISM

Secular alienation
    A variety of factors is driving Islamist extremism in Europe by 
creating a sense of alienation from mainstream secular society in 
Europe. These include demographics, high rates of poverty and 
unemployment, anti-Muslim discrimination and racism, a strict adherence 
by many Muslims to the language and traditions of their countries of 
origin, and issues of identity. In addition, a general opposition to 
United States and Western policies in the Middle East, including 
support for Israel and the operations in Afghanistan and Iraq, has 
given focus to Islamist extremism and helped increase its 
attractiveness among Europe's alienated Muslim population.
    Poverty and a lack of jobs create a pool of disaffected Muslims 
from which extremists can draw recruits. In the 1950s and 1960s, when 
the European economy was growing faster than the local populations, the 
need for additional unskilled labor skyrocketed. Guest workers were 
recruited en masse, initially from then-poorer countries of southern 
Europe, and later mostly from Turkey and North Africa. They came 
largely from rural backgrounds and had little education. This wave of 
predominantly Muslim legal immigrants was followed by a large influx of 
illegal immigrants seeking the promise for a better life in Europe. 
After several successful decades of earning enough to support 
themselves and send money back home, economic slowdown in Europe 
coupled with large-scale family reunification and high birth rates led 
to rising unemployment. Over time, minorities increasingly found 
themselves segregated, living in poor neighborhoods, and holding low-
paying jobs with little room for advancement. European Muslims tend to 
have lower levels of education, higher rates of unemployment, and lower 
incomes than the general population across Europe, even in countries 
such as the United Kingdom, which have more stringent 
antidiscrimination laws.
    This lack of opportunity is compounded by employment discrimination 
and, at times, racism from native populations. We Americans are 
familiar with these problems from our own history. While racial, 
ethnic, and religious discrimination is officially banned across 
Europe, Muslims routinely find themselves turned down for jobs, 
particularly in the service industry. This is true for second- and 
third-generation children of immigrants as well as first-generation 
workers who may have language barriers or lack adequate training for 
certain jobs. There are few opportunities for these Muslims to interact 
with or learn about Muslims in the West who are successful and have 
found a balance between living in a Western country and practicing 
Islam. Further, many of these immigrants lack support networks to help 
them integrate into their societies. The 2005 civil unrest in France 
brought to light the immense frustration shared by young, unemployed, 
and disaffected minorities living in the Paris suburbs, many of whom 
are second- or third-generation children of immigrants.
    Muslims are severely underrepresented in Europe's national 
parliaments and governments, as well as at the municipal level. 
However, there are some signs that political participation among 
European Muslims is increasing. For example, in local elections last 
month in the Netherlands, a record number of Muslims went to the polls 
and elected immigrants to various city councils, demonstrating that 
immigrants are seeking change through healthy, democratic means.
    Poverty, lack of education, and anti-immigrant discrimination alone 
do not create extremists--alienation does. Alienation and 
radicalization are phenomena related to urbanization, education, 
cultural uprooting and isolation, and the combinations of 
communications technology with literacy on a historically isolated, 
traditional culture. Many extremists are poor, but poverty is not a 
requirement for radicalization. Ahmed Omar Saeed Sheikh, the Briton of 
Pakistani descent who was convicted for the kidnapping and murder of 
journalist Daniel Pearl, attended private schools and studied at the 
London School of Economics. In fact, many militant extremists come from 
the first generation of educated European Muslims, often with technical 
training. Most are men. But Muslim women can also become extremists, 
often exposed to radical ideology by their husbands. Muriel Degauque, a 
38-year-old Belgian woman from a troubled background, conducted a 
suicide bomb attack in Baquba, Iraq, in November 2005; her family 
claimed she had been ``brainwashed''" by her Moroccan husband. We have 
also seen non-Muslim, European-born converts to radical Islam, such as 
convicted ``shoe bomber'' Richard Reid, who was born in London to an 
English mother and a Jamaican father, and converted to Islam while in 
prison in his early 20s. The majority of Europe's Muslim extremists do 
not have a madrassa education or a background in Middle East conflicts, 
but all share the same sense of being marginalized by society.
Spiritual alienation
    We believe that marginalized European Muslims who cross the 
threshold to extremism are also driven by a sense of spiritual 
alienation. Less concerned than were their parents with economic 
survival, many of Europe's second- and third-generation Muslims seem to 
long for spiritual fulfillment. But many times their parents are unable 
to provide cultural or spiritual guidance, while their communities may 
lack imams with a modern, democratic orientation. Foreign financiers 
and religious activists often fill this spiritual vacuum by building 
local mosques and supplying them with extremist imams. Disconnected 
from often tolerant traditions of their families' original homelands, 
these second- and third-generation Muslims are susceptible to foreign 
propaganda and sermons that preach narrow and hateful interpretations 
of Islam.
The tolerance of intolerance trap
    Many European governments hesitate to take action against extremist 
preaching in the name of defending religious tolerance and free speech. 
They often fear that crackdowns will only drive radical elements 
underground. Extremists take advantage of European freedoms to 
proselytize and recruit from radical mosques and they have taken over 
several major mosques. In the early 2000s, London's Finsbury Park 
Mosque was attended by Algerian-born United Kingdom citizens loyal to 
Chechen Shamil Basayev, who claimed responsibility for the September 
2004 Beslan school attack in Russia. In February 2006, a judge 
sentenced the mosque's former imam, Abu Hamza al-Masri, to prison for 
inciting followers to kill non-Muslims. French citizen Zacarias 
Moussaoui attended London's Brixton Mosque for a time but was 
eventually expelled for exposing younger members to his extremist 
views. Brixton was also attended by ``shoe bomber'' Richard Reid. 
Mohammed Atta and other Hamburg cell members began attending Hamburg's 
Al-Quds Mosque in late 1997.
    The European debate can fall into a trap of seeking a defensive 
solution, such as formulas to define and ban hate speech. These kinds 
of legal bans may well be a dead end. A better solution is to develop 
norms that challenge and expose extremist thought as with other forms 
of antidemocratic ideology.
Failed integration models
    The two most common models of integration, assimilation, and 
multiculturalism, have proven difficult to implement in Europe. 
Assimilation, the approach taken by France, seeks to counter alienation 
by minimizing cultural or religious differences and forging a national 
identity, based on common citizenship. This approach has strong 
arguments in its favor, in principle. In practice, it has proven 
difficult to implement. The policy generated France's controversial 
``headscarf law,'' which bans the wearing of conspicuous religious 
symbols in public schools. Many Muslims believe their needs are often 
ignored, and, in fact, they often believe themselves to be pushed to 
the margins of society.
    Multiculturalism, the approach taken by the Netherlands and the 
United Kingdom, acknowledges the cultural, religious, and racial 
diversity of a nation's citizens. This approach also has theoretical 
merits. In practice, however, multiculturalism has not eliminated, as 
it intended, elements of xenophobia, racism, and anti-Islamism in 
mainstream society. The alienation of Muslim populations has persisted. 
Shaken by the 2004 murder of filmmaker Theo van Gogh by an Islamist 
extremist, the Netherlands is now reassessing multiculturalism and 
pressing its immigrants to adopt ``Dutch values'' if they wish to 
attain residency. In the United Kingdom, the July 7, 2005, bus and 
subway bombings are leading to a rejection of multiculturalism and a 
questioning of British society's approach to integration.
    Most countries in Europe have not pursued a conscious integration 
policy. Until recently, mainstream Europeans viewed Muslim immigrants 
as guest workers who would someday go ``home.'' This leads to Europe's 
third-generation Muslim being seen as ``foreign,'' despite being born 
in Europe, as were their parents. Again, given our history, and even 
our current debates about illegal immigration, Americans must be 
careful and modest in assessing others' efforts to deal with challenges 
of national identity in multiethnic and multireligious states.
Extremist recruitment
    The recruitment of alienated European Muslims into extremist 
networks is a ``bottom-up'' process. Just as the Islamist movement is 
largely a loose, nonhierarchical, global network of disaffected 
radicals, there is also no real structure or process for enlisting 
recruits in a conventional military sense. Often, prospective 
terrorists undergo a process of ``self-radicalization'' by seeking out 
extremist mentorship among friends and acquaintances, or over the 
Internet.
    Much of the recruitment also occurs in mosques. Self-selected 
radicals begin attending a radical mosque, eventually find each other, 
and start forming friendships among small groups. As a fledgling 
extremist group grows more fervent, less-committed individuals are 
weeded out, and the most hard-core members leave the mosques for more 
covert meeting places, including private homes, which are less likely 
to be under surveillance. While radical elements are still present in 
some mosques, they have become less attractive as recruiting venues in 
the wake of September 11 and the subsequent attacks on European soil, 
because extremists suspect that mosques are being closely monitored.
    Extremist recruiters also seek out vulnerable second- and third-
generation Muslim youths in their neighborhoods. The recruiter, who is 
likely a few years older, takes the younger ones under his wing, 
organizing bonding activities like camping trips and sporting events. 
He gradually isolates the recruits from their families and steps into 
the role of mentor. In this newfound clique, young recruits find the 
social integration and spiritual meaning they have yearned for, 
radicalism intensifies, and bonds tighten around a shared worldview.
    Another site of extremist recruitment is the European prison 
system. For example, at least one-half of France's prison population is 
believed to be Muslim. According to a recent study by the French 
Interior Ministry, radical-Muslims are actively trying to convert other 
prisoners in approximately one of three French prisons. Despite the 
large Muslim population in French prisons, only 7 percent of prison 
chaplains are Muslim. Religion is one of the few sanctioned outlets for 
passing time and forming connections among inmates. In an effort to 
tamp down the surge in extremist preaching behind bars, in September 
2005 the French Council for the Muslim Faith (CFCM) named a Moroccan-
born moderate the first national Muslim chaplain for prisons. 
Nominations for other Muslim chaplains are forthcoming. In Spain, 
police are aware of significant extremist recruitment efforts among the 
7,000 Muslim prisoners in that country. One such prison-based cell, 
indicted 2 weeks ago, had prepared plans to bomb Spain's National 
Court. A series of petty crimes committed in his early 20s led ``shoe 
bomber'' Richard Reid to London's Feltham Young Offenders' Institution 
in London. There, he converted to Islam and was radicalized before 
being released. In the early 2000s, Jamal Ahmidan, a young 
nonpracticing Muslim Moroccan living in Spain, became radicalized in a 
Spanish prison where he was serving for petty criminal offenses. After 
his release, Ahmidan ultimately joined the cell that perpetrated the 
Madrid train bombings.
    Cultural and ethnic associations with particular Muslims in the 
Middle East further the impression of hostility by the West against 
disenfranchised Muslims in Western Europe. Conflicts in Chechnya, 
Afghanistan, Iraq, and the Middle East provide fuel for extremist 
recruiters, who portray these conflicts as an assault on Muslim 
religion, culture, and society.

                THE EUROPEAN AND UNITED STATES RESPONSE

    The transatlantic community has a deep and legitimate interest in 
the outcome of the ``battle of ideas'' between moderate and extremist 
voices in the Muslim world, including in Europe. Those few radicals 
that cross over into terrorism pose a grave danger to the United 
States, as well as Europe and the rest of the world. Responsibility to 
address the extremist trend also rests with the legitimate Muslim 
leadership. Healing the rifts within the Muslim community as well as 
outlining precisely what the extremists want will go a long way to 
delegitimizing radicals who interpret Islamic principles in ways that 
support violence.
    The United States cooperates closely with our European allies on 
counterterrorism measures, such as cutting off terrorist finances, 
intelligence sharing, law enforcement, and aviation and port security, 
including through formal working groups with the United Kingdom, 
France, and Russia. But we must also intensify our efforts to counter 
the extremist ideas that drive Islamist terrorism. Defeating extremism 
requires us to work with our allies to connect European Muslims with 
the cultures of their adopted countries and fend off extremist 
recruiters. It also requires us to demonstrate through our own Nation's 
experience that Muslims can be patriotic, democratic, and religious at 
the same time. It is not one or the other. Using examples of a minority 
population of Muslims in our country, India, and other nations, we can 
help European Muslims who feel left out understand that it is possible 
to balance religious identity and European identity.
    European leaders are devoting more energy to integrating Muslim 
communities into the secular mainstream, with a focus on economic 
development, job creation, and improved social services. While this is 
appropriate and necessary, it does not go far enough, as many European 
leaders recognize. For European Muslims to believe they are full 
members of society, both the majority and minority populations need to 
better understand and respect each other. Prejudice and discrimination 
need to be countered. At the same time, we need to bolster moderate 
voices and appreciation for democracy in Muslim communities as part of 
a greater effort by minorities to fulfill the obligations of living in 
a Western country. Achieving these goals will require a difficult 
discussion within European societies, similar to our own debate over 
civil rights and diversity. Drawing from the lessons of the U.S. civil 
rights experience, which is still a work in progress, Europe has a 
chance to meld the positive aspects of various integration approaches. 
In this way European Muslims would be viewed as wholly European even 
while retaining some of the values of their ``original'' cultures.
    European governments are not passive. Last year, Azouz Begag was 
appointed France's first minister delegate for the Promotion of Equal 
Opportunity, and a high authority for the Fight Against Discrimination 
and for Equal Opportunity was created. The United Kingdom created 
several committees, with a mixture of government and Muslim members, to 
improve dialog and explore concrete measures. The Dutch Government 
launched a comprehensive program for empowerment and integration. All 
of these initiatives are in their early stages, and have had mixed 
reactions from both majority and minority observers, but it is a 
beginning.
    At the same time, the United States is taking its own initiatives. 
One of our main goals is to improve European Muslims' understanding of 
the United States and deepen their appreciation for our relative 
success in achieving integration. To this end, we use exchange programs 
and innovative outreach efforts at our embassies. By dispelling 
misperceptions about the United States, these programs may help us 
secure the trust of Europe's Muslim populations.
    Many foreign policy professionals regard exchanges as our single 
most effective public diplomacy mechanism. These programs were, without 
doubt, one of our most potent tools during the cold war, as Eastern 
European alumni frequently stress. Our two flagship exchange programs 
are the Fulbright academic exchange, which brings visiting students and 
scholars to the United States and sends Americans overseas for study 
and research, and the International Visitor Leadership Program, which 
brings emerging leaders to the United States for several weeks.
    Our assistant secretary for Educational and Cultural Affairs, Dina 
Powell, attended a symposium last November with government officials 
and Fulbright Commission representatives from Denmark, France, Germany, 
the Netherlands, Spain, and the United Kingdom. They discussed ways to 
expand our exchanges into nontraditional communities, and increase 
diversity in exchanges in European nations with significant Muslim and 
other minority populations. We have also launched pilot projects with 
several Western European binational Fulbright Commissions to build 
bridges to Muslim communities. Additionally, we are developing programs 
to prepare Muslims and other minorities to compete successfully, given 
that only small numbers of Muslim students in Europe reach the level of 
university study that could lead to a Fulbright grant. Our outreach 
efforts have resulted in more minority applications from the 
Netherlands and the United Kingdom. We are also developing initiatives 
that would reach future secondary school teachers from minority 
communities in Germany and young student leaders from six European 
countries with large Muslim and other minority communities.
    We are also increasing the number of Muslims participating in 
International Visitor Leadership Programs (IVLP). The Bureau of 
European and Eurasian Affairs and the Bureau of Educational and 
Cultural Affairs jointly designed a Muslim incentive program for FY06 
to encourage selected West European posts to nominate more Muslims for 
the IVLP on all topics. In FY05 the first all-Muslim European Regional 
IVLP was very successful, and such programs continue to attract 
nominees across the European region. In February of this year, we 
hosted a regional group comprised of young Muslim leaders, including 
nine participants from Western Europe, the Balkans, and Turkey. A 
second group, under the title ``Managing Diversity in a Multiethnic 
Society,'' brought to the United States more than a dozen 
nongovernmental organization (NGO) leaders, officials, journalists, and 
academics from a variety of backgrounds.
    We also help improve understanding of the United States through a 
network of educational advising centers, which help attract thousands 
of Europeans who pursue university study in the United States each 
year. More than 12,000 students from Turkey attend United States 
universities annually, which is the most of any country in Europe. Such 
programs can have an important impact in Europe and in the broader 
Muslim world.
    Active and innovative outreach by our European embassies also helps 
to build bridges among Americans, European minorities, and European 
governments. United States Ambassador to Belgium Tom Korologos, who is 
a witness on the next panel, pioneered one such effort last November. 
Embassy Brussels cosponsored a conference that brought together 
American and Belgian Muslims and other representatives from both 
societies to discuss Muslim identity, civic life, economic opportunity, 
media portrayal, youth development, and women's issues. The conference 
spawned dialogue and forged relationships on a personal level among 
people from all walks of life who deal with issues of Islam and 
integration on a daily basis. Our Embassy in Slovenia recently held a 
similar conference. In May, our Embassy in Rome is cohosting an 
international seminar addressing models of Islamic integration in 
Europe and the United States. Other embassies are considering similar 
events. We could advance these efforts by arranging discussions among 
American and European Muslims to exchange shared stories, compare 
concepts of identity and faith, and clarify the varying experiences of 
European Muslims from varying ethnic backgrounds.
    Several of our embassies are working innovatively with host 
governments, civil society, and the business community to share our 
experience with integrating immigrants and minorities into our 
mainstream society. We are finding a growing receptivity among European 
mayors and other officials to listen to thoughtful explorations of our 
own past, stressing our own long struggles and ultimate relative 
success in fostering ``tolerant integration.'' In the Netherlands, our 
consulate general in Amsterdam consults with local police and community 
leaders on efforts to connect at-risk Muslim youth with Dutch society 
and thus, resist extremist recruiters. Our Embassy in the Hague has 
launched a speaker series with veterans of the civil rights movement, 
who help Dutch municipal officials and Muslim community leaders better 
understand our experience with antidiscrimination law, justice, 
affirmative action, and grassroots activism. Our ambassador to Denmark 
is supporting a Danish initiative that uses basketball to build cross-
cultural connections between Muslim and non-Muslim youth. In addition, 
his visit to a bazaar in a Muslim area highlighted our Embassy's focus 
on promoting tolerance and understanding. Our Embassies in Denmark and 
the Netherlands are partnering with the local American Chambers of 
Commerce to launch an internship program for minority youth with the 
threefold aim of anchoring young Muslims in the mainstream economy, 
affording them a sense of hope and pride in their European and Muslim 
identities, and fostering tolerance among European business leaders for 
their Muslim coworkers and neighbors. The business community can also 
do more to help in this important effort. We should encourage the many 
successful Muslim businesspeople in Europe and the United States to 
share their success stories more publicly and to serve as role models.
    Traditional public speaking events and media outreach reinforce the 
above efforts. As part of our United States Speakers and Citizen Dialog 
programs, we send both Muslim and non-Muslim American experts as well 
as embassy officers to speak to students and community groups 
throughout Europe. When traveling to Europe, my deputies and I make a 
point of meeting with Muslim community leaders. Our ambassadors and 
press officers do interviews and contribute opinion pieces to 
newspapers, and help counter disinformation and conspiracy theories 
that propagate among Muslim communities on satellite television and the 
Internet.
    The Danish cartoons controversy vividly illustrates the divide 
between European Muslims and the broader societies in which they live. 
Thankfully, in Europe, the protests, demonstrations, and other 
reactions connected with the cartoons were mostly peaceful, although 
there were threats against the newspaper and at least one report of a 
violent attack against a Muslim in response to the controversy. We 
encourage dialog, respect, and tolerance in our public statements and 
in our conversations with government officials, Muslim leaders and the 
media. We defend the right of free expression, including the right to 
publish drawings of the Prophet, but this right carries a 
responsibility, and gratuitously offensive publications do not advance 
the cause of press freedom. To reconcile the conflicting views that 
publication of these cartoons generated, we call upon representatives 
of all of Europe's communities, secular and religious, to emphasize and 
build on the common ground they share: Respect for religion and freedom 
of expression. We do not believe that there is, or needs to be, a 
fundamental clash in Europe between these two ideals.
Countering extremist recruiters
    European governments are trying to stymie extremist recruiters who 
prey on young, vulnerable Muslims whose political and economic 
alienation, coupled with their lack of contact with their own Muslim 
cultures, stimulate an identity crisis. Left unchecked, this identity 
crisis can translate into a spiritual vacuum, which extremist 
recruiters fill with their own, narrow interpretations of Islam via the 
Internet and direct interaction. Both American and European government 
(non-Muslim) officials lack theological knowledge, credibility, and 
legal authority to influence religious thinking. This is not our job in 
any event. But we can have a positive impact on political thinking by 
embracing and cooperating with partners among European Muslims who 
share our desire for tolerance to triumph over extremism.
    A reliable way to counter European Muslims' spiritual alienation 
may be to anchor them in their own traditions of honor, respect, 
diversity, and tolerance. This requires careful work in the countries 
from which second- and third-generation immigrants' families emigrated, 
identifying partners who will reinforce local traditions of tolerance. 
In the rough Amsterdam neighborhood that was home to the murderer of 
Theo van Gogh, local police bring a group of Muslim boys each year to 
volunteer at an orphanage in their families' native Morocco. The boys 
often return from such trips with a new recognition of their Muslim 
identity, and a sense of pride in their adopted European homeland.
    Most government officials are just learning to identify extremists 
who cloak themselves in tolerant rhetoric. The governments of France 
and the Netherlands are trying to counter extremist recruiters through 
local training of imams. In both countries, institutes are being set up 
to train imams in local languages, history, and democratic values. 
Dutch officials are looking for ways to work with Turkish community 
leaders and embassy officials to draw on Turkey's successful experience 
in training imams who reinforce traditions of secular democracy and 
tolerant faith. Such efforts could be expanded to secular and religious 
schools in Morocco and Algeria, provided reliable partners can be 
identified.
    United States Missions encourage Europeans to treat Islam as a 
coequal religion. This will help to undermine the extremist message 
that Muslims are not welcome in Europe. Our embassies sponsor Iftar 
dinners and interfaith dialog. Consistent with our philosophy that 
Muslims should be treated as mainstream members of the societies in 
which they live, we strive to integrate them in our exchange programs 
along with nonminority citizens. We can do more. The Europeans could 
provide or ease the establishment of Muslim cemeteries (a municipal 
function in many European countries), add Muslim chaplains in the 
military and in prisons, and organize cultural exhibitions of the 
Muslim traditions of Turkey, Morocco, Algeria, and Pakistan. Working 
with our European allies, we might also identify partners among 
European Muslims who are willing to sponsor moderate Islamic 
scholarship and transparent charities to counter extremists' inroads in 
Europe's poor Muslim communities.
    Finally, we also need to expand training of United States officials 
posted abroad to understand the cultural context and motivations of 
European Muslims. We will need additional funding to expand our 
training programs, as well as the outreach programs outlined above.
    Mr. Chairman, Senator Biden, members of the committee--I am 
grateful for the opportunity to speak before you today. I look forward 
to your questions, and to working with you on this complex issue.

    Senator Allen. Thank you so much for your testimony. I'll 
have some questions and you may get some questions, by the way, 
posed in writing.
    Now I'd like to hear from Ambassador Crumpton.

     STATEMENT OF HON. HENRY A. CRUMPTON, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Crumpton. Thank you, sir. Chairman Allen, I 
appreciate the opportunity to testify today. The terrorist cell 
that conducted the 9/11 attacks did much of its planning from a 
base in Europe. Five years later and despite many 
counterterrorism successes, violent Islamic extremism in Europe 
continues to pose a threat to the national security of the 
United States and our allies.
    Assistant Secretary Fried has provided an excellent 
overview of Islamic extremism in Europe. I would like to add 
some additional information.
    To be successful, we will need to address both the 
immediate, direct threat posed by terrorism today and the long-
term potential for growth in extremism.
    The immediate threat in some ways is clear and in some ways 
is easier to address: Specific persons or groups seeking to 
launch attacks on specific targets. These people must be 
captured, killed, or deterred and their attacks prevented, 
almost always in concert with our partners. But at the same 
time, we must counter the ideologies that support violent 
extremism. We must fight the enemy in the arena of ideas, ideas 
suffused with justice, integrity, and virtue.
    This challenge will resemble in some ways, as Assistant 
Secretary Fried noted, to that which we faced during the cold 
war. Countering violent extremism involves a worldwide effort. 
It will last decades.
    How do we counter these terrorist networks? By building 
alternative networks. The struggle against extremism in Europe 
is not just the ``destructive'' task of eradicating enemy 
networks, but also the ``constructive'' task of working to 
build trust and confidence in governments' commitment to 
fairness and opportunity for all their citizens. This creates 
interdependent networks that can offer communities legitimate 
alternatives to the twisted perspectives and false solutions 
expoused by extremists.
    As we seek to do this in Europe, we begin with a major 
advantage. The decades of close transatlantic collaboration 
have created powerful institutions, where the impulse for close 
cooperation is deep rooted. In recent months, we've held a 
series of high-level counterterrorism discussions with the 
United Kingdom, one of our closest allies. In fact, I just 
returned last Friday from our most recent interagency session 
in London.
    Another set of talks is underway with France, an effective, 
tough CT partner. These discussions are not mere consultations. 
On the contrary, these exchanges lead to specific programs and 
specific operations, maximizing our collective abilities to 
hurt the enemy.
    We also cooperate well beyond the borders of Europe. In 
Iraq and elsewhere, our teamwork with British and other 
European partners has secured the release of our hostages. 
Through a bilateral counterterrorism working group, I've 
engaged with my Russian counterpart to consider ways to counter 
the influence of extremist ideology.
    We met most recently in late February and will meet again 
in June.
    We have made progress, but there is much more required. Our 
European partners must also take the lead in their own 
countries. They need to find ways to build trusted networks of 
their own that isolate and marginalize terrorists and their 
supporters, galvanize revulsion against the murder of 
innocents, and empower legitimate alternatives to extremism.
    Our European partners understand the gravity of the threat. 
Spain continues to disrupt extremist cells on a regular basis, 
detaining and convicting dozens of suspects over the last 2 
years. France recently broke up a network recruiting foreign 
fighters for Iraq, and just last month put on trial suspects 
from an alleged terrorist network connected to militants in 
Chechnya and Afghanistan. The Netherlands, using new and 
tougher CT legislation, recently convicted members of the 
Hofstad group.
    But despite this shared perception of the threat, there is 
a disagreement over the most effective means to counter the 
threat. Some European countries continue to argue that 
terrorism is merely or mainly a criminal problem.
    We're engaging on all these issues with our European 
partners. Secretary Rice and legal advisor Bellinger have met 
with European leaders and officials and laid out clearly our 
policies and practices. As we move forward in our dialog, our 
European friends need to know that we recognize the need to 
address these perception gaps. That point is critical.
    In our global, high-tech, media-saturated society, 
perception and misperception affect legitimacy. Legitimacy, or 
lack thereof, in turn, enhances or degrades power, 
respectively. We must work with our European partners to 
understand this.
    Given that the overall terrorist threat resembles an 
insurgency, we must develop a counterinsurgency strategy that 
incorporates all the tools of governance to attack the enemy, 
deny safe haven, and address the socioeconomic and political 
needs of at-risk populations.
    Moreover, this ``threat complex'' covers multiple, layered, 
and overlapping battlefields at four levels: Global, regional, 
national, and local. Denying terrorists safe haven demands a 
regional response, given the transnational nature of the threat 
and of enemy safe haven. For this reason, building regional 
partnerships is a cornerstone of any enduring modern 
counterterrorism strategy.
    Much of the impetus for progress in our struggle against 
extremism should come from the field. Here, our ambassadors and 
their interagency country teams serve as the central sources of 
information, ideas, policy recommendations, and implementation. 
The ambassadors, as the President's field representatives, 
offer unique and positive force, positive leadership.
    These country teams working together in networks will 
provide us the best answer to work with our European partners 
across regions to deal with this transnational problem, to 
develop and to build countervailing networks.
    Moreover, we must work together as interdependent teams and 
we must merge our efforts together so we can work against this 
enemy.
    Finally in addition, we will need more innovative programs 
with non-state actors, like the conference held in Belgium by 
Ambassador Korologos, and similar meetings planned for other 
countries, to listen and learn, to communicate. The task will 
not be easy and success will take time. But if we were to avoid 
the nightmares of more Madrid- and London-style attacks, and 
prevent enemy infiltration from Europe into our homeland, we 
must not fail.
    Mr. Chairman, that completes the formal part of my remarks 
and I welcome your questions, comments, and suggestions. Thank 
you.
    [The prepared statement of Ambassador Crumpton follows:]

     Prepared Statement of Hon. Henry A. Crumpton, Coordinator for 
         Counterterrorism, Department of State, Washington, DC

    Chairman Allen, Senator Biden, distinguished members of the 
subcommittee, thank you for the opportunity to testify today. I will 
summarize my formal written statement and ask that you include my full 
testimony in the record.
    It is now well known that the terrorist cell that conducted the 9-
11 attacks did much of its planning from a base in Europe. Five years 
later, and despite many counterterrorism successes, violent Islamist 
extremism in Europe continues to pose a threat to the national security 
of the United States and our allies.
    At the global level, al-Qaeda (AQ) still seeks to attack the United 
States, and despite suffering enormous damage since 2001, still retains 
a capability to do so. But, increasingly, the threat comes from 
smaller, more diffuse, locally-based groups that are not under AQ 
command, but rather share its vision of a global war against the 
civilized world, especially against those Muslims who embrace a vision 
of tolerance and interconfessional harmony. In Europe, this threat 
manifests itself in a variety of ways: Direct attacks like those in 
Madrid and London; recruitment of terrorists and foreign fighters for 
Iraq; and ideological safe havens in immigrant communities isolated 
from mainstream society. In addition, as our collective efforts in Iraq 
and that region constrain the mobility of foreign fighters into Iraq, 
enemy recruits may seek other areas in which to gather and operate. 
Europe is a potential target.
    Assistant Secretary Fried has provided an excellent overview of 
Islamist extremism in Europe, the conditions that allow it to develop, 
and some of our efforts to counter these conditions. I would like to 
provide some additional information on our efforts and the challenges 
we face in doing so.
    To be successful, we will need to address both the immediate, 
direct threat posed by terrorism today, and the long-term potential for 
growth in extremism.
    The immediate threat is clear and in some ways easier to address: 
Specific persons or groups seeking to launch attacks on specific 
targets. Those people must be captured, killed, or deterred, and their 
attacks prevented, almost always in concert with our partners. But at 
the same time as we and our partners work to protect and defend our 
homelands and to attack the terrorists' ability to operate, we must 
also counter the ideologies that support violent extremism.
    Dealing with the threat from violent extremism, therefore, requires 
that we and our partners wage a traditional campaign using our 
judicial, law enforcement, financial, military, and diplomatic 
resources. Simultaneously, we must fight the enemy in the arena of 
ideas, ideas suffused with justice, integrity, and virtue. This 
challenge will resemble, in some ways, that which we faced during the 
cold war. Countering violent extremism involves a worldwide effort. It 
will last decades, if not longer. And this ideological conflict halting 
the spread of al-Qaeda's perverted world view--will be at the heart of 
this challenge.
    How do we prepare for this challenge? We need to counter the 
terrorist network by building alternative networks. All human beings 
belong to networks. They create bonds of shared experience and trust, 
and support their needs. Disrupting enemy networks in the war on 
terrorism is an essential activity, but it can only take us part way to 
success. We must also work with our partners to find alternative ways 
to meet people's social and economic needs and prevent them from 
gravitating toward extremist networks.
    To do this, we and our partners need each other's help, and we will 
need each other's trust more than ever. Trust, rooted in understanding, 
promotes information sharing and collective strategies. In the 
operational context, trust stimulates speed, agility, stealth, and 
collective strength. We must understand the enemy networks, their 
tactics, and the space in which we confront them so that we may 
determine practical countermeasures. We must also understand ourselves 
and each other. Based on this knowledge, we can forge powerful networks 
of trust that help us out-think, out-maneuver, and out-fight the 
terrorists.
    As we seek to do this in Europe, we begin with a major advantage. 
Decades of close transatlantic collaboration have created powerful 
institutions, where the impulse for close cooperation is deep-rooted: 
NATO, the European Union, and the G-8. These bodies serve in different 
ways to help us address the challenge of Islamist extremism. They 
already institutionalize the habits of trust and cooperation that need 
to underpin our common effort against the enemy. Moreover, they bring 
to bear all the instruments of national and transnational power--
diplomatic, informational, military, economic, legal, intelligence--
and, better yet, serve as force multipliers.
    Although we begin with this advantage in Europe, we also need to 
build and bolster partnerships and trusted networks to achieve our 
aims. In the 8 months since I have been ambassador for 
counterterrorism, we have held a series of high-level CT discussions 
with the United Kingdom, one of our closest allies. I just returned 
last Friday from our most recent interagency session. Another set of 
talks is underway with France, an effective, tough CT partner. I will 
lead an interagency delegation to Paris in May. These discussions are 
not mere ``consultations.'' On the contrary, these exchanges lead to 
programs and operations, maximizing our collective abilities to hurt 
the enemy.
    With the British for example, we have advanced cooperative efforts 
to address terrorist use of the Internet and have collaborated to 
counter the extremists' message. We also cooperate well beyond the 
borders of Europe. In Iraq and elsewhere, our teamwork with British and 
Canadian partners has secured the release of our hostages. The French, 
working with us, have provided training to judges in Indonesia, which 
follows French legal practices. Through a bilateral counterterrorism 
working group, I have engaged with my Russian counterpart to consider 
ways to counter the influence of extremist ideology. We met most 
recently in late February and we will meet again in June. In the G-8, 
moving beyond the long-standing and effective program of CT cooperation 
through the CTAG (Counterterrorism Action Group), we have been working 
with partners on projects aimed at addressing terrorist recruitment in 
prisons and developing common policies that reach out to the moderate 
voices and leaders in Muslim communities around the globe. In addition, 
we are supporting the Russian-led G-8 initiative to find new ways to 
enlist the private sector in counterterrorism projects through the 
development of public/private sector partnerships.
    We have made progress--but there is much more required. Our 
European partners must also take the lead in their own countries. They 
need to find ways to build trusted networks of their own that isolate 
and marginalize terrorists and their supporters, galvanize revulsion 
against the murder of innocents, and empower legitimate alternatives to 
extremism. This element of trust will play a key role as European 
governments seek to mobilize mainstream members of at-risk communities 
to counter the extremists and their message.
    Clearly, the Europeans abhor and condemn terrorism and violence. 
But moving from condemnation of terrorism to active cooperation with 
authorities to bring perpetrators to justice requires a new level of 
trust. This underscores a critical point: The struggle against 
extremism in Europe is not just the ``destructive'' task of eradicating 
enemy networks, but also the ``constructive'' task of working to build 
trust and confidence in governments' commitment to fairness and 
opportunity for all their citizens. This creates interdependent 
networks that can offer communities legitimate alternatives to the 
twisted perspectives and false solutions exposed by extremists.
    As in the cold war, we and our partners will need to engage in an 
ideological struggle, a battle to undermine the philosophical basis for 
violent extremism. As the international community continues to pursue 
specific, organizational remedies, using our legal systems, 
intelligence services, and security forces, we must simultaneously 
develop a strategy to delegitimize terrorism. Our European partners 
must do more to encourage all their citizens to identify with the 
societies in which they live. This will not be easy. But, we must do a 
better than we are doing now.
    Our European partners understand the gravity of the threat. The 
Madrid and London bombings, the van Gogh murder in the Netherlands, the 
cartoon riots, all have served to reinforce the need to confront and 
overcome violent Islamist extremism. Many European governments are 
rooting out terrorist networks and support systems. Spain continues to 
disrupt extremist cells on a regular basis, detaining and convicting 
dozens of suspects in the last 2 years. France recently broke up a 
network recruiting foreign fighters for Iraq, and just last month put 
on trial suspects from an alleged terrorist network connected to 
militants in Chechnya and Afghanistan. The Netherlands, using new and 
tougher counterterrorism legislation, recently convicted members of the 
Hofstad Group.
    But despite this shared perception of the threat, there is 
disagreement over the most effective means to counter the threat. Some 
Europeans continue to argue that terrorism is merely--or mainly--a 
criminal problem. In the last year, there has been a raging controversy 
in Europe about specific counterterrorism practices allegedly used by 
the United States. This is a serious issue deserving serious 
consideration lest it undermine the trust that is essential to our 
effort. To succeed in applying our vast power against the enemy, we 
must calibrate and focus that power, so that our actions are legitimate 
and, importantly, perceived as legitimate.
    We are engaging on all these issues with our European partners. 
Secretary Rice and legal adviser Bellinger have met with European 
leaders and officials and laid out clearly our policies and practices. 
As we move forward in our dialog, our European friends need to know 
that the United States understands that these are difficult questions 
and that differences remain. We recognize the need to address the 
perception gaps and the need to explain our actions. This point is 
critical. In our global, high-tech, media saturated society, perception 
and misperception affect legitimacy. Legitimacy, or lack thereof, in 
turn, enhances or degrades power, respectively. This is unprecedented, 
in terms of scope, speed, and impact. And, this is yet another 
fundamental shift in the nature of war. We must work with our European 
partners to understand this.
    We view the enemy on this global battlefield as a ``threat 
complex'' comprising three strategic elements: Leaders, safe havens, 
and underlying conditions. Given that the overall terrorist threat 
resembles an insurgency, we must develop a counterinsurgency strategy 
that incorporates all the tools of governance to attack the enemy, deny 
safe haven, and address the socioeconomic and political needs of at-
risk populations. Offensive tactical CT success buys us time and space 
to build the far more enduring, constructive programs needed to 
undercut extremists' ability to appeal to the disaffected. Moreover, 
this ``threat complex'' covers multiple, layered, and overlapping 
battlefields: Global, regional, national, and local. Denying terrorists 
safe haven demands a regional response, given the transnational nature 
of the threat and of enemy safe haven. For this reason, building 
regional partnerships is the cornerstone of any enduring 
counterterrorism strategy.
    Applying that analysis to Europe, we find that while no states in 
Europe allow terrorist leaders free reign or consciously provide 
facilities for terrorists, extremists can and do exploit free 
societies, with their respect for civil liberties and the rule of law, 
and their broad access to sophisticated technology, in order to create 
space in which they can recruit, plan, and operate. This sort of safe 
haven is a problem of growing concern, and we are working with several 
European partners to devise means to deal with this challenge.
    European allies must also contend with underlying conditions that 
terrorists may exploit: Local groups, longstanding grievances, communal 
conflicts, and societal structures provide fertile soil for the growth 
of extremism. The unrest in French suburbs some months ago and the 
cartoon-related violence around the world, while not directly connected 
to terrorism per se, could provide an opportunity for extremist 
recruiters.
    Technology is eliminating the distance that once clearly separated 
us across land and sea. Safe havens in cyberspace and the ability to 
transfer funds, materiel, and people depend on existing regional 
underground networks (such as those that exist for narcotics 
trafficking, piracy, or people smuggling). Most terrorist safe havens 
sit astride national borders, in places like the Sulu Sea, the 
Northwest Frontier--and the Sahel. In Europe, the same ease of travel 
across national frontiers that has contributed to economic prosperity 
has also facilitated the movement of terrorists. Pressed by Algerian 
counterterrorism successes, the once Algeria-centric GSPC, for example, 
has become a regional terrorist organization, recruiting and operating 
all throughout the Mahgreb--and beyond to Europe itself. Al-Qaeda 
leaders may be isolated and under pressure, unable to communicate 
effectively, but this has not prevented regional groups from 
establishing independent networks among themselves. In some ways, this 
poses even more daunting intelligence collection and strategic policy 
challenges.
    Much of the impetus for progress in our struggle against extremism 
must come from the field. Here, our ambassadors and their interagency 
country teams serve as essential sources of information, ideas, and 
implementation. The ambassadors, as the President's field 
representatives, are uniquely placed to orchestrate all the instruments 
of statecraft. They alone can direct a chief of station, an FBI legal 
attache, a USAID director, a defense attache, a DHS representative, and 
a commercial attache to work in concert, to blend their collective 
efforts, to focus on the enemy and the conditions that the enemy 
exploits. Moreover, because of the transnational battlefield, the 
ambassadors must work together in a regional context. Toward that end, 
we have initiated ambassadorial-level conferences. We have convened 
conferences for the Southeast Asia and Iraq regions; more are coming. 
Through this effort, we are identifying regional CT challenges and 
recommending specific policies leading to specific multiagency programs 
and operations. And while European posts are more accustomed to 
thinking regionally, we will be working with Assistant Secretary Fried 
to organize similar conferences in the Europe-Eurasia region, which we 
hope will generate similar results, so that regional networks of 
country teams, led by our ambassadors, can more acutely shape and 
implement policy that corresponds to the shifting nature of the enemy 
and the battlefield. Networked warfare, using all our policy tools, 
demands accurate, fast, and agile responses. A regional, field 
orientation, intimately linked to foreign partners, and supported by 
Washington, enables both our understanding and our response. After all, 
vision or policy and implementation or operations are interdependent. 
And, they merge together best in the field, not inside the beltway.
    In addition, we will need more innovative programs with nonstate 
actors, like the Muslim Dialogue Conference held in Belgium by 
Ambassador Korologos, and a similar meeting planned for the Netherlands 
by Ambassador Arnall, to listen and learn, to communicate.
    We and our allies must convince disaffected persons that there are 
alternatives to messages of hate, violence, and despair. Ultimately, we 
will defeat violent extremism by deploying our most powerful weapon: 
The ideals of prosperity, freedom, and hope, and the values that we and 
our European partners represent in our democratic, just, and open 
societies, and which we share with millions of others around the world. 
We are working to develop a comprehensive strategy to delegitimize 
terrorism and to encourage the efforts of the overwhelming majority of 
Muslims who reject violent extremism. Reza Asian, in his excellent 
book, ``No god But God'' notes that it will take many years to defeat 
those ``who have replaced Muhammad's original version of tolerance and 
unity with their own ideals of hatred and discord.'' But, he adds, that 
``the cleansing is inevitable, and the tide of reform cannot be 
stopped. The Islamic Reformation is already here.'' We and our partners 
must listen to these Muslim reformers, support their efforts, earn 
their trust, and continue to press for their and our vision of a better 
future for all our children.
    The task will not be easy and success will take time. But if we are 
to avoid the nightmare of more Madrid and London-style attacks, we must 
not fail.
    Mr. Chairman, that completes the formal part of my remarks and I 
welcome your questions or comments.

    Senator Allen. Thank you, Ambassador Crumpton and Secretary 
Fried. Let me ask you a few questions here. Your testimony is 
very helpful on a variety of fronts. Let me ask those and if 
you can't answer some of these because it may be classified--
there's a lot of questions I'd like to ask, but will not do 
publicly. But let me ask you if you know how closely affiliated 
some of these terrorist groups are in Europe with al-Qaeda or 
other terrorist organizations, such as Hamas or Hezbollah?
    Ambassador Crumpton. Yes, sir. There is affiliation 
directly to al-Qaeda and to al-Qaeda associated networks. The 
Zarqawi network in Iraq is one of the most obvious, as also is 
the GSPC. Their home base was in Algiers, Algeria, and they've 
spread out into the Sahel.
    You also not only have links, but you've got Hezbollah and 
Hamas fundraisers and facilitators resident in Europe.
    Senator Allen. One thing I've been trying to get our 
European allies to do is list Hezbollah as a terrorist 
organization as we have. Do you see any action on the part of 
our European allies to do that, so that Europeans are not 
innocently or unknowingly actually supporting a terrorist 
organization?
    Ambassador Crumpton. We've raised this with them, sir, and 
it's still under discussion. They see Hezbollah as a political 
movement and to some degree, it is. They have members of 
Parliament in Lebanon. They provide social services, but there 
also is a key element of Hezbollah--the IJO led by Imad 
Munigyah--that is a terrorist organization.
    Senator Allen. How capable, in your judgement, are these 
European terrorist cells of carrying out any attacks in Europe 
or for that matter, the United States.
    Ambassador Crumpton. I think they are capable and I think 
our European partners have done an excellent job in identifying 
them, and undermining their efforts, and in bringing them to 
justice.
    Our concern of course, sir, is that one day one of these 
groups will get through and a plot will be executed again, in 
Europe or in our homeland.
    Senator Allen. Do you think in another part of Europe--the 
Balkans--do you see the terrorist threat existing there? You 
have generally weak institutions in the Balkans compared to 
Central and Western Europe, and we also have declining United 
States troop commitments in the region, although obviously NATO 
and the Europeans are in there. How do you see that? What's the 
threat analysis insofar as the Balkans?
    Ambassador Fried. There is a threat, but for various 
reasons it's above zero, but it is not at the top of our list 
of problems as we look at Europe. You have large Muslim 
populations in Albania, large minorities in Bulgaria and 
Macedonia, and of course Bosnian Muslims. But these are not by 
and large alienated, uprooted populations, and there are not 
many native Muslim populations in the Balkans who are 
susceptible in a mass way to extremist Islamist ideology.
    There was in the Bosnian wars, in the breakup of 
Yugoslavia, a significant influx of foreign Jihadist fighters 
into Bosnia. Some of them remained. They are a potential 
problem and we're pleased that the Government of Bosnia has 
recently taken steps to strip them of their citizenship if it 
was arived at through violations of Bosnian law.
    So there is a problem, but for some of the social factors 
that I mentioned, it's not at the very top. Now that said, 
because the institutions are not as--the government 
institutions are not as developed--we have to keep an eye on 
this.
    Senator Allen. Thank you. Let me ask you this now. Does the 
presence--and I'm talking about now in Western Europe, to a 
lesser degree in Central Europe, but in Western Europe, the 
larger populations of Muslims--does that seem to influence the 
government's efforts and policy choices towards contentious 
Middle East issues? I was listening to Ambassador Crumpton and 
it sounds to me that we have very good cooperation in 
counterterrorism and so to the extent, any of this changes a 
larger population, you get disputes over issues obviously in 
the Middle East, and is there any way that this demographic 
contributes to divisions between the professionals of the 
United States and the professionals of the European countries 
in countering terrorism?
    I'll ask you, Ambassador. Either one could answer. The 
Ambassador may do it on the law enforcement effort. You, Mr. 
Secretary, more on the diplomatic side.
    Ambassador Fried. It's hard to quantify these things. So my 
answer has to be necessarily somewhat impressionistic. The 
differences we have had with some European governments on, for 
example, Israeli-Arab questions, have increased and decreased 
over time, but I can't directly attribute it to, for example, a 
large Muslim minority which lobbies for a particular policy. 
The effects are different. In fact one of the problems in 
countries like France or Germany, is that the large Muslim 
minorities are not often integrated enough into society to 
participate in the democratic process through lobbying.
    We might be better off if they spent their time lobbying 
and less time engaged in radical behavior.
    Senator Allen. Let me ask you this, do the Muslim 
populations in European countries vote? They are allowed to 
vote, are they not? Do they vote at the same levels as say, 
other--just understand as a Jeffersonian, I don't like looking 
at people by religion, or race, or ethnicity. However, we're 
trying to--this Islamist extremism, do they not vote or get 
involved in political campaigns, electing representatives in 
towns, cities, provinces, and national government?
    Ambassador Fried. They do, but the numbers of elected 
representatives of Muslim minority communities is much lower 
than you would expect given the populations. Many of them are 
not citizens of the countries in which they have lived and many 
are not citizens for two or three generations, because the laws 
on citizenship vary between European countries. But in some 
countries it is based on ethnicity rooted in a very different 
concept than the American concept of citizenship through birth.
    In other countries, although they vote, they have not 
participated fully in the political process. Now this is 
beginning to change. There are more and more Muslim minority 
representatives on local town councils and in parliaments. But 
this is a very slow process and part of the fertile field for 
extremist thought is a function of the lack of effective 
integration on the part of these communities.
    Senator Allen. Thank you. Well Ambassador Crumpton, do you 
see any of this having any hindrance on United States-European 
cooperation and counterterrorism efforts?
    Ambassador Crumpton. Sir, I wouldn't describe it as 
hindrance. But it is a point of discussion. We have to factor 
that into our operations and certainly in terms of public 
diplomacy. It's a challenge for many of the reasons that 
Assistant Secretary Fried outlined. So it's a factor, and I 
think it's going to be a growing factor.
    Senator Allen. Do you see it being a factor in any of the 
policies of the government there?
    Ambassador Crumpton. Yes, sir. I do.
    Senator Allen. Could you describe how this ends up being a 
factor? You say hindrance is not a good word. Is it an 
impediment? Does it somehow--does it marginally diminish our 
counterterrorism cooperation which I think is so vital. We 
cannot just rely on our own. We're going to need informants, we 
need human intelligence, and we surely need cooperation from 
countries who share our values. Maybe they don't do it exactly 
the same way we do, but this global war on terror is going to 
need global cooperation. Do you see it? How do you see it 
having any sort of diminishment of our cooperative efforts in 
countering terrorism?
    Ambassador Crumpton. Sir, in terms of intelligence 
cooperation, I see none. That continues to be superb I think, 
at almost all levels. I think law enforcement is also very 
good. But when you move into the arena of public diplomacy and 
public perception, yes, it's a factor. And, in some ways, it's 
a complicating factor in not only the demographics, but also, 
as I noted in my prepared statement, Europeans' view is that 
this, in many respects, is mostly just a law enforcement 
matter.
    Now they also understand that it is a matter of ideology 
and radicalization. But there are some points of divergence 
there that we have with our European partners.
    Senator Allen. Okay. Well gentlemen, I thank you. I have no 
further questions. But I believe some of my colleagues on the 
committee may have some that they'll pose to you in writing and 
I hope you'll be so kind as to reply. And I thank you both for 
your leadership and for your valuable insight and testimony 
this afternoon. Thank you.
    Ambassador Crumpton. Thank you for the opportunity, sir.
    Senator Allen. Thank you, Mr. Secretary.
    Senator Allen. Okay. Our second panel--go ahead and have a 
seat there, Mr. Ambassador--consists of one witness, a very 
important one, our Ambassador of Belgium, Tom Korologos, who is 
mentioned with laudatory remarks by our first panelists, 
Ambassador Crumpton and Secretary Fried.
    Tomorrow is Ambassador Korologos's birthday. We wish you a 
happy birthday or as they would say in Belgium, bon 
anniversaire. Speak my franglais. Now Ambassador Korologos has 
wide and varied experience in government. He has served as a 
senior staff member in the U.S. Congress, as an assistant to 
two Presidents in the White House, was a prominent businessman 
with Timmons and Company, and most recently, a senior counselor 
for the Coalition Provisional Authority in Bagdad. In addition, 
he was a long-time member of the U.S. Advisory Commission on 
Public Diplomacy and a charter member of the Broadcasting Board 
of Governors.
    Mr. Ambassador, welcome back home and we'll now hear any 
remarks that you wish to make to our committee.

STATEMENT OF THE HON. TOM C. KOROLOGOS, AMBASSADOR TO BELGIUM, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Korologos. Thank you, Mr. Chairman. I appreciate 
the opportunity to appear before you today to supplement what 
Assistant Secretary Fried and Ambassador Crumpton have 
discussed regarding Islamist extremism in Europe. I will focus 
my remarks on a new approach to United States engagement of 
Muslims in Europe that we have tested successfully in Brussels.
    It is an example of Secretary Rice's and Undersecretary 
Hughes' call for a new public diplomacy based on dialog, not 
monolog. It is also a model for generating not just a 
conference or two, but to engage mainstream Muslims across 
Europe to ease Muslim alienation and combat extremism.
    When I went to Belgium in July of 2004, I made public 
diplomacy a priority. I discovered almost 5 percent of the 
population is Muslim. There are almost 500,000 Muslims in 
Belgium, largely from Turkey and Morocco.
    As Assistant Secretary Fried said earlier today, our Muslim 
engagement strategy rests on several goals, including seeking 
to build mutual understanding for the United States. We realize 
the United States required a way to listen to and speak with 
this important community. Belgium provided a propitious 
environment for a new dialog initiative.
    In Belgium, as you discussed in the last question, Muslims 
vote and win elected office. We have about 9 or 10 members of 
the Belgium Parliament that are Muslim. And I must say, in 
seeking members to come to the conference, we looked for 
elected Muslim officials in the United States and frankly, 
found only one--a State Senator in North Carolina. And due to 
the fragmented nature of Belgium politics with its shifting 
coalition governments, Muslims have political clout.
    In addition, Belgium has made efforts to bring Muslims into 
government services including the police. This, along with the 
fact that Muslims in Belgium are not ghettoized into depressing 
high rise suburbs, explains the creation of a sense of 
participation.
    So Mr. Chairman, I wanted to explore a new means to foster 
learning and understanding. I found that there were no channels 
of direct communication between American Muslims and European 
Muslims--channels where both communities could exchange tools 
and lessons learned about identity, balancing faith and 
nationality, and integration.
    When I realized the potential strength of building these 
relationships, I thought I would try to do something about it. 
So under the tutelage of Bruce Sherman, the Broadcast Board of 
Governors who is here with us today--and we thank the BBG for 
extending his services to us during the duration of the 
conference--and Ms. Donna Woolf, Deputy Public Affairs Officer 
in Brussels, who also is here with us today. We conducted 
research and found that despite many differences such as 
socioeconomic status and migration histories, Belgium and 
American Muslims share common experiences as minorities in 
largely Christian and secular Western societies. Thus, in 
November last year, our Embassy in Brussels with Belgian and 
United States NGOs and private sponsors, brought together an 
impressive group of 32 American Muslims and 65 Belgian Muslims 
for a two-day dialog entitled, Muslim Communities Participating 
in Society: A Belgian-U.S. Dialogue.
    The purpose was to discuss everyday practical issues 
regarding Muslim participation in society. Our supporters 
included the U.S. Institute of Peace--and President Dick 
Solomon of USIP--is here with us today, the DaimlerChrysler 
Fund, and Belgium's Royal Institute for International 
Relations, among other groups.
    This was the first ever people to people exchange between 
American and European Muslims and focused on identity, civic 
life, economic opportunity, media betrayal, youth development, 
and women's issues. It was not another academic or typical 
think tank exercise with experts lecturing from a podium about 
Muslims and at Muslims. This was Muslims talking with other 
Muslims. This was dialog, not monolog. They shared their 
differences, their experiences, and their frustrations, but 
also, their good practices and success strategies.
    We engaged the moderates in the hope there would be a 
coincidence of interest. Was this risky? Was it ambitious? Yes. 
But I'm happy to report it also was a success. We struck a 
chord with our Muslim audiences. These are communities that 
feel under siege post 9-11.
    The dialog gave them an opportunity to be seen, to be 
heard, to be acknowledged, and most importantly, to be 
respected. They felt affirmed and they showed their 
appreciation. They took away encouragement, hope, practical 
suggestions, new relationships, and specific projects to work 
on going forward.
    The dialog produced immediate results. The mayors of 
Dearborn, Michigan and Genk, Belgium, who were both there, 
agreed to begin a sister-city relationship. The Islamic society 
of North America, the largest Muslim organization in the United 
States, announced the package of internships, scholarships, and 
exchanges for Belgian imams, teachers and students. KARAMAH, a 
United States Muslim women's legal group, will host Belgian 
Muslim Women for Leadership training. Two research groups, 
Muslims in the American Public Square and Intermedia, will join 
a Belgian partner to study Muslim communities in the West. The 
Annenberg School for Communication at the USC, with Belgium 
partners, will host ``Minorities in the Media'' seminars. It 
was the dialog that keeps on giving.
    At the end of the day however, Mr. Chairman, we have to 
answer how all of this benefits the United States. One, our 
Brussels initiative has helped us mobilize the moderates and 
marginalize the militants. As conference participants, Michel 
Privot and Salam Al-Marayati wrote, the conference's 
multifaceted approach will end the notion that Muslims are 
persecuted in the West and take a point of exploitation away 
from the extremists. We will give a legitimate voice to the 
mainstream community and will counter extremism fomented by 
alienation.
    Second, we helped enfranchise Muslims within the largest 
society to promote the long-term stability of Western 
pluralistic democracy. Third, we reached out to Belgium's 
Muslims on their terms. We displayed no superiority. We offered 
no easy answer and consequently, they saw the U.S. Government 
in a more positive light.
    We needed to find a way to engage Muslim audiences in 
Europe, and we did. We devised a new form of U.S.-sponsored 
Muslim engagement in empowerment based on dialog--not monolog, 
among Muslims themselves.
    The Brussel's vision was not to host another academic 
conference but rather, to begin an ongoing dialog with results 
in concrete initiatives. It was a pilot project that can be 
adapted to different political environments. Four or five more 
conferences like these with follow-on initiatives tied to each, 
can lead to the creation of a network of moderate Muslims.
    As an aside, an interesting thing happened when the 
conference finished the formal sessions and I stood up to thank 
everybody. I said, ``This is not the end. It's the beginning.'' 
That statement produced a standing ovation. When's the last 
time you heard 100 Muslims give a U.S. Government official a 
standing ovation?
    I suggest the Department build on the proven success of 
this dialog to foster positive relationships, networks, and 
initiatives with the Muslim communities all across Europe.
    Thank you, Mr. Chairman, and I'm happy to take your 
questions and comments.
    [The prepared statement of Ambassador Korologos follows:]

  Prepared Statement of Hon. Tom C. Korologos, Ambassador to Belgium, 
                  Department of State, Washington, DC

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to appear before you today to supplement what Assistant 
Secretary Dan Fried and Ambassador Henry Crumpton, the U.S. State 
Department Coordinator for Counterterrorism, have discussed regarding 
Islamist extremism in Europe.
    I will focus my remarks on a new approach to the United States' 
engagement of Muslims in Europe that we have tested successfully in 
Brussels. It is an example of the new public diplomacy--based on 
dialog, not monolog--designed to supplement the extensive United States 
financial, intelligence, law enforcement, defense, private diplomatic, 
and other initiatives directed at Islamist extremism in Europe. It is 
also a model for generating not just a conference or two, but an entire 
movement of mainstream Muslims across Europe to ease Muslim alienation 
and combat extremism.
    Public diplomacy is something I have worked on for years. I chaired 
the U.S. Advisory Commission on Public Diplomacy and was a charter 
member of the Broadcasting Board of Governors. I am a believer in 
public diplomacy and its role in reaching out to other nations in ways 
we can't with traditional diplomacy.
    When I was on the BBG, the engineers brought us big maps showing 
``footprints,'' and the reach of our United States radio and TV 
transmitters and satellite broadcasts throughout the Middle East. They 
told us how many millions of Muslims we were reaching via Radio Sawa 
and Alhurra TV. But it occurred to me that we were missing the 15-20 
million Muslims living in Western Europe.
    When I went to Belgium in July of 2004, I made public diplomacy a 
priority. I discovered almost 5 percent of the population is Muslim. 
There are almost 500,000 Muslims in Belgium, largely from Turkey and 
Morocco. The Muslim community in Belgium, which includes many 
nonpracticing members, is highly diverse. In addition to those of 
Moroccan and Turkish descent, it includes a number of other origins, 
each with their own mosques or traditions. From that grew the seed of 
our idea to build on the President's Europe-wide initiative to reach 
out to Muslim communities.
    As Assistant Secretary Fried said earlier today, our Muslim 
engagement strategy rests on several goals including seeking to build 
mutual understanding with the United States.
    We realized that the United States required a way to listen to and 
speak with this important community.
    Thus, we have developed our main tools of dialog and our public 
diplomacy programs, including exchanges, International Visitor 
Leadership Programs, sending American experts and embassy officials on 
speaking tours, and engaging with the media. The President, Secretary 
Rice, and Undersecretary Hughes have all spoken on the importance of 
these exchange programs and of their support for them.
    Belgium provided a particularly propitious environment for such an 
effort. It has a long history of multiculturalism and multilingualism. 
In Belgium, religion is valued and supported. Public school students 
are required to take moral education and can choose from several 
varieties of Christianity, Judaism, Islam, or secular studies, all 
given by teachers supported by the state. The state also supports 
religious institutions and has been moving over the past year to 
fulfill a more than decade long pledge to provide such support to 
Muslim institutions, channeled through the Muslim executive.
    In Belgium Muslims vote and win elective office. Due to the 
fragmented nature of Belgian politics where several parties divide the 
vote and form shifting coalition governments, Muslims have clout. In 
the last regional elections, for example, Muslims in Brussels won 
nearly a quarter of the seats, roughly their share of the population. 
The Muslim vote was responsible for a change in the political 
leaderships of the ``capital of Europe.'' They voted mostly for one 
political grouping, but now, much like in U.S. politics, other parties 
are making a play for these votes. In addition, Belgium has made a 
visible effort to bring Muslims into government services including the 
police. This along with the fact that Muslims are not ghettoized into 
depressing high rise suburbs, explains the creation of a sense of 
participation.
    Our Embassy in Belgium has been doing Muslim outreach for some time 
including with local and Federal elected officials. Following the 
example of President Bush and Secretary Rice, I held our first Iftar 
dinner shortly after I arrived and I met with leaders of the Muslim 
community as well as the elected Muslim executive and with Muslim 
members of the Belgian Parliament.
    But I am aware that there were other opportunities available for 
learning and understanding. There were no channels of communication 
between American Muslims and European Muslims in Belgium--channels that 
could provide important tools to both communities through lessons 
learned about identity, balancing faith and nationality, and 
integration. When I made this realization and I realized the potential 
strength of building these relationships, I thought I would try to do 
something about it.
    First, we conducted research and found that despite many 
differences such as socioeconomic status and migration histories, many 
Belgian and American Muslims share common experiences as minorities in 
largely Christian and secular Western societies.
    Indeed many Belgian Muslims are skeptical about America. However, 
our research showed they are not mostly concerned about us. They are 
mostly concerned about their daily life in Belgium, and problems such 
as unemployment, discrimination, education, and bias in the media. That 
being the case, what could we do to engage them and not leave the 
Belgian Government feeling we were meddling in their internal affairs? 
We know that in the United States there are approximately 3 to 6 
million Muslims.
    So, for Muslims living in minority status in Europe, it seemed to 
me that American Muslims are natural interlocutors. Despite their 
differences, both communities are striving to define themselves and 
fashion their lives in secular Western society.
    We thought they'd have a lot to offer each other. We also wagered 
that American Muslims could perform the public diplomacy heavy-lifting 
that we in the embassy could not. After all, they have the life stories 
to tell each other and to connect with fellow Muslims.
    Thus, after considerable planning, our Embassy in Brussels, 
together with nongovernmental organizations and private sponsors from 
the United States and Belgium, brought together an impressive group of 
32 American Muslims to meet with an equally impressive group of 65 
Belgian Muslims. The purpose was to discuss everyday practical issues 
regarding Muslim participation in society. Our two-plus day dialog, 
titled ``Muslim Communities Participating in Society: A Belgian-U.S. 
Dialogue'' occurred in Brussels last November.
    It was a first-ever people-to-people exchange between American and 
Belgian Muslims, focusing on Muslim identity, civic life, economic 
opportunity, media portrayal, youth development, and women's issues. It 
was NOT another academic or typical think tank exercise with experts 
lecturing from a podium about Muslims and at Muslims. This was Muslims 
talking with other Muslims. This was dialog. Not monolog.
    They shared their differences, their experiences, and their 
frustrations but also their good practices and success strategies. We 
engaged the moderates in the hope there would be a coincidence of 
interest.
    Was this risky? Was it ambitious? Yes. But I am happy to report it 
also was a success.
    If I may, Mr. Chairman, at this time I would like to present to the 
committee a 7-minute film of excerpts from the conference, including 
our standup Muslim lawyer-comedian, which should give you a feel of 
what I was trying to accomplish.
    We struck a chord with our Muslim audiences. These are communities 
that feel under siege post 9/11. The dialog gave them an opportunity to 
be seen, to be heard, to be acknowledged, and most importantly to be 
respected. They felt affirmed and they showed their appreciation. They 
took away encouragement, hope, practical suggestions, new 
relationships, and specific projects to work on going forward. They 
told us that this was the first time they actually felt as if the 
American Government respected their opinion enough to ask them to share 
their experiences with others. They see the importance and credibility 
of their role.
    The dialog produced immediate results. The mayor of Dearborn, MI, 
Michael Guido, and the mayor of Genk, Belgium, Jef Gabriels, attended 
and spoke of how large Muslim and ethnic communities in their 
respective cities succeeded in participating in society. They 
discussed, ``Here's how it works for us.'' They agreed to begin a 
sister-city relationship.
    The Islamic Society of North America, the largest Muslim 
organization in the United States, announced a package of internships, 
scholarships, and exchanges for Belgian imams and Muslim leaders, 
teachers, and students to come to the United States to engage further 
with the United States' Muslim community.
    KARAMAH, a United States-based Muslim women's legal group, invited 
Belgian Muslim women to the United States for training seminars.
    Muslims in the American Public Square, a cooperative research study 
group, and Intermedia, another research group, will join a Belgian 
partner to produce a study that will provide a template to better 
understand Muslim communities in the West.
    The Annenberg School for Communication at the University of 
Southern California and a Belgian partner are working on a program to 
engage Belgian and American reporters, editors, anchors, and producers 
on the challenges and good practices related to covering Muslims and 
Islam in the media. Given the recent controversy about the Danish 
cartoons, this effort should be very timely indeed.
    There were many discussions among the participants on ideas for 
follow-on sessions and how the dialog might be replicated in other 
European countries. For instance, many ambassadors have asked for 
details on how we did it so they can replicate the model.
    We have dubbed it, ``the dialog that keeps on giving.''
    At the end of the day, however, we have to answer how all of this 
benefits the United States.
    First, we gained the participation of the American and Belgian 
Muslim communities in a United States public diplomacy initiative 
despite skepticism many of them have about the United States. With a 
well-designed program created by professional facilitators, we framed 
and conducted the dialog around domestic issues of importance to 
minorities. We created conditions for genuine dialog of moderate 
Muslims to explore issues of mutual interest, share good practices and 
strategies for participating in society, and identify ideas for future 
cooperation. We helped the Moroccan and Turkish Muslim communities in 
Belgium see how new forms of practical constructive action could 
address their real needs and hopes.
    We have been able to call on conference alumni. When the Mohammed 
cartoons were published, we invited a group of them to meet with 
Assistant Secretary Fried and Farah Pandith from the National Security 
Council. Assistant Secretary Fried urged them to turn to other moderate 
and responsible Muslims throughout Europe to help diffuse the volatile 
cartoon issue.
    Second, we reached out to Muslims in a subtle manner, on their 
terms for which they are thankful, and consequently they saw the U.S. 
Government in a more positive light. They felt respect and that is 
essential to any relationship. American Muslims have craved an 
opportunity to serve their nation and in this venue they did.
    Third, we attempted to empower Muslims and counter the alienation 
that can spur radicalism and even terrorism. We encouraged them to 
define themselves and Islam as peaceful and moderate. Both directly 
serve American interests in the war on terror.
    Fourth, by facilitating contacts with U.S. Muslim leaders for their 
community organizations, we helped enfranchise Muslims within the 
larger society so as to promote the long-term stability of Western, 
pluralistic democracy. As Assistant Secretary Fried pointed out in his 
testimony, Muslim integration is arguably one of the top challenges 
facing Western Europe today. Moving Muslims from the margins to the 
mainstream of society is essential. American Muslims have, through 
their unique stories and experiences, found ways to be proud and 
practicing Muslims and proud Americans who value freedom, liberty, and 
democracy. Their challenges to integrate and develop their own American 
identity are powerful lessons.
    Fifth, we displayed no U.S. superiority. We professed no easy 
answers and sought to learn from the participants. We said our two 
societies shared the common challenge and goal of Muslim integration. 
Indeed our United States participants were impressed by the level of 
political clout of Belgian Muslims. We reached out to our Belgian 
friends to work with us. And ultimately, they did.
    Mr. Chairman, if I may, let me explain for the record how our 
conference developed.
    I must say, initially we faced resistance and concern from many 
quarters, both in the United States and Belgium. There was fear the 
session was going to become an embarrassment for the United States and 
for Belgium. The major concerns were that it was going to turn into an 
anti-American attack on our Middle East policies and our Iraq policy, 
and become an anti-Israeli session. From the Belgian side, the concern 
was that the United States was meddling in local Belgian affairs, 
stirring up Belgian Muslims against the Government. After all, there is 
a large unemployment issue among Belgian Muslims.
    We assured our sponsors and Belgian Government officials beforehand 
that the format of the conference and the caliber of those selected 
diminished the risk for confrontational problems. Having said that, let 
me say we did not in any way try to muzzle or curtail any of the dialog 
or discussion. The participants decided that the purpose of the 
conference was to discuss better ways of making things work and of 
exchanging ideas and thoughts.
    Our next challenge was to agree on a list of participants. We 
vetted, checked, and rechecked those we invited. Some of the 
organizations whose members participated in the conference have been 
accused of being extremist. It is possible that some individual members 
of those organizations have made statements that have been termed 
extremist. Our view however, was to base our selection on the stated 
policies and specific actions of organizations and individuals today 
with regard to harmonious Muslim integration into American and European 
society. We wanted them to hear and participate in our dialog with 
fellow moderates. Did we succeed? I believe that every participant in 
the conference went home with a better understanding for the Muslims on 
the other side of the Atlantic.
    A word about the schedule.
    On Tuesday, November 15, 2005, we held a welcome dinner for the 
American participants at the Embassy residence.
    The next morning the Conference began at a local hotel, where I 
gave opening remarks at a plenary session followed by remarks from 
Ambassador Claude Misson, the Director General of the Royal Institute 
for International Relations. I admonished all participants that I did 
not want to see Americans talking with Americans and Belgians talking 
with Belgians. I insisted that each conversation group at the various 
receptions and lunches have at least one participant from the other 
country.
    Then we broke up into small group dialog sessions, each with a 
facilitator and translator. Topics included identity, women's issues, 
education, employment, media portrayal, and similar issues.
    That evening we held a reception and dinner, which included 
entertainment by American and Belgian performers.
    The next day we held more small group dialog sessions and heard 
from Mayor Guido and Mayor Gabriels.
    A plenary session discussed the results of the dialog sessions, 
conference conclusions, and what follow-on activities might happen.
    We limited attendance to conference participants only, since we did 
not want the participants to feel inhibited by the presence of media or 
outside observers. On the second day, however, we held a briefing and 
press conference for all participants and included several 
distinguished observers from both the United States and Belgium. I 
might add we even had an observer from the General Accountability 
Office.
    Finally, on the third day, we hosted an interfaith luncheon at the 
Embassy with conference participants, 20 Belgian religious leaders, 
Embassy staff and Belgian Government officials.
    Mr. Chairman, the applause you saw at the end of the DVD wasn't for 
me--although it sure felt good. It was an emphatic response to the 
recognition of common bonds across the Atlantic. When was the last time 
100 Muslims gave a U.S. Government official a standing ovation?
    It worked, Mr. Chairman. We needed to find a way for Muslims in 
Europe to move beyond the media image and directly perceive the reality 
of life in America. We found one. We have discovered a new form of 
U.S.-sponsored Muslim engagement and empowerment--based on dialog, not 
monolog, among Muslims themselves.
    Just as our Brussels vision was not to host a conference but to 
start an ongoing dialog and program of action, I suggest the department 
seize the opportunity and expand similar exchanges to catalyze and 
cultivate more relationships, networks, and initiatives with the Muslim 
communities around the world.
    Thank you, Mr. Chairman and members of the committee. I am happy to 
take your questions and comments.

    Senator Allen. Thank you, Ambassador Korologos, for your 
comments and your enthusiasm and your creative innovative 
approaches to it. I was thinking, anybody giving a standing 
ovation for anyone is a big deal, regardless of the religious 
belief. I had a great thrill. I got to address 160,000 NASCAR 
fans at Bristol and gave the command, ``Start you engines,'' 
and everyone agreed. So when you mention 100, I'd have you get 
160 people ever agree, much less 160,000.
    How can the findings of your program, which I think is 
outstanding--what you are doing--and I know you wanted to show 
a film and it didn't quite fit in with the hearing here--do you 
see that this sort of a program--obviously, you believe that it 
can help mitigate the influence of a very few. I mean, it's 
just saying that it's 1 percent or less--less than 1 percent, 
but as dangerous as Islamist extremist groups, do you see this 
sort of an approach which is apparently working in Belgium and 
where it's been implemented, do you see that having an 
influence in a place like France, a place like Germany, Spain, 
and those countries?
    Ambassador Korologos. Yes, sir. I sure do, Mr. Chairman. 
The Muslims all over Europe are different. The Muslims in 
France are Algerian and in the United Kingdom, they are mostly 
Pakistanis and in Belgium as I say, they are Turkish and 
Moroccan. Tailored to those audiences, reaching out to the 
moderates as I said, to marginalize the extremists makes a lot 
of sense. And the other thing that this conference produced is 
the effect of a tree being created, that these moderate Muslims 
can go to their brethren outside their own communities and calm 
things down.
    We had an instance when Ambassador Fried came to Brussels 
and asked me to put together some of the alumni from the 
conference so that he could talk to them about the cartoon 
issue--the Danish cartoon issue that had developed. And what we 
managed to do there is get them to call on their other Muslim 
colleagues throughout Europe, to diffuse that volatile issue, 
and it worked. Yes, sir.
    Senator Allen. Well, I think that you need to take this 
program elsewhere. It's working well, and it doesn't need to be 
you, but others can. It's an innovative, but a very logical 
common sense approach. I think it's respectful, which is most 
important. And it would seem to that if people, regardless of 
their background, feel and franchise as part of a country, the 
fabric, the simulation of a country, and also have whatever 
their expressions are about a government, have recourse--
nonviolent obviously--but recourse to effectuate change because 
the citizens of a country are ultimately the owners of the 
country, and governments governed by the justification or with 
any sort of credibility, only with the consent of the people. 
So I very much commend you for this, Mr. Ambassador, and I'd 
really like to see this continue on throughout Europe. Give us 
updates as we go forward, as you go forward and get others to 
be at hearings of the Korologos tree.
    Ambassador Korologos. Thank you.
    Senator Allen. Thank you, very much.
    Ambassador Korologos. Thank you, Mr. Chairman.
    Senator Allen. Now I would like to have our third panel. If 
you all could come forward, Doctor Niblett, Doctor Habeck, and 
Mr. Benjamin.
    Our third and final panel is completely comprised of three 
witnesses. Two from the think tank community and one from 
academia. Robin Niblett is executive vice president and chief 
operating officer of the Center for Strategic and International 
Studies. He's also the director of the Centers' Europe program 
where he specializes in United States-European Security and 
Economic Relations and in the ongoing process of European 
political and economic integration. Mr. Niblett is the author, 
or contributor to a number of books and reports including--I'm 
just going to mention a few, including ``The Atlantic Alliance 
Transformed'' and ``From Shadows to Substance, An Action Plan 
for Transatlantic Defense Cooperation.''
    It's perfect that you are here, Dr. Niblett. You're right 
on target with your studies. Dr. Mary Habeck is an associate 
professor of Strategic Studies at the Paul H. Nitze School of 
Advanced International Studies at Johns Hopkins University 
where she teaches courses on military history and strategic 
thought. Dr. Habeck is the author of ``Knowing the Enemy: 
Jihadist Ideology and the War on Terror'' and `` Storm of 
Steel: The Development of Armor Doctrine in Germany in the 
Soviet Union, 1919 to 1939.'' This is just looking at you, the 
armor and all this, the students must love listening to you 
talk on those subjects, but she also has coauthored--coedited 
two volumes on the First World War and the Spanish Civil War. 
She is currently working on a second book on the war on terror 
entitled, ``The Jihadist Way of War.''
    Mr. Daniel Benjamin is a senior fellow of the CSIS 
International Security program from 1994 to 1999; he served on 
the National Security Council Staff, including 2 years as 
director for transnational threats. From 1994 to 1997, he was a 
special assistant to the President, and National Security 
Council director for speech writing. Before entering the 
Government, Mr. Benjamin was Berlin bureau chief for the Wall 
Street Journal. He has also been a foreign correspondent and 
staff writer for Time magazine.
    Thank you all for appearing before the subcommittee this 
afternoon, and we look forward to hearing your testimony. We'll 
hear from our witnesses in the order in which I introduced you 
and listed on the agenda. And Mr. Niblett, would you--do you 
have any opening statement? We'd like to hear from you, then 
Dr. Habeck, then Mr. Benjamin.

 STATEMENT OF DR. ROBIN NIBLETT, EXECUTIVE VICE PRESIDENT AND 
CHIEF OPERATING OFFICER, DIRECTOR OF THE EUROPE PROGRAM, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Niblett. Thank you very much, Mr. Chairman. I have 
submitted my testimony. As you've suggested earlier, I will 
provide a summary to try and get it within your 5 to 7 minute 
target. It might drift to 10. Thank you very much, Mr. 
Chairman, for this opportunity to discuss the rise of Islamic 
extremism in Europe. This is clearly posing one of the central 
threats to European security and is likely to continue to do so 
for some time to come. I believe it is also presenting real 
challenges to the European economy, European conceptions of 
society, and European conceptions of identity. It also contains 
important implications for the United States and the 
transatlantic relationship.
    I think it's worth noting, as we've heard already, that the 
rise of Islamic extremism has awakened a particular fear in 
Europe. A fear that a certain amount of their own citizens, 
second- and third-generation immigrants, see their own country 
and their own country men and women as the enemy. It's not just 
the attacks that have been perpetrated in recent years, which 
we mentioned already, but the large number of plots of attacks 
that have been uncovered--some 30 serious potential attacks 
that have been caught before they could take place over the 
last 4 to 5 years, that have awakened this fear.
    From a European perspective, this is a civil war. It's an 
internal war. I think I heard Ambassador Crumpton describe it 
potentially as an insurgency and I would concur with that view. 
The central problem that Europe faces right now is that the 
alienation that citizens feel for economic and social reasons 
in many cases, do not become a bridge into terrorism and into 
extremism. And that's the challenge--I'd say the central 
challenge that Europe faces right now.
    I'd like to make three quick sets of comments. First, on 
the rise of Islamic extremism, though you've heard on that 
already, so I'll be very quick. But more on the European 
responses, and a little bit on the transatlantic dimension.
    In terms of the rise of Islamic extremism in Europe, I'm 
talking specifically about extremism rather than the rise of 
Islam in Europe. We have both internal and external forces at 
play. The external force has primarily been the exodus from 
certain North African and Arab countries of extreme religious 
leaders who are posed to the status quo, political in most 
cases, in those countries and who moved to Europe as a refuge. 
And having moved to Europe, they see that Europe is part of the 
battleground of what many people have described as a growing 
Islamic Civil War--a battle between Islamic schools and between 
political forces in Islam in which Europe has been caught up.
    Senator Allen. Just so I understand that you're saying a 
civil war with a different----
    Dr. Niblett. Between different Islamic schools and between 
Islamic leaders who don't agree with the political organization 
back in their countries. Between coopted Islamic teachers who 
support the government and those who don't support the 
government, who are seen as having a different point of view.
    Senator Allen. OK. I appreciate it. I just wanted----
    Dr. Niblett. Yeah.
    Senator Allen [continuing]. To make sure that we got that 
important.
    Dr. Niblett. Sorry, I'm running a little fast.
    Senator Allen. It's all right.
    Dr. Niblett. I apologize. On the intern dimension of 
Islamic extremism--I will go through this very quickly because 
you've already heard Ambassador Secretary Fried's comments. 
Europe has a guest worker culture, people who were not expected 
to remain in Europe and who have found themselves quickly 
isolated from mainstream society.
    I think there are three primary factors. One is that these 
are groups who have, in many cases, sought to maintain their 
own cultural identity. They're also faced with a homogeneity 
and an impenetrability of European society. These are cultures 
that have existed, in many cases, for thousands of years, which 
are not particularly open to immigrants.
    And third, there is the way the governments have tried to 
deal with these two problems. They have basically said, ``Let's 
pick multiculturalism as a way of not bridging the differences 
between our two types of society--between the Islamic societies 
and their own native societies.''
    Unemployment of Muslim immigrants has been referenced 
already. Three times the national level, in many cases, 
throughout Europe. What we haven't talked about as much has 
been exclusion from educational systems that have proved 
themselves, in most cases, to be too rigid to be able to bring 
Muslim communities within. There's also been the effect of the 
Internet, of Arabic satellite and TV channels, and a general 
conception of a globalizing Islam, a form of resistance that is 
providing an alternative identity to young second- or third-
generation Muslims who do not feel themselves well integrated 
into their societies.
    At a minimum, these trends are leading to a growing 
separation between large parts of Europe's Muslim populations 
and the societies in which they live. At worst, they're opening 
up opportunities for extremism to become terrorism. And, within 
Europe, Mark Sageman and other analysts have made the point 
that young Muslims feel caught between two identities--they 
don't belong to the country they've immigrated into, nor do 
they belong anymore to the society from which their parents 
emigrated. They are ripe and open to be susceptible to 
extremist visions and basically being given an alternative 
identity. They draw on Jihad as one of their main motivating 
factors. Then there is the large number of young Muslim 
immigrants who've been taken to prison. And just to give you 
one example, in the United Kingdom, roughly 10 percent of the 
prison population is Muslim, as opposed to 3 percent of Muslims 
in the general population. Prisons are being used as a key area 
of recruitment for this transition from criminality to 
terrorism.
    European responses. Let me turn to that quickly now. I 
think European governments are aware of the danger. They know 
that it only takes a very, very small proportion of the total 
Muslim population to become radicalized for them to be 
dangerous. They are concerned that social radicalization might 
lead quickly to terrorist radicalization. The kind of riots 
that we saw, for example, in Paris, which had no Muslim 
extremist motivation at all, could lead to new prison 
population which is then radicalized, and become terrorists 
down the line.
    Governments are concerned about the well-educated second- 
and third-generation Muslim immigrants. Those who are becoming 
biotechnologists, scientists, IT engineers, and might be drawn 
into terrorist networks and increase the lethality of those 
networks.
    They are concerned about the expansion and deepening of 
cross border linkages. In particular, not just into West 
European countries, but through to some of the lawless regions 
just outside the European Union.
    There's a concern, as well, about the connection of 
returnees from Iraq, although we haven't seen much of that 
actually take place just yet. Zarqawi was involved even back in 
the late 1990s and the early 2000s in helping recruit networks 
that have turned up in Europe subsequently. And, ultimately, 
most of these governments are concerned that they are not doing 
a particularly good job of coordinating amongst themselves to 
provide an effective response.
    There are four areas in which European governments are 
responding most clearly. First of all, they are trying to work 
collectively to break down their vulnerability. The fact that 
these are separate and different governments means that the 
Muslim of extremist communities can move smoothly between and 
across borders without being checked. We've seen some really 
quite impressive agreements, at least in the areas of asylum 
law, police and intelligence cooperation, and judicial 
coordination. I won't provide the list of specifics for you 
just right now.
    Second, they are trying to make bigger moves in the 
economic area. Tax incentives for hiring young staff and 
expanding apprenticeships. Third, they're trying to combat 
ghettoization by forcing integration and demanding that new 
immigrants meet language tests and knowledge of culture tests. 
The British and the Dutch, in particular, have taken the lead 
here. They are trying to limit the amount of child brides being 
brought in. This would be a remarkable phenomenon, especially 
in the Netherlands and Denmark where up to 60 to 70 percent of 
marriages involve imported women, very young, often from 
backward areas, who then propagate this sense of separation.
    And in the fourth area, they are trying to break the 
linkage between Islamic extremist ideology and Muslim youth 
across Europe, and this involves expelling radical imams, 
criminalizing the incitement to hate, and also trying to 
encourage the growth of Islamic groups that are not tied into 
extremist movements.
    But I think we would be remiss not to point out that this 
isn't just European governments. The Muslim society as a whole 
is trying to change the Muslim community. The Muslim community 
itself in Europe does not subscribe,as we well know, to the 
kind of extremism associated through these attacks. There are 
many, especially community leaders, who are looking for 
flexible and modern ways for them to be able to combine their 
faith and their lives with European society.
    Some of the polling that was done in London on the last set 
of attacks demonstrated some 89 percent of United Kingdom 
Muslims opposed to violence; over 80 percent supportive of the 
police; 65 percent want to have English be taught to imams; 
they should be able to preach in English; and even 55 percent 
believe that foreign clerics should be rejected and not have 
the right to teach.
    These are all laudable steps, but if I may just point out 
some of the limitations that governments face right now. 
European Union-level cooperation is extremely difficult across 
borders and within police services themselves. Economic reforms 
as we've seen with the French riots, are incredibly difficult 
to push through.
    I think it's ironic that many of the protesters, in France, 
against the new law that's going to encourage young people to 
be able to get jobs between 16 and 25--admittedly by making it 
easier to fire them--are in fact students who will be in 
university all the way through to 25. In any case, not many 
young people for who looks targets are protesting in the 
streets.
    In the area of promoting greater social integration, there 
is a big backlash emerging amongst European political groupings 
on the right, in particular. And governments are trying to 
react to that and therefore, they are coming down primarily on 
a lot of steps on the hard side, expelling imams, stop and 
search, and so on. If European governments can't handle 
grievances at the same time as they apply the stick, you might 
find rates of radicalism increasing and driving a lot of 
members underground.
    I will also mention that it is great to try integration at 
the border. But the main problem Europe faces is integrating 
people once they're inside. So doing the language programs and 
cultural--you know, cultural educational programs are going to 
have little impact on the internal side.
    If I can just point out one more item. There's a deeper 
structural standoff between European societies and their Muslim 
communities. European societies are expecting Muslims to adapt 
to European identity. European societies have existed for 
hundreds of years. They do not have a melting pot approach to 
integration. Whereas most Muslim societies have a very firm 
idea of their religious beliefs and an interaction between 
their religious faiths and their daily lives. And, ultimately, 
as Muslim communities in cities throughout Europe have 
developed a dominant position in their communities, they've 
often demanded that societies adapt, whether it would be who 
gets to treat patients in hospitals or whether it would be 
bathing times for swimming pools. And to the extent that 
Muslims are reimposing upon European society some of the more 
limited forms of social interaction that European societies 
have gotten rid of in the past, it's feeding the backlash.
    If I could just say a word quickly about transatlantic 
cooperation, I would simply note, as Ambassador Crumpton did, 
and as you did in your opening remarks, there is the danger of 
European citizens being able to get into the United States to 
conduct attacks under the visa waiver program. Both the U.S. 
Government and the European Union Governments have taken some 
important steps and we heard these from Ambassador Crumpton on 
counterterrorism cooperation and there are a number of other 
areas in border controls where actually the levels of 
cooperation are very successful.
    I would point primarily to two different areas where the 
transatlantic dimension, I think, is risky. Muslim extremists 
do not need to travel to the United States to be able to 
undertake attacks. They can take American targets in Europe. 
They can take American targets in Iraq. In essence, they are 
getting their fill of attacking America, proving they can 
without having to come over here.
    In the longer term, I think the danger is that we will see 
some European radicals return to the Muslim countries from 
which, in many cases, they emigrated or their parents 
emigrated. And they may be the spark that ignites some 
dangerous political changes in countries that are allied to the 
United States and allied to a gradualist form of democratic 
change in those countries. And I think there is also a risk 
that European politicians, over time, may circumscribe their 
cooperation with the United States as a result of their need to 
be able to keep growing Muslim populations on side.
    So, in conclusion, I would say that the level of 
frustration and alienation amongst many members of the Muslim 
communities in Europe has not abated. The risk of another 
terrorist attack is real. If another attack happens, the 
backlash will be severe. Even without another attack, levels of 
alienation are going to continue and removing them will be a 
long process. In essence, we're at the beginning of this 
process, not at the end and ultimately, we're not in control of 
the agenda to try to resolve it.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Niblett follows:]

 Prepared Statement of Dr. Robin Niblett, Executive Vice President and 
  Chief Operating Officer, Director of the Europe Program, Center for 
          Strategic and International Studies, Washington, DC

    Thank you, Mr. Chairman, for this opportunity to address you and 
members of the Senate Subcommittee on European Affairs on the issue of 
Islamic extremism in Europe. Islamic extremism has emerged over the 
last 5 years as one of the central threats to Europe's security and 
social cohesion. Its rise has exposed serious and deep-rooted 
deficiencies in European society, economy, and values. It is a central 
part of Europe's current crisis of identity, which has been driven also 
by the recent dramatic enlargement of the European Union and by the 
failure of its member states and citizens to ratify its proposed 
Constitutional Treaty last May. The rise of Islamic extremism in Europe 
also poses important security considerations for the United States in 
the fight against international terrorism. How European governments and 
societies deal with it will be an important determinant of the sort of 
partner Europe will be for the United States in the coming years.
    It is worth noting at the outset that the rise of Islamic extremism 
has awoken a particular fear in Europe. European nations are now aware 
that they contain within their borders immigrants, and first, second, 
and third generation citizens who see their own governments, countries, 
and fellow citizens as the enemy. Driven by Islamic extremist ideology, 
a very small but important minority are willing to kill and maim, 
potentially on a massive scale, in the name of that ideology. The 
attacks in Madrid a little over 2 years ago and in London last July 
were the most visible and shocking manifestations of this new reality. 
As significant, but less well-reported, has been the foiling by law 
enforcement and intelligence agencies of over 30 plots to perpetrate 
similar spectacular attacks throughout Europe since September 2001, a 
large proportion of them in the last 18 months and including plots 
involving chemical and biological weapons.\1\
---------------------------------------------------------------------------
    \1\ For example, the October 2005 arrest of seven Muslim men in 
Denmark in connection with an alleged terrorist plot involving suicide 
vests in Bosnia (Dan Bilefsky, ``Cartoons Ignite Cultural Combat in 
Denmark,'' The International Herald Tribune, December 31, 2005); arrest 
of seven youths in an anti-terrorist raid in Holland (Roger Cohen, ``A 
European model for immigration falters; Dutch facade of tolerance under 
strain,'' International Herald Tribune, October 17, 2005); the arrest 
in April 2005 of members of the ``Hofstad Network'' in Holland who were 
accused of planning a string of assassinations of Dutch politicians as 
well as an attack on the Netherlands' sole nuclear reactor and Schiphol 
Airport (Ian Bickerton, ``Van Gogh murder trial tests belief in Dutch 
justice system,'' Financial Times, July 12, 2005); the discovery of a 
plot by a London-based group to acquire 500 kilogrammes of the toxin 
saponin (Steven Fidler, ``London chemical plot foiled,'' Financial 
Times, November 22, 2003); the further arrest of eight
second-generation South Asian immigrants, reportedly trained in al-
Qaeda camps, and charged with assembling a dirty bomb; and in the year 
after the Madrid 3/11 bombings, Spanish police uncovered a Pakistani 
cell attempting to bomb a high profile target in Barcelona, and a North 
African cell planning to attack the High Court with a truck bomb 
(Elaine Sciolino, ``Spain continues to uncover terrorist plots,'' New 
York Times, March 13, 2005).
---------------------------------------------------------------------------
    The European experience reflects an important difference from the 
United States where, following the devastating attacks of September 11, 
2001, the threat posed by Islamic extremism has been kept and been 
addressed primarily offshore. While domestic intelligence services and 
the Department of Homeland Security keep a careful watch on its 
potential appearance inside America's borders, from the U.S. 
perspective, efforts to tackle Islamic extremism are more matters of 
international intelligence, military and convert action abroad, foreign 
policy, and foreign assistance. For European governments, it is the 
internal problem that is most complex and daunting. It is not only a 
matter of rolling up existing cells or working to identify extremist 
individuals, it is also a case of ensuring that the sense of alienation 
felt by much of Europe's large and growing Muslim population does not 
serve as a bridge to draw more individuals over to the side of 
terrorist action. And it is a case of ensuring that external 
circumstances, such as the continuing conflict in Iraq, the failure to 
achieve peace between Israelis and Palestinians, or political 
instability in North Africa do not exacerbate Europe's internal 
problem.
    With these points in mind, I will address three issues in this 
testimony. First, what is the state of current thinking on what has led 
to the rise of Islamic extremism in Europe and what are the connections 
to violent terrorist action? Second, armed with the experience of the 
last 2 to 3 years, how do European governments now perceive the threat 
and what steps are they taking to address this phenomenon? And, third, 
I will touch briefly upon the transatlantic dimensions of this danger.

           THE DRIVING FORCES OF ISLAMIC EXTREMISM IN EUROPE

    The rise of Islamic extremism in Europe has flowed from a 
combination of external and internal forces. Externally, Europe became, 
from the late 1950s onwards, a principal destination for Islamic 
radicals and other individuals opposed to the political status quo in 
their home countries in the Middle East. They sought refuge from 
political persecution or arrest at home in European cities such as 
London, Munich, and Amsterdam. Once in Europe, they continued to 
organize and promote change in their native countries under the more or 
less watchful eye of national intelligence services.\2\ At the same 
time, they sought to recruit new converts to their cause from among 
young Muslims already living in Europe. In this sense, Europe has 
become part of the battleground of a growing Islamic civil war between 
different schools of Islam and, in particular, between governmentally-
controlled schools and those groups which currently seek to promote a 
more global approach, from the conservative and sometimes extreme 
Muslim Brotherhood to the violent al-Qaeda.
---------------------------------------------------------------------------
    \2\ The British experience was illustrative of this trend, with the 
British tendency to observe extremist groups that were banned in other 
European countries until recently, earned London the nickname 
``Londonistan.'' For more on this, see Stephen Ulph, ``Londonistan,'' 
Jamestown Foundation Terrorism Monitor, vol. 2, issue 4, February 26, 
2004.
---------------------------------------------------------------------------
    Internally, Islamic extremism has been fed by the growing sense of 
frustration and alienation felt by second- and third-generation 
children of the Muslim economic immigrants to Europe of the 1950s and 
1960s. As has been well documented by scholars of Islam in Europe, 
these economic migrants were welcomed when they took many of the low-
paying jobs that helped fuel Europe's economic boom in the 1950s. They 
were generally treated, however, as ``guest workers'' who would 
eventually return home. Instead, supported by generous family 
reunification policies and the lack of economic opportunities in their 
home countries, most economic migrants chose to stay in Europe. Rather 
than integrate, many of them formed separate communities within 
national European societies--driven by their desire to maintain their 
own culture and religious customs, by the homogeneity and 
impenetrability of European societies, and by policies in most European 
countries that managed these two phenomena by following policies of 
multiculturalism, which permitted and even facilitated the emergence of 
parallel societies within these countries, a trend that was reinforced 
by the decision to house many of these immigrants in housing complexes 
far away from urbanized city centers.
    By the time the children of the initial immigrants grew up, many of 
the low-
paying jobs had disappeared, especially in the textile industries in 
the United Kingdom and in the jobs once needed to help French and 
German reconstruction after the Second World War. Growing levels of 
unemployment in Europe hit localized immigrant Muslim communities hard, 
with unemployment levels, especially among the young, anywhere from 2 
to 3 times the 10 percent average in the Eurozone. Even so, their 
presence has led to growing racial tension with the poor and unemployed 
locals, bringing an additional dimension of separation between the two 
communities. This tension was exposed clearly in noting between Muslim 
and white youths in Oldham and Bradford in North England in the summer 
of 2001, and more recently in the riots last November in French 
banlieues (suburbs).
    The difficulties that young Muslims often face in escaping poverty 
and social and economic marginalization have been exacerbated by 
education systems in many European countries that reinforce social 
rigidities. In Germany, for example, the proportion of children of 
Turkish origin who make it to the top of the education system's three 
tracks--the one that leads to university--stands at only 12 percent, 
compared to 47 percent for German students as a whole; while 40 percent 
of immigrant children attend the lowest branch of secondary school, 
twice the average German proportion.\3\
---------------------------------------------------------------------------
    \3\ Program for International Student Assessment report, cited in 
Katrin Bennhold, ``In Germany, immigrants face a tough road,'' 
International Herald Tribune, December 26, 2005.
---------------------------------------------------------------------------
    This alienation of large swathes of Europe's Muslim communities has 
interacted with the rise of Islamic extremism as a global phenomenon to 
form a mutually reinforcing and combustible mix. The 1990s witnessed 
not only the continuing decline in the prospects of many Muslim 
immigrants in Europe, but also, outside Europe, the rise of a new 
Islamic resistance, exemplified initially by the mujahedeen in 
Afghanistan, by the resistance to Russian forces in Chechnya, 
(intriguingly) by the fatwa issued against Salman Rushdie--the first 
time that Islamic law had attempted to penetrate directly inside a 
European country--and, most dramatically by the attacks in New York and 
Washington in 2001. The late 1990s and early 2000s have also witnessed 
the spread of the Internet for communication and for posting messages; 
and the emergence of new Arab satellite TV channels, independent of 
national governments and inspired by orthodox Muslim groups. These new 
media have given Muslims in Europe the opportunity to develop the 
feeling of belonging to an imagined collective Muslim international 
community or ``umma'' that cuts across their ethnic backgrounds. 
Pakistanis in London now express an unlikely solidarity with 
Palestinians living on the West Bank.
    The examples of the growing numbers of Islamic jihadis and the 
ubiquitous messages of those who preach the virtues of a return to 
strict interpretations of Islam are giving a new sense of identity to 
young Muslims who feel that they do not belong to their adoptive homes. 
Gathered together in ethnically homogeneous enclaves or ghetto-like 
apartment complexes in the suburbs of many of Europe's major cities, 
young men are increasingly enforcing their own versions of Sharia law 
upon the daily life of their Muslim brothers and sisters. The European 
Council for Fatwa and Research, for example, which is composed of imams 
primarily from non-European countries and is led by the Qatar-based 
Youssef Qaradawi, issues verdicts on questions of how to interpret 
divorce law and the appropriateness of accepting interest on life 
insurance policies. \4\ Young women, in particular, are finding that 
their ability to lead independent lives is increasingly circumscribed, 
not just by the enforcement of dress codes and forced exemption from 
social activities in the name of Muslim female piety, but also by 
familial pressure to accept arranged marriages at a young age to men 
(often relations) from the ``homeland.''
---------------------------------------------------------------------------
    \4\ Ian Johnson, ``Islamic justice finds foothold,'' Wall Street 
Journal, August 4, 2004.
---------------------------------------------------------------------------
    The position of second-generation Muslim women in these communities 
is complicated by the continuing practice of bringing in child bride's 
from the immigrants' homelands, whose arrival--generally from backward 
rural areas, unable to speak more than their native language--
continually retards the possible integration of their families into 
their domestic societies. The figures prepared for France's Council for 
Integration in 2004 are quite sobering in this respect. They estimate 
that 70,000 young women living in France are in arranged or forced 
marriages. Other groups estimate that, in Denmark, 90 percent of 
immigrants had imported a spouse from their homeland, while a Dutch 
study put their figure at 70 percent.\5\
---------------------------------------------------------------------------
    \5\ Marlise Simons, ``Muslim women take charge of their faith,'' 
International Herald Tribune, December 2, 2005.
---------------------------------------------------------------------------
    At a minimum, these trends are leading to a growing separation 
between large parts of Europe's Muslim populations and the societies 
within which they live. At worst, they are opening up opportunities for 
certain individuals to be recruited into groups that espouse terrorist 
violence as a means of resisting oppression and pursuing their 
political goals. The emergence of so-called ``garage mosques'' in 
Madrid and other European cities reflect a splintering of religious 
Muslim instruction throughout Europe that is offering venues for 
radical preachers to inculcate in the minds of disoriented young 
Muslims the route of martyrdom or violence as a solution to their 
personal crises of identity. For many young Muslims who feel that they 
belong neither to their home country nor to their ancestral home, 
belonging to a radical Islamic group brings new levels of certainty, 
which can then be exploited by terrorist leaders for recruitment 
purposes.
    Radical preachers and other recruiters have proved quite adept at 
converting young Muslims to their cause while the latter are in prison, 
generally carrying out sentences for minor criminal offenses. Mohammed 
Bouyeri, the murderer of the Dutch TV producer Theo van Gogh, was 
reported to have become more devout while in prison on a minor assault 
charge; and, after his release, fell under the thrall of Syrian 
militant Abu Khatib, around whom the Dutch ``Hofstad Network'' was 
first brought together.\6\ Another example is Richard Reid, the ``shoe 
bomber,'' who was converted to Islam while serving time in a British 
young offenders' institution, and upon his release started attending 
the Finsbury Park mosque run by fundamentalist cleric Abu Hamza.\7\
---------------------------------------------------------------------------
    \6\  Glenn Frankel, ``From civic activist to alleged terrorist,'' 
Washington Post, November 28, 2004.
    \7\ ``Who is Richard Reid?'' BBC News, December 28, 2001, http://
news.bbc.co.uk/2/hi/uk+_news/ 1731568.stm.
---------------------------------------------------------------------------
    More recently, the ongoing conflict in Iraq has served as a 
powerful rallying cause for young Muslims in Europe. In a posthumously 
released videotape, Mohammad Siddique Khan, the oldest of the London 
bombers and the one considered the leader of the group, praised Abu-
Musab al-Zarqawi, and spoke of ``words having no effect'' in the face 
of ``atrocities perpetuated by [Western] governments'' in Iraq.\8\
---------------------------------------------------------------------------
    \8\ BBC translation of tape released on Al Jazeera, September 1, 
2005, http://news.bbc.co.uk/2/hi/uk_news/4206800.stm.
---------------------------------------------------------------------------
    In contrast with the United States, therefore, where September 11 
marked a watershed in controlling the domestic spread of Islamic 
extremism, September 11 marked the first in a series of recent moments 
that have galvanized the recruitment of individuals to the terrorist 
cause in Europe.

                CURRENT EUROPEAN CONCERNS AND RESPONSES

    The terrorist attacks that have taken place in Europe over the past 
2 years and the regular uncovering of plots by Muslim extremists in 
cities across Europe have driven home for European governments, law 
enforcement, and security services the seriousness and potentially 
long-term nature of the threat that they now face. With the projected 
growth in the size of Europe's Muslim populations over the next 20 
years, just the smallest proportion need to be attracted to commit acts 
of violence for this to pose a potentially overwhelming challenge to 
European security. In Germany, for example, immigrants now account for 
22 percent of 15-year-olds, compared with 9 percent for the population 
as a whole. If they grow up in increasingly alienated communities, the 
risks of some of their number following the example of groups in 
Amsterdam, Paris, or Leeds will increase.
    In this context, the concerns of European policymakers are 
coalescing around several themes:

  <bullet> That rioting in Paris last fall, Muslim reactions to the 
        ``cartoon'' controversy, and a continuing influx of Muslim 
        immigrants will feed an expanding popular backlash in Europe 
        against Muslims which will, in turn, drive new converts into 
        the extremist Islamic camp.
  <bullet> That a larger proportion of Muslim communities might be 
        sufficiently radicalized or isolated to offer a popular base 
        either of support or of acceptance within which extremists can 
        circulate, making the work of law enforcement and intelligence 
        services that much harder.
  <bullet> That well-educated young Muslims, especially those studying 
        in the areas of information technology, computer sciences, 
        chemistry, and biotechnology might be drawn to the cause of 
        Islamic extremism and put their knowledge to the service of 
        groups wanting to carry out spectacular attacks on European 
        soil.
  <bullet> That there will be a further expansion and deepening of 
        cross-border linkages across Europe among radical Islamist 
        terrorist groups.\9\
---------------------------------------------------------------------------
    \9\ Robert Leiken notes this trend with reference, for example, to 
the Dutch Hofstad group, which was connected with networks in Spain, 
Morocco, Italy, and Belgium. Robert S. Leiken, ``Europe's angry 
Muslims,'' Foreign Affairs, July/August, 2005.
---------------------------------------------------------------------------
  <bullet> That returnees from Iraq might bring organizational and 
        operational skills to Europe that could further increase the 
        lethality and frequency of attacks.\10\
---------------------------------------------------------------------------
    \10\ European Union counterterrorism head Gijs de Vries has 
highlighted this threat in particular. See ``Euro-terrorists pose `home 
threat','' Associated Press, February 2, 2005.
---------------------------------------------------------------------------
  <bullet> That European countries offer an infinite number of 
        potential targets for terrorist attack and that no country is 
        immune from being considered a target.
  <bullet> That European police, intelligence, customs, and judicial 
        services are not well enough organized to confront this fluid 
        new threat.

    European governments are undertaking four broad sets of strategies 
to combat these concerns.
    They are trying to take collective, as well as individual, steps to 
lessen their vulnerability to the threat posed by terrorist groups--
these steps are primarily in the field of asylum law, police and 
intelligence cooperation, and judicial coordination. European Union 
governments instituted a Single Arrest Warrant in 2002 to enable police 
forces to arrest suspects in one country for offenses committed in 
another. The have increased substantially their use of Europol to track 
suspects across the European Union (the 4,700 cases dealt with in 2003 
represented a 40 percent increase on the previous year). They are 
aligning national criminal laws for terrorist offenses, and are 
introducing biometric information on visa applications for better 
tracking and cross-referencing. More recently, at an extraordinary 
meeting of European Union interior ministers on July 13, 2005, in the 
wake of the London bombings, ministers agreed on measures to force 
communications companies to retain telecommunications data, to 
institute the use of a new European ``evidence warrant,'' to improve 
the cross-border exchange of information concerning terrorist offenses, 
and to work more closely on terrorist financing.\11\ In August 2005, 
high ranking officials from Britain, France, Germany, Italy, and Spain 
announced a coordinated approach on stricter quotas for immigrants 
along with fingerprinting for all visa applicants. This was followed by 
the inaugural flight of what has been dubbed ``Air Europe,'' where 40 
illegal Afghan immigrants were returned to Afghanistan on a special 
flight designed to expeditiously return illegal immigrants to their 
nations of origin from the 5 major European capitals.
---------------------------------------------------------------------------
    \11\ July 13th Extraordinary Council Meeting of Justice and Home 
Affairs Ministers, http://ue.eu.int/ueDocs/cros--Data/docs/pressData/
en/jha/85703.pdf.
---------------------------------------------------------------------------
    They are trying to improve the social integration of these 
communities by offering better economic opportunities to young Muslims 
living in deprived neighborhoods. The French response to last 
November's rioting by estranged Arab youth in the banlieues, for 
example, has included proposals aimed at expanding apprenticeships, 
offering employers tax incentives to hire young staff, and working with 
local authorities to target youth unemployment. However, the French 
Government's proposal to create a ``First Job Contract'' (CPE), that 
would circumvent France's rigid labor laws and enable employers to 
freely fire employees under the age of 26 within their first 2 years of 
employment (and theoretically, therefore, give employers greater 
incentive to hire young people) has met with widespread popular 
disapproval and demonstrations by middle class, primarily nonimmigrant 
university students.
    European governments are also combating the ``ghettoization'' and 
separation of their Muslim populations from the rest of society by 
instituting programs that are designed to force Muslim communities to 
integrate better with the rest of domestic society. In February of 
2004, in an attempt to initiate the integration process better at the 
border, the British Government announced that prospective immigrants 
must demonstrate a level of proficiency in English and knowledge of 
British history and culture in order to obtain citizenship. The 
Netherlands has instituted its own program that obliges immigrants to 
take 375 hours of Dutch language classes and watch a film entitled ``To 
The Netherlands'' that displays images of Dutch history, culture, and 
daily life, including, as has been widely reported, shots of topless 
women and homosexual kissing. Governments are also taking steps to 
stamp out dangerous outside influences: In the Netherlands for example, 
the Government has blocked two satellite television stations, Lebanese 
Al Manar and Iranian Sahar TV1, that were broadcasting messages 
supporting terrorism.\12\ On a different track, some European 
governments have decided to try to tackle the tendency of many Muslim 
families to import young brides by raising the minimum age for 
immigrant spouses. In Denmark and Sweden the minimum age has been 
raised to 24 and in the Netherlands it has been raised to 21. These 
changes reflect the realization that, if Muslim women constantly start 
out their lives in Europe as newly-arrived immigrants, then their 
children, the next generation, are likely to find it harder to 
integrate also.\13\
---------------------------------------------------------------------------
    \12\ ``Netherlands blocks Islamic `hate-tv' channels,'' Agence 
France Presse, January 26, 2006.
    \13\ Marlise Simons, ``Muslim women take charge if their faith,'' 
International Herald Tribune, December 2, 2005.
---------------------------------------------------------------------------
    Finally, European governments are trying to break, as far as 
possible, the linkages between Islamic extremist ideology and Muslim 
youth across Europe, with measures to block entry to or expel radical 
imams; criminalize incitement to hate and violence; and to encourage 
the growth of Islamic groups with closer ties to local communities. In 
this respect, increasing numbers of European governments have decided 
to follow the long-standing practice of the French Government, which 
has used legislation created in 1945 to summarily expel radical 
preachers, including eight alone last year. On February 16, 2006, the 
British Parliament passed the new terrorism bill that criminalizes the 
glorification of terror-inspired violence and bans certain extremist 
groups. Shortly before the passage of this law, a British court 
imprisoned fundamentalist cleric Abu Hamza al-Masri (the spiritual 
leader to both ``shoe bomber'' Richard Reid and the ``20th hijacker'' 
Zacarias Moussaui), for 7 years for ``inciting murder and racial 
hatred.'' The United Kingdom Government also decided to ban the 
extremist Hizb ut-Tahrir (Party of Liberation), a party that espouses 
the creation of a global caliphate using nonviolent means and that 
operates also actively in Denmark.\14\ For its part, the Italian 
Government passed legislation in August 2005 permitting the rapid 
deportation of foreigners considered security threats and/or with 
terrorist connections, and then immediately used the new legislation to 
deport a number of imams.
---------------------------------------------------------------------------
    \14\ Dan Bilefsky, ``Cartoons ignite cultural combat in Denmark,'' 
International Herald Tribune, December 31, 2005.
---------------------------------------------------------------------------
    In their place, European governments are trying to encourage the 
emergence of more moderate Islamic organizations, led as far as 
possible by Muslim citizens rather than immigrant preachers. On 
November 30, 2005, for example, Italian Interior Minister Giuseppe 
Pisanu established the Consultative Council for Islam (Consulta 
Islamica that acts as a representational body for Italian Muslims to 
air grievances and settle Islamic provisions in hospitals, prisons, and 
cemeteries. Similarly, in 2002-2003, French Interior Minister Nicolas 
Sarkozy helped initiate the French Council for the Muslim Religion 
(CFCM), that is two thirds elected by the wider French Muslim community 
and one third appointed by mosques, aimed at helping alleviate growing 
tensions between the Muslim population and the government. This group 
aims to create a governmental counterbalance in the French Muslim 
community to organizations like the Union of French Islamic 
Organizations (UOIF), a powerful and influential Muslim organization 
that has been largely dominated during its history by groups loyal to 
the Muslim Brotherhood.\15\ European governments have also taken a more 
hands-on approach, instituting policies that call for imams to be 
educated or born in the country they preach in (as in France); for 
foreign imams to attend classes to learn doctrine in the language of 
their adopted homeland (as in the Netherlands); or for some regulation 
of the sermons that imams preach (as in Spain).
---------------------------------------------------------------------------
    \15\ Marlise Simons, ``Muslim women take charge of their faith,'' 
International Herald Tribune, December 2, 2005.
---------------------------------------------------------------------------
    These steps toward integration are not being taken solely by 
European governments and authorities. There has also been a strong 
Muslim response to the increasingly tense situation across Europe, with 
a growing search by clerics and ordinary Muslim citizens for forms of 
Islamic practice and living that are sufficiently flexible and modern 
to enable them to live and participate actively in European society. In 
the northern British city of Leicester, for example, the local council 
embraced immigrant communities by setting up interfaith councils which 
have subsequently helped integrate later immigrant waves and which have 
helped shield Leicester from the racial troubles experienced by 
neighboring Birmingham and other Northern British cities.\16\ Young 
Muslim women are also leading the way in many cases, seeking a 
university education and demanding more freedom in choosing their 
marriage partners, while at the same time maintaining their Islamic 
beliefs, breaking the chain of second-generation children alienated by 
parents who refused to integrate into their adopted societies.
---------------------------------------------------------------------------
    \16\ Graham Bowley, ``New Islam in an old English town,'' 
International Herald Tribune, October 31, 2005.
---------------------------------------------------------------------------
                           LIMITS TO PROGRESS

    While European governments are now engaged in a flurry of 
activities designed to root out Islamic extremism from their societies 
and reverse the levels of social alienation and separation that many 
Muslims experience in Europe today, the fact is that true integration 
will take a long time to achieve. And during this period, the threat of 
new attacks by the violent minority will be hard to stop.
    From an operational stand-point, European Union-level cooperation 
against extremism and terrorism remains very difficult. European 
governments must overcome the inevitable obstacles not only to cross-
border cooperation between their national law enforcement and 
intelligence agencies, but they must also drive greater cooperation 
within their national jurisdictions between departments and agencies 
that possess the institutional inertia of most government 
bureaucracies. Despite the introduction of the Single Arrest Warrant, 
for example, the German Constitutional Court refused to honor a request 
last July submitted under the Arrest Warrant by Spanish authorities for 
Germany to hand over suspected Madrid bombing suspect Mamoun 
Darkanzali. The Court ruling held that the German legislation adopted 
to support the European Union Arrest Warrant was ``unconstitutional.'' 
In addition, the failure to ratify the European Union's new 
Constitutional Treaty last year, has delayed indefinitely arrangements 
to move aspects of judicial and internal security cooperation from a 
consensus to a qualified majority voting approach, a change which would 
have made overcoming many of these obstacles more manageable.
    The limits to Europe's ability to institute economic reforms that 
will open new job opportunities in deprived economic areas and reduce 
high levels of unemployment among immigrant communities are self-
evident. Resistance to economic reform in Germany, France, Spain, 
Belgium, and Italy, to name but a few European countries, has been 
widespread over the past 2 years. So long as Europe's economies remain 
in the doldrums, the social deprivation of many Muslim immigrants, as 
well as other European citizens, caught in persistent unemployment will 
persist.
    In the area of promoting greater social integration between Muslim 
communities and European societies at large, European governments are 
being simultaneously driven to act in these areas and constrained in 
the sorts of steps that they can take by the growing public hostility 
toward Islam and Muslim immigration across European public opinion. The 
support in the polls for far-right anti-immigrant parties like Jean-
Marie Le Pen's French Front Nationale, Belgium's Vlaams Blok, the 
United Kingdom's British National Party, as well as the strengthening 
of anti-immigrant sentiment in European mainstream political parties 
are all a reflection of growing fear of immigrant communities. The 
combination of European anti-Muslim feeling, tougher policing of Muslim 
communities, and efforts to control radical preaching risks creating a 
vicious cycle. Perceived European intolerance will evoke a Muslim 
counterreaction and play into the hands of extremists whose actions 
then further inflame European anti-Muslim feeling. And, without 
governments being able to address broader Muslim grievances, banning 
Muslim groups and stricter laws on incitement toward hatred will merely 
drive the extremists underground. At the same time, being able to 
discern which Muslim groups to treat as the best interlocutors for 
European governments in addressing Muslim grievances has exposed the 
extensive divisions within European Muslim communities. Governments 
generally lack clear counterparties with whom to discuss and negotiate 
change.
    Many of Europe's new ``citizenship'' programs seem similarly 
limited in their potential impact. Ultimately, there is little point in 
imposing tests about British or Dutch culture as new immigrants arrive 
if immigrants are unable to or do not wish to become part of the 
culture once they are inside. Assimilation of Muslim immigrants into 
European culture and values needs to take place over the long term 
within European societies, not in the short term at the border.
    European governments also face serious opposition to some of the 
measures that they are undertaking from domestic human rights groups 
and the judiciary. One of the clearest examples was the opposition that 
Prime Minister Tony Blair's Terrorism Bill faced in the House of 
Commons and in the House of Lords, which succeeded together in watering 
down some of its bolder initial proposals. One practical problem was 
where to deport immigrants and immigrant preachers perceived to be 
threatening to public order. The United Kingdom has had to sign 
memoranda with Lebanon, Libya, and Jordan guaranteeing that people 
extradited to those nations will not be tortured or face the death 
penalty. The British government is currently in discussion with Algeria 
on a similar agreement.
    Beyond these practical obstacles to combating Islamic extremism and 
potential terrorism, there also appears to be a deeper, structural 
stand-off between European societies and their Muslim communities. The 
historical homogeneity of European societies means that there is an 
expectation that Muslims should integrate into national European 
identities, not that Muslim and other communities should interact with 
local cultures to produce the sort of melting pot of national 
identities that has characterized the evolution of American society 
through its history. Many Muslims resist this expected adaptation of 
their beliefs and culture, and resistance will mean stressing 
differences rather than similarities.\17\ Unlike many other immigration 
waves within Europe (for example, the Spanish and Portuguese 
immigrations that took place in the 1970s and 1980s or those of the 
Central Europeans today), the interlinkage between Islam and people's 
daily life often means that Muslim communities demand adaptation from 
their new homes as a price for their integration. Demands for changes 
in which doctors attend women patients, dress codes for young women in 
schools, or separate bathing times in public pools tend to increase the 
sense of popular hostility toward Muslim communities whenever they 
become large enough to be able to impose their views. The growing 
popular perception is that Muslims are now trying to re-impose on 
European societies some of the social strictures that Europeans spent a 
large part of the last century overturning.
---------------------------------------------------------------------------
    \17\ For more on this point see Francis Fukuyama ``A year of living 
dangerously,'' Wall Street Journal, November 2, 2005.
---------------------------------------------------------------------------
    This European sensitivity is particularly acute today, when 
Europeans themselves are uncertain about what sort of identity they are 
trying to promote or protect. Europeans are unsettled by the impacts 
that economic globalization are having on the viability of the European 
social model. The recent European Union enlargement to Central and 
Eastern Europe and possible further enlargement to Turkey has 
challenged for many Europeans what are the borders of Europe. And many 
of the cultural and religious beliefs that defined Europeanness in the 
past have now become, in many instances, rituals that are devoid of 
their original spiritual meeting. Defensiveness over Europe's own 
identity will make it that much harder for European leaders and 
societies to compromise with Muslims over the best ways to accommodate 
the two groups together.
    Fundamentally, Europeans will not be able to change their modes of 
social integration into ones that resemble those of the United States 
in just the next 2 to 3 years. Even if handled right, the steps that 
European governments have undertaken will take at least a generation to 
work their way through. In the meantime, we are likely to witness a lot 
of European treatment of the symptoms rather than causes of the recent 
rise in Islamic extremism in Europe. At the same time, European 
governments will have to remind themselves that, just as a lack of 
social integration does not necessarily lead to Islamic extremism or 
violence, nor will greater integration or assimilation mean the end of 
extremism or the risk of terror.

                   IMPLICATIONS FOR THE UNITED STATES

    The evolution of Islamic extremism in Europe carries both long-term 
strategic and near-term security implications for the United States. In 
the near term, the danger is that, as Robert Leiken and others have 
argued, Islamic radicals who are European citizens might serve as 
perpetrators of future terrorist attacks in the United States.\18\ 
Citizens from most West European states have the right to travel to the 
United States visa-free and could circumvent, therefore, many of the 
controls put in place since 2001 to monitor and protect America's 
borders.
---------------------------------------------------------------------------
    \18\ Robert Leiken, ``Europe's Angry Muslims,'' Foreign Affairs, 
July/August 2005.
---------------------------------------------------------------------------
    In this context, it is worth noting that the U.S. Government and 
its European counterparts have succeeded in taking a number of 
practical steps in recent years to try to confront this and other risks 
posed by international terrorism.

  <bullet> United States intelligence and European intelligence 
        agencies regularly exchange information on potential threats, 
        and the United States and European Union countries have set up 
        joint investigation teams composed of law enforcement and 
        judicial officials to track and disrupt potential terrorist 
        groups.
  <bullet> Bilaterally, the United States and the European Union signed 
        Mutual Extradition and Legal Assistance Agreements in 2003 to 
        help expand law enforcement and judicial cooperation to combat 
        international terrorism.
  <bullet> United States and European Union officials worked together 
        in the United Nations to push Resolution 1373 to combat 
        international terrorism and instituted new procedures to tackle 
        the financing of terrorist groups.
  <bullet> United States and European Union officials are also working 
        closely in other international agencies, such as the 
        International Civil Aviation Authority (ICAO) and International 
        Maritime Organization (IMO), to strengthen international 
        standards, such as the International Port Facility and Vessel 
        Security Code.
  <bullet> The United States and the European Union have established a 
        policy dialog on border and transportation security. The two 
        sides have also come to agreement on sharing information about 
        passengers flying to the United States and U.S. customs 
        officials are stationed at some 20 European ports as part of 
        the U.S. Container Security Initiative.

    While positive, each of these initiatives remains a work in 
progress, with plenty of room for improvement. For example, European 
willingness to share classified information with United States 
authorities on terrorist suspects or accept extradition requests can be 
circumscribed by concerns that suspects could face the death penalty 
when tried in United States courts. And the United States' provision of 
intelligence to European courts is affected by the inadmissibility of 
classified information as evidence in certain cases.
    This being said, European Islamic extremists do not need to travel 
to the United States in order to take their war to America. American 
citizens living in Europe or Europe-based assets are likely to offer 
easier targets. Equally important, the war in Iraq has offered Islamic 
radicals from Europe and elsewhere a battleground on which to confront 
and kill Americans, an opportunity which, judging by the breakup of 
recruiting cells in Paris, Madrid, and other European capitals, some 
number of Europeans have taken up.
    In the long term, there are two broader sets of concerns for U.S. 
interests. One is that Islamic extremists based in Europe could 
increasingly provide the spark that ignites popular revolts against 
moderate Arab governments in North Africa, the Middle East, and the 
Gulf region, or against other vulnerable allies of the United States, 
such as Pakistan. Many of the Islamic extremists who have sought refuge 
in Europe have done so with a view to spurring change back in their 
home countries and returning as conquering heroes, much as Mohammed 
returned and drove his enemies out of Mecca after his years of self-
imposed exile in Medina 14 centuries ago.\19\ Governments in Arab 
capitals sympathetic to the United States, from Rabat to Riyadh, are 
especially concerned about the seemingly unchecked proliferation of 
Islamic extremist movements across Europe and what returning members of 
their European diaspora might mean for their countries' political 
stability.
---------------------------------------------------------------------------
    \19\ Robert Leiken (ibid.).
---------------------------------------------------------------------------
    A less well-defined risk for the United States is that European 
governments faced with large, growing, and restive Muslim populations 
might tailor or manage some of their foreign policies toward the Arab 
world in ways that cut across United States and transatlantic 
interests. United States-European cooperation in the Arab-Israeli peace 
process or in dealing with Iraq over the long term are obvious areas 
where this could be a consideration.

                               CONCLUSION

    The level of frustration and alienation among many members of 
Europe's Muslim communities has not abated. At the same time, the risk 
of another terrorist attack perpetrated by Islamic extremists in Europe 
remains high. All European governments are potential targets, not only 
those explicitly supportive of the United States in its foreign 
policies in the Middle East. If there is another attack, the popular 
backlash against Muslims in Europe will be severe. Even without another 
attack, the integration of Muslim communities in Europe will be a 
difficult and protracted process. The many internal obstacles to 
integration will continue to be exacerbated by external forces over 
which national European governments have little if no control. 
Europeans are awake to these dangers and are doing their best to 
respond, but we are at the beginning of the process.

    Senator Allen. Thank you, Dr. Niblett. That's very eye 
opening and also disconcerting, in many respects. I'll have 
some questions at the conclusion of this panel and I'd like to 
hear from Dr. Habeck.

STATEMENT OF DR. MARY HABECK, ASSOCIATE PROFESSOR OF STRATEGIC 
  STUDIES, THE PAUL H. NITZE SCHOOL OF ADVANCED INTERNATIONAL 
     STUDIES, THE JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Habeck. Thank you very much, Mr. Chairman, for this 
opportunity to talk about this very important topic. I intend 
today to talk about the ideology that inspires terrorist 
attacks around the world--the ideology of Jihadism. And to do 
so, I think that I need to make a distinction here between 
Islamism and Jihadism which are sometimes conflated in people's 
minds.
    The main characteristic----
    Senator Allen. By the way, the words we use really do 
matter, and to the extent that as we try to address these 
issues in integration and access, it's very important. Any sort 
of coaching or guidance that you all may want to impart to me, 
and obviously they'll be part of the record, is important. I'm 
sorry to interrupt, but we want to send the right message. That 
we're not here to condemn somebody because of their religious 
beliefs. That would be un-American. Americans believe in 
religious tolerance. Especially me, since I held Mr. 
Jefferson's seat in the House of Delegates and I think the 
statute of religious freedom is the first freedom in our 
country.
    So excuse me for interrupting, but that's an important 
caution and lecturing we're getting from you, professor.
    Dr. Habeck. No problem at all. I don't mean to lecture.
    Senator Allen. No. I'm glad you are, we need to learn.
    Dr. Habeck. Well, I just want to distinguish between the 
two terms for you so that when I talk about Jihadism, it would 
be clear just precisely what I'm talking about. Because, I also 
don't want to make this sound as if I'm condemning the vast 
majority of the Islamic world that I don't agree with these 
ideas.
    So the main characteristic of Islamism, is that Islamists 
have political power and a state in order to express this and--
on the other hand, well, let me just--I'll just say that today, 
only about 20 percent or less of the Islamic world agrees with 
this and 80 percent are traditional or moderate Muslims who 
don't at all agree with this vision of Islam and what it should 
be like. And frankly, in Europe, you're talking more about 95 
percent do not agree with this, and perhaps even greater in 
some countries.
    On the other hand, Jihadism is a radical version of 
Islamism that has decided that only violence would allow them 
to create the perfect Islamic state. So that distinction 
between the two, I think, is really key. One is willing to use 
violence, the other is committed to some sort of political or 
social process in order to gain an Islamic state.
    Jihadi's have several other distinctive beliefs that 
separate them from the majority of both Muslims and Islamists. 
Most importantly, they argue that democracy is not just wrong, 
it is in direct contradiction to the fundamental principle of 
Islam known as towhid, and I'd be happy to go into that in 
greater depth later on.
    Anyone who supports democracy becomes, in this belief 
system, an infidel who can and should be killed. Second, they 
recognize only one version of Islamic law--that is their 
Shari'a is correct and state openly that any Muslim who does 
not follow their variety of Shari'a is not only a sinner, but 
also a nonbeliever.
    Finally, they have vowed eternal violence and hatred toward 
all non-Muslims until the entire world is ruled by their 
version of Islamic Law.
    Now, that is far different than the vision that most 
Islamists, let alone most Muslims, have, and the men who 
carried out the attacks in the United States on 9-11 were 
Jihadi's, as are the other members of al-Qaeda's, Zarkowi and 
many other terrorists and terrorist groups that are active in 
the world today.
    European Jihadism shares many of the same characteristics 
of Jihadism, in general. Jihadis in Europe are also anti-
democratic and anti-liberal, arguing as do their ideological 
brethren around the world that democracy contradicts the 
fundamental principle of Islam.
    The leader of a particular Jihadist group in Britain, for 
instance, says that democracy is a separate religion from Islam 
and therefore, anyone who follows its tenants has put himself 
outside the fold of Islam. Hizb al-Tahrir, which is active 
throughout Europe and also by the way Central Asia, compares 
democracy to prostitution and gambling to show the serious sin 
that a Muslim is committing if he votes or joins a political 
party.
    Ideas such as religious and personal freedom, pluralism, 
compromise, and interfaith dialog were also attacked by 
European Jihadis as un-Islamic.
    Many European Jihadis, too, have as their main goal the 
creation of a worldwide Islamic state, which they call a 
caliphate. There are several groups throughout Britain, 
Germany, and Turkey, in particular, which have dedicated 
themselves to setting up this state and who believe that 
eventually the entire world would be dominated by their version 
of Islam.
    In some instances, Jihadi's have taken over mosques and 
have attempted to immediately implement their version of Islam, 
creating it as it were a miniature state within a state. The 
recent case of Metin Kaplan in Germany is instructive in this 
regard. He declared himself the caliph--that is the head of the 
caliphate, and when he was forced to flee from Turkey to 
Germany he simply set up his own miniature regime in Cologne. 
When a competitor attempted to make himself into a rival 
caliph, Kaplan allegedly had him murdered.
    Jihadi's in Europe, as around the world, have also not been 
backward about declaring other Muslims nonbelievers, an act 
known as takfir. Takfir is not just a theoretical or religious 
declaration, as excommunication has now become within 
Christianity, but has specific legal stipulations within their 
version of Islam, which include declaring the blood of the 
apostate, as they call these people--halal--that is it can be 
shed by anyone without fear of punishment. It also declares the 
divorce from the spouse, the loss of rights to any property 
which can be alluded by anyone who wishes, and a loss of the 
right to inherit or pass on goods by inheritance.
    To declare takfir in a fellow Muslim means, in fact, that 
anyone can kill that Muslim and take all his or her goods 
without penalty or sin. Some Jihadis in Europe have declared 
most of the world's Muslims unbelievers. In fact, declaring 
takfir on the anti arrest of the Islamic world explains why 
they very rarely condemn the deaths of innocent Muslims during 
Jihadist attacks in Iraq, Afghanistan, Indonesia, or the United 
States.
    Finally, Jihadi's in Europe believe in participating in 
violence around the world and inciting, or at the very least, 
financing others to do so. Jihadist leaders in Britain, 
Germany, France, Turkey, and elsewhere have been very active in 
recruiting young Muslims to fight wars around the world--
Kashmir and Chechnya in particular, and later in Afghanistan 
and Iraq, and in declaring that this violence must continue 
until their version of Islam dominates the world.
    In fact, one of the articles that I used for writing my 
book says, Islam must come to dominate the world through force. 
I mean, they're not very backward about declaring this openly. 
There are however, certain characteristics that make European 
Jihadism distinct from Jihadism elsewhere. Until recently, 
Europe was a welcoming home for many Jihadis who took advantage 
of European openness to thousands of legitimate Muslim refugees 
seeking political asylum or employment. Thus, whereas men such 
as Mullah Krekar, Uma Bakri Muhammad, and Abu Hamza would have 
been prosecuted or even executed in their own states, they were 
able to find not only refuge in Europe, but also a platform for 
recruiting others, preaching their hatred, and inciting 
attacks.
    At the same time, Jihadist leaders always sent their 
followers to commit acts of violence outside the countries that 
gave them refuge. This was both for religious as well as 
practical reasons. Jihadis argue that they had a covenant of 
security with these countries and they could severely curtail 
their freedom of maneuver if they were implicated in any 
violence.
    However, after the invasions of Afghanistan and Iraq, 
Jihadist leaders began to tell their followers that countries 
such as Spain and Britain had betrayed this covenant and were 
no longer protected from attacks. The final blow in Britain was 
the decision to arrest and prosecute Abu Hamza. His trial began 
Tuesday, July 9, and the bombing in London came 2 days later.
    One should not imagine, by the way, that it was solely for 
British or Spanish support of the war in Iraq, that these 
terrorist atrocities were committed. Jihadis in Spain were 
prepared to carry out at least three more attacks, even after 
the Spanish Government had withdrawn its troops from Iraq.
    In closing, I would like to say that I believe that despite 
the very good police and intelligence work done by countries 
throughout Europe--and there have been a multitude of placative 
and uncovered and people arrested, and there's also this very 
good work going on to bring the Muslim community out and get 
them expressing ideas. I am so in favor of this idea of dialog.
    Jihadism is a growing threat in Europe at this point. This 
is for several reasons and perhaps, most importantly, the 
underlining causes of radicalism--that is Muslim alienation 
from the European homes, unemployment, and other factors--that 
have not been adequately dealt with.
    Second, Jihadis, unlike moderate Muslims, believe in 
proselytizing. This means that Jihadist leaders actively seek 
young, disillusioned Muslims and work very hard to recruit 
them, winning them away from their traditional beliefs to a 
radicalism that promises answers to all their problems.
    And third, when moderate imams attempt to reign the 
radicals in, Jihadis have no qualms about using threats and 
violence against their own community. This has created an 
atmosphere of intimidation. It's making it difficult for 
moderate and liberal Muslims to counter the appeals of the 
Jihadis in some countries. Now, I'm thinking in particular 
here, of the Netherlands and Denmark where there has been some 
serious intimidation carried out against moderate Muslims, 
putting them in fear for their lives.
    Finally, Jihadis around the world have now made Europe one 
of their legitimate targets. I believe that they now have the 
right to attack whenever possible. This means that the relative 
safety and security of European countries could be a thing of 
the past and we may, unfortunately, see more attacks such as 
those in London and Madrid in the near future. Thank you.
    [The prepared statement of Dr. Habeck follows:]

Prepared Statement of Dr. Mary Habeck, Associate Professor of Strategic 
               and International Studies, Washington, DC

    Mr. Chairman and members of the committee, thank you for giving me 
the opportunity to talk about this important topic.
    I intend today to talk about the ideology of jihadism in Europe. To 
do so, I believe that I should begin by defining terms. Islamism, a 
form of Islam also known as fundamentalism or salafi Islam, is a 
creation of the early 20th century. Today only about 20 percent of the 
Islamic world follows some version of Islamism, which means that 80 
percent are moderate or traditional Muslims who disagree profoundly 
with this vision of Islam. The main characteristic of Islamism is a 
belief that Islam must have political power and state control in order 
to be correctly implemented. Jihadism is the radical version of 
Islamism which has decided that only violence will allow them to create 
the perfect Islamic state. This can be contrasted with the vast 
majority of Islamists, who support some sort of gradual political or 
social process to achieve their ends. Jihadis have several other 
distinctive beliefs that separate them from the majority of both 
Muslims and Islamists. Most importantly, they argue that democracy is 
not just wrong, it is in direct contradiction to the fundamental 
principle of Islam (tawhid). Anyone who supports democracy becomes, in 
this belief system, an infidel who can and should be killed. Second, 
they recognize only one version of Islamic law (shari'a) as correct and 
state that any Muslim who does not follow their variety of shari'a is 
not only a sinner, but also a nonbeliever. Finally, they have vowed 
eternal violence and hatred toward all non-Muslims until the entire 
world is ruled by their version of Islamic law. The men who carried out 
the attacks on the United States on 9/11 were jihadis, as are the other 
members of al-Qaeda, Zarqawi, and many other terrorists and terrorist 
groups active in the Islamic world today.
    European jihadism shares many of the same characteristics of 
jihadism in general. Jihadis in Europe are also antidemocratic and 
antiliberal arguing, as do their ideological brethren around the world 
that democracy contradicts the fundamental principle of Islam. `Umar 
Bakri Muhammad, the leader of al-Muhajiroun (a British jihadist group) 
says that democracy is a separate religion from Islam and therefore, 
anyone who follows its tenets has put himself outside the fold of 
Islam. Hizb al-Tahrir, which is active throughout Europe, compares 
democracy to prostitution and gambling to show the serious sin that a 
Muslim is committing if he votes or joins a political party. Ideas such 
as religious and personal freedom, pluralism, compromise and interfaith 
dialog are also attacked by European jihadis as un-Islamic.
    Many European jihadis, too, have as their main goal the creation of 
a worldwide Islamic state which they call the ``caliphate.'' There are 
several groups throughout Britain, Germany, and Turkey which have 
dedicated themselves to setting up this state and who believe that 
eventually the entire world will be dominated by their version of 
Islam. In some instances, jihadis have taken over mosques and attempted 
to implement their vision of Islam immediately, punishing any Muslims 
who do not follow their precepts or leadership. The recent case of 
Metin Kaplan in Germany is instructive in this regard: He declared 
himself the caliph and, when he was forced to flee from Turkey to 
Germany, simply set up his own miniature regime in Cologne. When a 
competitor attempted to make himself into a rival caliph, Kaplan had 
him murdered.
    Jihadis in Europe--as around the world--have not been backward 
about declaring other Muslims nonbelievers, an act known as ``takfir.'' 
Takfir is not just a theoretical or religious declaration, as 
excommunication has now become within Christianity. It has specific 
legal stipulations, which include the declaring of the blood of the 
apostate ``halal'' (i.e., it can be shed by anyone without fear of 
punishment), his divorce from his spouse, the loss of rights to any 
property, which can be looted by anyone who wishes, and his loss of the 
right to inherit or pass on goods by inheritance. To declare ``takfir'' 
on a fellow Muslim means, in fact, that anyone can kill that Muslim and 
take all his goods without penalty or sin. Some jihadis in Europe have 
declared most of the world's Muslims unbelievers, which explains why 
they never condemn the deaths of innocent Muslims during jihadist 
attacks in Iraq, Afghanistan, Indonesia, or the United States.
    Finally, jihadis in Europe believe in participating in violence 
around the world and in inciting or, at the very least, financing 
others to do so. Jihadist leaders in Britain, Germany, Turkey, France, 
and elsewhere have been very active in recruiting young Muslims to 
fight in wars around the world: Kashmir and Chechnya in particular, and 
later in Afghanistan and Iraq, and in declaring that this violence must 
continue until their version of Islam dominates the world.
    There are however certain characteristics that make European 
jihadism distinct from jihadism elsewhere. Until recently Europe was a 
welcoming home for many jihadis who took advantage of European openness 
to thousands of legitimate Muslim refugees seeking political asylum. 
Thus, whereas men such as Mullah Krekar, Umar Bakri Muhammad or Abu 
Hamza would have been prosecuted or even executed in their own states, 
they were able to find not only refuge in Europe, but also a platform 
for recruiting others, preaching their hatred, and inciting attacks.
    At the same time, jihadist leaders always sent their followers to 
commit acts of violence outside the countries that gave them refuge. 
This was for both religious as well as practical reasons; jihadis 
argued that they had a covenant of security with these countries and 
that it would severely curtail their freedom of maneuver if they were 
implicated in any violence. However, after the invasions of Afghanistan 
and Iraq, jihadist leaders began to tell their followers that countries 
such as Spain and Britain had betrayed this covenant and were no longer 
protected from attacks. The final blow in Britain was the decision to 
arrest and prosecute Abu Hamza--his trial began Tuesday, July 9, and 
the bombings in London came 2 days later. One should not imagine, by 
the way, that it was solely for British or Spanish support of the war 
in Iraq that these terrorist atrocities were committed: Jihadis in 
Spain were prepared to carry out at least three more attacks even after 
the Spanish Government withdrew its troops from Iraq.
    In closing, I would like to say that I believe that, despite the 
very good police and intelligence work done by countries throughout 
Europe, jihadism is a growing threat to Europe. This is for several 
reasons. Perhaps most importantly, the underlying causes of radicalism 
(Muslim alienation from their European homes, unemployment, and other 
factors) have not been adequately dealt with. Second, jihadis, unlike 
moderate Muslims, believe in proselytizing. This means that jihadist 
leaders actively seek young disillusioned Muslims and work very hard to 
recruit them, winning them away from their traditional beliefs to a 
radicalism that promises answers to all their problems. Third, when 
moderate imams attempt to rein the radicals in, jihadis have no qualms 
about using threats and violence against their own community. This has 
created an atmosphere of intimidation that is making it difficult for 
moderate and liberal Muslims to counter the appeals of the jihadis. 
Finally, jihadis around the world have now made Europe one of their 
legitimate targets and believe that they now have the right to attack 
whenever possible. This means that the relative safety and security of 
European countries could be a thing of the past and we may see more 
attacks such as those in London and Madrid in the near future. Thank 
you.

    Senator Allen. Thank you, Dr. Habeck, for the very helpful, 
although disconcerting testimony and research.
    Mr. Benjamin.

STATEMENT OF MR. DANIEL BENJAMIN, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC

    Mr. Benjamin. Mr. Chairman, thank you very much for the 
opportunity to appear here today to discuss the critical issue 
of Islamist extremism in Europe. I'm also honored to be on such 
a distinguished panel. I say that not only because my 
colleague, Robin Niblett, is two seats away and Mary Habeck is 
next to me, but because I had the opportunity to follow my 
former colleagues, Hen Crumpton and Dan Fried, who in my view 
are two of the most dedicated and capable civil servants in the 
U.S. Government today, and I think we are very fortunate to 
have them working on these very important issues.
    I'm also pleased to have a chance to speak with you just 
one day after the publication of the Currents and Crosscurrents 
of Radical Islamism. This is a report of our transatlantic 
dialog on terrorism, which is now entering its third year. I've 
brought copies for anyone who would like to see it. This has 
been, in my view, one of the best of four for discussing what 
we know about Jihadism, in general, and what is going on in the 
United States, and in particular, Europe.
    Senator Allen. Is this document--what are you referencing 
here? All right. If you would make sure the committee gets a 
copy of that, we'll make that--as well as all of your 
testimony--make that part of the record.
    Mr. Benjamin. Very glad to. It is an unwelcome irony that 
Europe which emerged from the cold war more united, peaceful, 
and prosperous than at any time in history, may be threatened 
by Jihadist violence as much as any other part of the world 
outside Iraq.
    Europe is home to the world's largest Muslim diaspora, and 
is at the heart, the battle over Muslim identity. The great 
Israeli scholar, Emmanuel Sivon, observed that al-Qaeda is a 
phenomenon not at the heartland of the Muslim world but rather 
it's periphery, and in saying that, I believe he was 
emphasizing that it is really where Muslim identity is 
challenged that we often have our greatest fears and our 
greatest problems.
    The March 2004 Madrid bombing, the assassination of Dutch 
artist Theo van Gogh, and the London attacks have all affected 
Europe profoundly, puncturing the feeling that many shared 
after September 11th, that the United States was the primary 
target and the Europeans had little to fear. But if there was a 
belated sense of awakening, it's not because the Jihadist came 
to Europe late, but rather because terrorists had failed 
repeatedly in earlier attempts.
    Robin mentioned the figure of 30 major plots disrupted and 
I used the same figure in my testimony--in my prepared 
statement. I think we would probably need to update that just 
in the last few months, because there have been a number of 
conspiracies uncovered in that time. And it's worth noting that 
in the United States, we have only had a couple of dozen 
arrests for terrorist offenses. In Europe, the numbers are in 
the hundreds and possibly thousands. Well, it is absolutely 
true that those who embrace the most radical form of Islamism 
or Jihadism are in a small minority. They are nonetheless far 
more evident in Europe than they are in the United States.
    It's also worth citing here, a home office--that is a 
British home office estimate--of 10,000 to 15,000 British 
Muslims who quote, ``Actively support al-Qaeda or related 
groups.'' And I would add, by the way, that if we look at that 
tally of all those different conspiracies that haven't been 
disrupted, it really is a testament to the effectiveness of 
police and intelligence cooperation, especially on the 
transatlantic side. In fact, as we can discuss afterwards and 
as I think Robin eluded to, that cooperation is often better on 
the transatlantic basis and on a transatlantic bilateral basis, 
in particular, than it is within Europe itself.
    Everyone--or many of the speakers--have already addressed 
the issues of why British--I'm sorry--European Muslims tend to 
be so alienated. I won't belabor that point, only to say that 
Europe has really sleepwalked into a awkward multiculturalism. 
Unlike the American Muslim community, Muslims in Europe live 
for the most part, in ghetto-like segregation, receive second-
rate schooling, and suffer much higher unemployment than the 
general population.
    If you look at the personal individual biographies of 
people who have been involved in Jihadist terror, marginality 
is a common theme even among those who are highly educated, it 
is not--this is not a phenomenon of the poor, but it is a 
phenomenon of the marginal.
    Another phenomenon that I think needs to be addressed is 
the modern one of identity shopping in which European Muslims 
have essentially begun to behave much as non-Muslim Europeans 
in the sense that they have different identities available to 
them now. Just as a Belgian can be a Belgian, a Fleming, or a 
European, a Muslim can choose whether he wants to consider 
himself an Algerian Muslim, a Belgian Muslim, for example, or a 
Muslim full stop. He can also decide if he wants to be a 
European, but we're not seeing very many do that. In fact, 
according to a 2002 survey of Muslims in Great Britain, 41 
percent of respondents under 35 describe themselves solely as 
Muslim rather than British and Muslim, which was one of the 
other choices on the questionnaire.
    Together with this identity shopping phenomenon, has come a 
greater attachment to what's known as the New Umma or the 
global community of Muslim and the predominant celaphist 
orientation which has become an attractive alternative for 
these primarily young people. One of the results of that is 
that there is an increasing tendency to have a very powerful 
sense of grievance in which the global and the local are 
merged.
    As we observe in our report that I cited a moment ago, one 
oft cited example of how local and global grievances merge, was 
the case of Mohammed Bouyeri who was the assassin of the Dutch 
artist Theo van Gogh, in the manifesto that Bouyeri pinned to 
the chest of his victim, outrage was expressed at the United 
States for the invasion of Iraq, Israel for the plight of the 
Palestinians and interestingly, at the Dutch state for 
considering a proposal to screen Muslim applicants for public 
sector jobs. So there is a clear sense in which that feeling of 
embattlement is bringing together and essentially, conflating 
things that are going on very, very far from the individual, 
but also those things that are going on very close to them.
    Iraq, as you have heard, receives prominent mention in this 
discussion, and let me add that, while European Muslims had 
ample discontents before the United States toppled their regime 
of Saddam Hussein, nonetheless, the invasion has had the effect 
of turbo charging that unhappiness. The Madrid bombers were 
obsessed with Iraq and watched with delight a videotape of 
Iraqi's gloating over the bodies of seven Spanish intelligence 
agents killed outside Bagdad in 2003. The London bombers and 
Mohammed Bouyeri are all known to have been outraged by 
America's military action.
    This, I might add is--and not just Iraq, but all of these 
grievances--is the background for a phenomenon that hasn't been 
much discussed here, which is the rise of the self-starter 
terrorist. Ambassador Crumpton, I know, spoke about the 
presence of various networks in Europe. We have also seen that 
some terrorists are acting without actually being enlisted or 
recruited into al-Qaeda or affiliated groups. Essentially, 
these are individuals who decide that they are persuaded by the 
argument that Bin Laden and his allies are making and they 
decide to take arms even if they have not been brought up 
within a group such as al-Qaeda, the GSPC, the GIA, or what 
have you.
    Let me just address the prospects for containing 
radicalism. I have to say I am rather pessimistic. We have read 
a lot in the news media in recent years about the reemergence 
of European anti-Semitism, but burgeoning anti-Muslim sentiment 
may become a much bigger and much more troubling phenomenon. 
The polling on this is quite alarming and France researchers 
found that 20 percent of those they spoke with conceded a 
dislike of North Africans and 62 percent told pollsters that 
Islamic values were incompatible with the French Republic.
    We see similar kinds of results in Germany and Britain--
really across the board--and this sets up a very unhappy 
dynamic of alienation and recrimination beyond what we have 
already seen was structural in the sense of unemployment and 
the like. We've seen the ascendency of nativist sentiment in 
the political discourse, we've seen a lot of right wing parties 
strengthen their standing in elections, and we have also seen 
that after there are attacks or conspiracies uncovered, there 
is a tendency to take steps that are understandable from the 
public perspective, but are counterproductive. For example, it 
is almost routine now that when there is an attack, there is a 
desire to tighten immigration. Tightening immigration controls 
almost immediately sends the signal to Muslims that they are, 
in fact, unwanted and that they are, in fact, beleagued and 
embattled. Law enforcement is usually tightened understandably, 
but this too, accelerates the dynamic of alienation.
    I wouldn't add that the sense of antipathy that Muslims 
encounter in Europe is not just a matter of quiet slates. In 
2001, Italian Prime Minister Silvia Berlusconi set off a furor 
when he declared the superiority of European civilization to 
Islam, adding that the West is bound to occidentalize and 
conquer new people, and the Islamic world is 1,400 years 
behind, implying that the Islamic world needed this kind of 
colonization or recolonization. The Queen of Denmark has also 
said that we need to show our opposition to Islam.
    The tensions that we have seen in Europe are likely to 
continue and to deepen, along with Europe's demographic crisis. 
Approximately 1 million Muslims arrive in Western Europe every 
year, about half seeking family reunification, half in search 
of asylum. Another half million are believed to be entering the 
European Union illegally. The fertility rate among these 
immigrants is triple that of the European baseline of other 
Europeans. So if current demographic projections hold, and as 
we know, demographic projections don't always hold, Europe 
could be 20 percent Muslim by 2050, confirming the prediction 
of Bernard Lewis that by the end of the 21st century, the 
European continent would be quote, ``Part of the Arabic West--
the Maghreb.''
    When you have a much younger population of immigrants and 
an older population of people--of native born people--you tend 
to have higher levels of crime. There will be an awful lot of 
friction there, as well. Now it's impossible to say how far 
radicalization will go, but echoing what my other colleagues 
here have said, we shouldn't commit the fallacy of numbers. 
Small increases in the number of terrorist can make a big 
difference in the threat.
    This needs to be a major concern for Washington. For one 
thing as everyone else has noted, the United States and Europe 
share a security perimeter. Europe will not be a very helpful 
partner in dealing with the broader Muslim world in pushing a 
reform and democratization agenda. If it is beset with its own 
internal troubles, and of course in the worst case scenario, if 
Europe is incapable of controlling the terrorists within its 
boarders, the security challenge for America will be of 
profound proportions.
    I'll stop right there. We can certainly talk about 
intelligence cooperation and other issues that I've had some 
experience with.
    [The prepared statement of Mr. Benjamin follows:]

  Prepared Statement of Daniel Benjamin, Senior Fellow, International 
   Security Program, Center for Strategic and International Studies, 
                             Washington, DC

    Mr. Chairman, distinguished members of the Senate Foreign Relations 
Committee. I want to thank you for the opportunity to appear before you 
today to discuss the critical issue of Islamist extremism in Europe. 
The growth of radicalism in virtually every part of the world today is 
a matter of concern. But there may be no regions in which American 
interests will be more profoundly affected by this phenomenon than in 
Europe. In my view, Europe has become a central ``field of jihad,'' and 
so I commend the committee for taking an interest in this issue. I am 
particularly pleased to have the chance to speak with you just one day 
after the publication of ``Currents and Crosscurrents of Radical 
Islamism: A Report of the Center for Strategic and International 
Studies Transatlantic Dialogue on Terrorism.'' European jihadism has 
been a core issue for the transatlantic dialog, which is now in its 
third year, and I am glad to be able to share some insights from our 
conferences and to provide you with copies of the report.
    It is an unwelcome irony that Europe, which emerged from the cold 
war more united, peaceful, and prosperous than at any other time in 
history, may be threatened by jihadist violence as much as any other 
part of the world outside Iraq. Europe, as home to the world's largest 
Muslim diaspora, is at the heart of the battle over Muslim identity. 
Europe's experience with jihadist terror is already a long one: It 
served as the logistics and planning base for the September 11 attacks, 
which were prepared principally in Hamburg and as a haven for many 
Islamists who fled repression over several decades. In the 1990s, the 
continent was roiled by fighting between Muslims and Christians in the 
Balkans that was primarily an ethnic conflict, but one that was 
exploited skillfully by jihadists for operational and propaganda 
purposes.
    The March 2004 Madrid bombings, the assassination of Dutch artist 
Theo van Gogh in November 2004, and the July 2005 London attacks 
affected Europe profoundly, puncturing the feeling that many shared 
after September 11 that the United States was the primary target and 
that Europeans had little to fear. But the awakening came not because 
of a change in jihadist targeting but because the terrorists had failed 
repeatedly in their earlier attempts. In 2001, they had tried to bomb 
the Strasbourg Cathedral and the U.S. Air Force base in Kleine Brogel, 
Belgium; a cell in London was broken up in 2003 for conspiring to 
produce the toxic agent ricin, while another in Germany was planning a 
series of attacks against Jewish targets. European intelligence 
services estimate that radical Islamists have planned as many as 30 
``spectaculars'' since September 11. As one British official put it 
before the attacks of July 2005, ``We've been very, very lucky.''
    In light of a Home Office estimate of ``10,000-15,000 British 
Muslims who `actively support' al-Qaeda or related groups,'' strong 
evidence that Abu Musaab al Zarqawi's network is growing in Europe and 
a raft of other indicators, the verdict remains a fair one even after 
July 7 of last year.
    Much of Europe's problem owes to the fact that the individual 
Muslim's identity is sharply tested there. Most of the continent's 
Muslims arrived in the 1950s and 1960s as workers to fill postwar 
Europe's labor shortage, and they stayed on in countries that, for the 
most part, neither expected nor wanted to integrate them into their 
societies. It soon became apparent, however, that there was no easy way 
to send these workers back or to stanch the flow of family members 
seeking reunification with loved ones--let alone to stop them from 
having children.
    As a result, Europe has sleepwalked into an awkward 
multiculturalism. Its Muslim residents, many of them now citizens, live 
for the most part in ghetto-like segregation, receive second-rate 
schooling, suffer much higher unemployment than the general population 
and those who do work are more likely than their Christian counterparts 
to have low-wage, dead-end jobs.
    Indeed, it is this marginality that helps to explain the appeal of 
radicalization. The Madrid cell was composed of a host of men on the 
margins--drug dealers, part-time workers, drifting students--and this 
has been a pattern among jihadists for some time. The Hamburg cell that 
carried out the September 11 attacks was financially better off and its 
members tended to come from higher income families, but they too were 
drifting through Europe as their hatred deepened. L'Houssaine 
Kherchtou, a Moroccan al-Qaeda member in the 1990s, described in a U.S. 
court how he had floated around the continent, working haphazardly, and 
often illegally before finding his way to Milan and recruitment for 
jihad. This class of potential terrorists may continue to exist for as 
long as Europe absorbs cheap labor from across the Mediterranean in 
North Africa.
    A parallel development has arisen out of the continent's ongoing 
political and economic unification, which has undercut the power of 
traditional national identity, especially among young people. The 
citizens of the various member states of the European Union still 
consider themselves to be French, or Polish, or British, but with the 
emergence of a single currency and European Union passports, a world in 
which individuals choose from among multiple identities has come to be 
taken for granted. European Muslims have the same sense of choice when 
it comes to identity, and many are picking religion as their 
determining trait.
    For example, according to a 2002 survey of Muslims in Great 
Britain, 41 percent of the respondents under 35 years of age described 
themselves as solely ``Muslim,'' rather than ``British and Muslim,'' 
which was one of the other choices on the questionnaire. (One out of 3 
respondents over the age of 35 felt the same.) Much the same trend has 
been documented in France, as well, where preferential identification 
with Islam among Muslims increased by 25 percent between 1994 and 2001. 
Given the inclination that Christian Europeans feel for a broader, 
transnational identity, it is not surprising that many Muslims also 
want to feel that they are part of something bigger. Identification 
with the new umma, or global community of Muslims, and its 
predominantly salafi orientation has become an attractive alternative. 
The Internet, which delivers both news and an unambiguous 
interpretation of events from such distant places as the Palestinian 
territories, Chechnya, and Kashmir, has had a profound impact in 
increasing the distribution of radical ideas. As a result, we have seen 
the emergence of the transnational identity in which there is a 
powerful sense of grievance in which the global and local are merged.
    As the just-issued report of the CSIS Transatlantic Dialogue on 
Terrorism observes:

  <bullet> Among individuals who actually do commit violence or seek to 
        do so, there appears to be a greater sense of the 
        inseparability of global and local grievances. Many dialog 
        participants have echoed the generalization of former German 
        Chancellory counterterrorism official Guido Steinberg's 
        assessment that ``Local motivations are key in what we call the 
        global terrorist threat, but these local factors have 
        diminished in recent years and are being replaced by 
        international inspirations, by the international jihad.'' As 
        one European participant put it, ``recruitment takes place at a 
        local level, but the motivations that guide the group can be 
        both local, such as unemployment, discrimination, etc., and 
        global, such as Iraq, Afghanistan, and Guantanamo.''
  <bullet> An oft-cited example of how local and global grievances 
        merge, the case of Mohammed Bouyeri, the young Dutch Muslim who 
        murdered Theo van Gogh is frequently cited. In the manifesto-
        cum-poem that Bouyeri pinned to the chest of his victim, 
        outrage was expressed at the United States, for the invasion of 
        Iraq, and Israel for the plight of the Palestinians, and, 
        interestingly, comparable animus was directed against the Dutch 
        state for considering a proposal to screen Muslim applicants 
        for public sector jobs for radical leanings.

    Iraq, as you have heard, receives prominent mention in this 
discussion. Let me simply note that, without a doubt, European Muslims 
had ample discontents before the United States toppled the regime of 
Saddam Hussein. Nonetheless, the invasion has had the effect of turbo-
charging that unhappiness. The Madrid bombers were obsessed with Iraq 
and watched with delight a videotape of Iraqis gloating over the bodies 
of seven Spanish intelligence agents killed outside Baghdad in November 
2003. The London bombers and Bouyeri are all known to have been 
outraged by America's military action.
    The spread of salafism--and within salafism, the jihadist ideology, 
which has a potent minority voice--in Europe has been further 
facilitated by a lack of homegrown clerics. The number of mosques has 
grown dramatically in the past decade along with the sharp increase in 
Muslim population, but Europe does not have the thousands of clerics 
needed to meet this need. There are no privately endowed institutions 
for religious training, as are commonplace in the United States, and 
there are no state-funded seminaries, as are provided for officially 
recognized faiths. European governments are now wrestling with the 
complex issue of providing religious training and licensing preachers, 
but it will be years before such a system is in place and begins to 
graduate the imams needed to meet the spiritual needs of Europe's 
Muslims. In the meantime, European Muslim communities must rely on 
clerics from the Middle East and South Asia for religious guidance and 
leadership in prayer. Saudi Arabia, Egypt, North Africa, and Pakistan 
have been producing a surplus of imams, but many of them are imbued 
with a salafist orientation and hostility toward secular European 
values. The result is that salafist clerics wield an outsized influence 
on the debate over the evolving shape of Islamic belief and practice in 
Europe.
    Prospects for the containment of radicalism must be seen in the 
near term as limited. Although the news media have paid much attention 
in recent years to the reemergence of European anti-Semitism, a 
burgeoning anti-Muslim sentiment may yet become the bigger and more 
troubling phenomenon; it is already helping to drive the deepening 
alienation of European Muslims. In France, researchers found that 20 
percent of those they spoke with conceded a dislike of North Africans, 
the largest Muslim group in the nation, and 62 percent told pollsters 
that Islamic values were incompatible with the French Republic. A 
larger percentage said that they considered Islam to be an intolerant 
religion, and almost two in three respondents stated that there are too 
many immigrants in France--immigrants, of course, being code for 
Muslims. The situation in Germany is similar. One in five Germans 
agrees with the statement, ``Germany is a Christian country and Muslims 
have no business here.'' More than two out of three respondents believe 
that Islam does not fit in with Western culture and almost as many say 
Germany has too many foreigners. Over 80 percent of those polled in 
2004 associate Islam with the word ``terrorism.'' In Britain, one in 
ten people think that peaceful coexistence of non-Muslims and Muslims 
in Britain is impossible. One in three disagreed with the statement, 
``In general, Muslims play a valuable role in British society,'' and 
two-thirds thought that Britain's Muslims do ``little'' or ``nothing'' 
to promote tolerance.
    Not surprisingly, Britain's Muslims are not particularly happy with 
how they are treated by the wider society. One-third of them say that 
either they or someone they personally know has been subjected to abuse 
or hostility because of their religion; over half say that the position 
of Muslims has worsened since the Iraq war began in March 2003. Two in 
three stated that antiterrorism laws are applied unfairly against 
Muslims, nearly half would oppose an oath of allegiance to Britain, and 
70 percent think that Muslims are politically underrepresented. When 
some of the British Government's top civil servants met after the 
Madrid bombings to discuss how to defeat al-Qaeda domestically, the 
picture that confronted them was deeply unsettling. Muslims had three 
times the unemployment rate of the entire population--only 48 percent 
of the Muslim population was working, well below the level for the 
population as a whole (68 percent)--and Britain's 10 most 
underprivileged districts were home to 3 times as many Muslims as non-
Muslims. Although terrorists rarely come from the poorest sectors of 
society, their sense of grievance is often nourished by the 
impoverishment of their fellow Muslims. In all, the Home Office 
estimated, ``There may be between 10,000 and 15,000 British Muslims who 
`actively support' al-Qaeda or related groups.''
    This is more than a matter of a bad atmosphere: Europe's right-wing 
political parties have profited significantly from popular antipathy to 
Islam and have made real inroads by stressing anti-immigration 
politics. In the 2002 presidential election in France, Jean-Marie Le-
Pen of the National Front won a place in the runoff against incumbent 
Jacques Chirac. Belgium's Flemish Bloc, Denmark's People's Party, 
Italy's Northern League, and Switzerland's People's Party have all 
registered gains, though none has actually gained power. In Britain, 
the Conservative Party leader, Michael Howard, centered much of his 
2005 election campaign against Prime Minister Tony Blair on an anti-
immigration theme. The ascendancy of nativist sentiment has pushed 
political discourse to the right. The center has moved and popular 
support for the liberal policies that have long characterized the 
relationship between state and society within Europe has diminished. 
Among the first fruits of the rightward shift has been the ban on 
headscarves in French schools and the Dutch decision to expel 26,000 
asylum seekers from the Netherlands. The next steps will likely be in 
the realm of tightened law enforcement and immigration controls. 
European Muslims will naturally interpret these measures as being 
directed against them and may well become even more defensive and less 
interested in assimilation. Thus accelerates a dynamic of alienation, 
with the Christian Europeans becoming increasingly hostile to the self-
segregating Muslims.
    The sense of antipathy Muslims encounter in Europe is not just a 
matter of quiet slights on the street. Anti-immigrant sentiment is on 
the rise, and the inroads made by right-wing parties that espouse it 
have fueled many Muslims' sense of embattlement. The remarks of some 
European leaders have also displayed a remarkable hostility. In 2001, 
Italian Prime Minister Silvio Berlusconi set off an international furor 
when he declared the superiority of European civilization to that of 
Islam, adding that the West ``is bound to occidentalize and conquer new 
people. It has done it with the Communist world and part of the Islamic 
world, but unfortunately, a part of the Islamic world is 1,400 years 
behind.'' More recently, the Queen of Denmark announced flatly that 
``We are being challenged by Islam these years . . . We have to show 
our opposition to Islam.''
    These tensions will worsen in the coming years as Europe's 
demographic crisis and its antipathy to outsiders sharpen--as Christian 
Europe continues to shrink and Muslim Europe grows. Approximately one 
million Muslims arrive in Western Europe every year, about half seeking 
family reunification, and half in search of asylum. As many as another 
half a million are believed to be entering the European Union 
illegally, annually, as well. More important is the fact that the 
fertility rate among these immigrants is triple that of other 
Europeans. Consequently, the Muslim population is younger than the non-
Muslim population, and Europe's Muslim population is likely to double 
from about 15 million in 2005 to 30 million by 2025. At the same time, 
current demographic projections show that Europe's non-Muslim 
population is stagnant or shrinking. Europe could well be 20 percent 
Muslim by 2050. Bernard Lewis, the renowned historian of Islam, may 
turn out to be right in his prediction that by the end of the 21st 
century the European continent would be ``part of the Arabic west, the 
Maghreb.''
    Friction in Europe between Muslims and non-Muslims is likely to 
increase as these demographic changes take hold and as anti-immigration 
policies become more commonplace. Larger youth populations tend to be 
associated with higher levels of criminal activity, which will further 
rankle the non-Muslim population. Some of the greatest irritants will 
be over matters of religious practice: Wearing headscarves, obtaining 
halal meat--ritual slaughter is controversial in several European 
countries and is banned in Switzerland because it is seen an inhumane--
and the provision of workplace facilities for prayer five times a day. 
The socioeconomic problems that make the lives of many Muslims in 
Europe miserable--ghettoization, unemployment, lower wages, unequal 
access to education, discrimination in the workplace--are unlikely to 
disappear, and the resulting discontent is likely to be expressed in 
religious terms. Against this background of anomie, jihad looks good to 
young European Muslims. It is empowering, promising the chance to do 
something dramatic, to assert one's self and punish one's tormenters.
    It is impossible to say how far the radicalization will go. Olivier 
Roy, the French scholar who has done the most to describe the 
globalization of Islam, argues that the jihadist phenomenon will be 
contained by Muslim communities that recognize it as a danger to their 
well being. If that means that jihadists are not likely to dominate the 
communities, the prediction is probably correct--the numbers of those 
committed to violence is low. But we should not commit the fallacy of 
numbers. Small increases in the number of terrorists can make a big 
difference in the dimensions of the threat in an era when the 
technologies of destruction are increasingly available.
    The eruption of jihadist violence in Europe must become a major 
concern for Washington for reasons that transcend concern for the 
safety of friends across the Atlantic. For one thing, the United States 
and Europe share a security perimeter. Not only are there more 
Americans and American businesses in Europe than virtually anywhere 
else, but most Europeans have easy access to the United States through 
the visa waiver program. (It is a disturbing oddity that the U.S. 
immigration system is now optimized to allow in people from the area of 
the world where Islamist radicalism may be growing fastest.) Moreover, 
the numbers of radicals in Europe and the civil liberties protections 
means that the continent will remain the most likely launching pad for 
attacks against America.
    If terrorist attacks multiply, the consequences for intercommunal 
relations in Europe could be severe. After the Madrid bombings, there 
was little backlash against Spain's Muslim community. But after the van 
Gogh murder, the story in the Netherlands, historically one of Europe's 
most tolerant societies, was different. Within a week, there were at 
least 20 reported cases of arson involving Muslim schools and mosques. 
After the London bombings, half a dozen more arson attacks were 
reported in Britain, though there was no serious damage.
    A Europe distracted by intercommunal tensions and violence will 
make a poor partner for America in many areas, not least dealing with 
the global threat of radical Islani. As we all know, pressing a broad 
reform agenda in the Muslim world will, over the long term, be a vital 
part of a strategy for rolling back the jihadist threat. Yet, if 
European countries become absorbed by strife within their borders, 
their willingness to work with the United States on a more global 
approach could well decline. Already, there are clear signs that Europe 
will not follow through on its commitment to allow Turkey to negotiate 
accession to the European Union, and this is a source of real worry 
because strengthening Turkey's place in the West
is one of the steps that has widely been considered a key part of the 
effort to
strengthen moderates in the Muslim world. Moreover, if Europe becomes 
preoccupied with its own internal security issues, and in the very 
worst case, if the continent is incapable of controlling the terrorists 
within its borders, the security challenge for America could be of 
profound proportions.

    Senator Allen. Thank you, Mr. Benjamin and thank all our 
panelists. I have questions, and questions, and more questions 
listening to this. It's not a very optimistic scenario. Each 
and every one of you all state that this is a problem, this 
radicalization--Jihadism in Europe--that seems to be 
increasing.
    You hear from Dr. Niblett that, and I assume you would all 
agree, that the students aren't in the school systems. That is 
absolutely essential. I would consider education. Education is 
not only important for individual opportunity, there is an 
assimilation--there's an integration. What I'm trying to see if 
there's any analogy here to our history.
    One of the witnesses on the first panel mentioned the civil 
rights ovement in our country, and listening to this I'm not 
sure if it's akin to it. The civil rights movement was for 
civil rights so that all people, regardless of their race or 
the color of their skin, would have voting rights, for example, 
would allow people to vote. The integration of schools, so you 
stop separate but unequal, is what the effect was. And as we 
analyze this, you have Europe as not a melting pot and we're 
not a melting pot either, we're a stew and people keep their 
identities, and their history, and traditions. But that's part 
of the fabric of America. We are a country that has been 
settled and built by people who have come here for four 
centuries since Jamestown.
    Is there any analogy to what is being faced by the 
countries of Europe? They are not like our states, they all 
speak different languages, they have their own heritage, their 
own histories that are longer. Four hundred years to Europe is 
something that is very new.
    My mother actually is from North Africa. She's from Tunisia 
which was the French protectorate at the time. What analogy 
from these scholars here, maybe Dr. Habeck, is there any 
analogy to what we have faced? Is there any historical analogy 
if you can't find anything that is analogous in the history of 
the United States? Can we learn from anything in history as to 
how we can avoid what is such an attitude that Jihadism that 
even voting--voting is against one's religion. So it's not a 
question of participation in government and have a seeking 
redress for government. Then again, this is for a small, small 
minority.
    But when you have something like that, can any of you all 
give us some lesson from history that might give us guidance as 
to what's the proper approach that our European friends can 
take or to the extent that the United States can be involved?
    Professor.
    Dr. Habeck. I'm afraid that I can't think of a good analogy 
for this. I think it's coming from both sides. It's not just--
you know, thinking of Muslims integrating. It's also Europeans 
accepting integration.
    Senator Allen. Right.
    Dr. Habeck. That's a huge issue. I'll just give you two 
examples from my own life. I had a student just a couple of 
months ago who's French, who was telling me how proud he was of 
his Irish heritage and we got into this long conversation about 
his Irish heritage. And finally, I asked him where his 
relatives came from. And he said, well we're not certain. I 
think he came from Darry. And I said, he? And he said yes, he 
came to France in the 17th century. This is one person from 
Ireland in the 17th century and he's very proud of Irish 
heritage.
    And the second one is a friend of mine who spent a year 
doing research in Denmark and came back with a couple of 
stories. One was conversations he had with friends about their 
German neighbors. Well they were German neighbors only in the 
sense that they had come over with the Teutonic Knights. But 
they were not Danish, they were still German after 300-400 
years. So this is not just a problem with Muslims. There is 
something else going on inside Europe that is very resistant to 
this and it works just as much in England where if you move 
into a village, you're the foreigner if you came from the 
county next door.
    Senator Allen. Regardless of one's religious beliefs.
    Dr. Habeck. Yes, yes. So there's something that's very 
resistant within Europe, itself, to this sort of integration 
and I just have no ideas about how one would go about dealing 
with it.
    Senator Allen. Well that's why we're having hearings--to 
get solutions here, Professor. Everyone is interested just for 
historical reasons and their heritage, and your life story, 
your blood lines, your DNA so to speak. My mother's Italian, 
French, and a little Spanish. My father's Scotch, Irish, and 
Dutch and it's all very interesting, but it doesn't define me 
any more than you know, those are the bloodlines and you can 
see certain trends, but you don't stereotype people just 
because of that. But you will see certain traits maybe that--
oh, that seems like that's Dutch, this frugality and Scotchness 
and that's why my kids are always hearing me cut off the 
lights. The joy of life is from the Italian or French. 
Regardless, all of that is just interesting. It doesn't define 
someone's rights. It doesn't enhance them--it doesn't diminish 
them in this country.
    You get into the criminals--you mentioned 30 percent of the 
criminals in prison are Muslim. I believe that was Ms. Niblett. 
Now are they--they are guilty of the crimes, I assume. There's 
not a question that they have not committed those crimes. 
Here's the bottom line--it seems like there's an increasing 
risk. There's the attacks and it's not just one side, and it 
seems like while the professionals--the law enforcement 
professionals--are able to work cooperatively. But it's more of 
a societal and almost--you can't say there is no solution to 
it. There has to be some way to resolve this situation. If each 
and every one of you just give one idea. One idea of what can 
ameliorate or get some reconciliation if each and every one of 
you could give one good thing that could be done by European 
friends and to the extent that we can assist, we ought to 
somehow diffuse or lessen the friction of this air. Could you 
share with us? Start with you, Dr. Niblett.
    Dr. Niblett. If I had to pick one, I think I would focus on 
the role of women in Muslim society in Europe. In many cases, 
women and young women are the ones who are having to break the 
taboos, who, depending on how they change their outlook, could 
enable a better integration on the part of Muslim families into 
their particular societies.
    Now let me add the point again here, that it's not just a 
case that it is a minority of Muslims who are attracted to the 
extremist ideologies we've heard talked about, but there are 
quite a few Muslim societies or Muslim groups that have 
integrated quite well in Europe. In the United Kingdom itself, 
where you have in Leeds, groups that came from particular parts 
of Pakistan who found it incredibly difficult to integrate and 
from whom the July bombers came.
    On the other hand, a lot of Muslims from India and those 
who came in from East Africa, often expelled from Uganda, have 
actually been extremely successful, done well economically. The 
problems are not there. So there must be something that works.
    I'd focus on the opportunity for women to be able to 
gradually--to the extent that they wish to--develop a form of 
life within European societies that allows them to be true to 
their faith. But at the same time, accords them some of the 
protections that we would expect and Europeans would expect to 
give to people. The continuance of honor killings which have 
taken place in Europe--just shocking.
    Senator Allen. What is an honor killing?
    Dr. Niblett. Where the older brother, if I get this right--
I'm a European not Islamist scholar--but my understanding of it 
is where a woman is seen as having dishonored the family, 
perhaps by going off and marrying somebody that she wasn't 
chosen to marry, not living in the family home. I'm sure my 
colleagues can explain it better, but that person can be killed 
and has been killed and this is documented quite extensively in 
cases in Europe. And how those crimes are treated, how they're 
thought about I find shocking at times.
    Senator Allen. Who is killed in this, the suitor or the 
woman?
    Dr. Niblett. The woman, by the family. I mean, I will let 
my----
    Senator Allen. Her own family?
    Dr. Niblett. Yes, absolutely. And if I'm right, the 
youngest son is picked so the older one can carry on being the 
family leader. But maybe I should let my colleagues, who know 
more about the Islamic side, comment on it.
    But I just wanted to make the point though, that I think 
the extent to which women can start to be integrated, develop 
lives that are more independent, or let's say that are still 
integrated but where they are not being kept as part of the 
separation or the alienation. It's fundamental, hence, limiting 
the child bride syndrome which is now being done.
    But second, affording actively the kind of protections that 
you would expect to afford any other citizen in European 
society and not simply to accept, ``Oh well, that's different 
cultural approach, how women are treated there is different.'' 
There's a real hypocrisy in my opinion, in many European 
societies in this area, a great upholding of human rights in 
certain areas, but not in this particular area and I think it 
would make a huge difference.
    Senator Allen. Thank you. Dr. Habeck.
    Dr. Habeck. Yeah, I thought the concept of dialog, as it 
was outlined by the Ambassador, was fantastic and I 
wholeheartedly support that as a way to open lines of 
communication and show different ways of integration and how it 
works in different societies. So looking at this successful 
model of how integration has worked in the United States and in 
hoping to bring that sort of hope to Europe is fantastic.
    But I think there is a second thing that I might recommend. 
And I've been thinking about this for the last couple of 
months, so I'm still sort of feeling around--my way around 
this. But there has been this very superficial--and several 
people have said this--superficial multiculturalism, that has 
actually suppressed conversation and dialog within Europe 
itself, so that Native European population does not speak with 
the immigrants. They don't have honest conversations with them 
about how I'm feeling about this and how you're feeling about 
this. And instead, people express themselves through being rude 
to each other in public, or by bumping into you, or ignoring 
you, or not hiring you because I don't like the way--you know, 
things like this rather than having an honest conversation.
    So there is something going on here where, actually, speech 
has been suppressed so that people do not feel free saying 
precisely what I mean, or how I feel about things. And I almost 
recommend something like a truth and reconciliation committee. 
It would be fantastic for some parts of Europe where this has 
gotten very bad. For instance, in France. And where people 
could feel safe to say things that frankly, has been banned or 
outlawed in many places in Europe and then, become reconciled 
through truth--through speaking the truth with each other.
    Senator Allen. Thank you, Dr. Habeck. Mr. Benjamin.
    Mr. Benjamin. Senator, I think you actually touched on the 
appropriate historical analogy, or at least the closest one 
when you mentioned civil rights. Now--the civil rights struggle 
in the United States. Now in fact in every country in Europe, 
their civil rights in no way inferior to ours, have a lot of 
cultural biases and there's a lot of effective, if not legal, 
racism. And at the risk of touching--you know, a hot wire in 
American culture, I frankly think that--and this is already 
being discussed in Europe, that they have to figure out ways to 
embrace some kind of affirmative action in which Europeans show 
Muslim immigrants that there is in fact, a permanent place for 
them in society.
    Now this is very difficult, because actually most Europeans 
will tell you that they believe affirmative action to be 
illegal under European Union law. Now you know----
    Senator Allen. Affirmative action in the sense that certain 
jobs are in what? The affirmative recruitment or----
    Mr. Benjamin [continuing]. That you could prefer anyone on 
a nonmeritocractic--nonpurely meritocractic basis, where that 
you could expand the reasons for hiring someone, for putting 
someone in a university place for having reasons other than 
their test scores--things like that. In other words, the notion 
of diversity doesn't have the same purchase in Europe that it 
does in American society.
    Now I'm not a legal scholar, so I don't know how you do 
this. But it seems to me that what is true in Europe is true 
everywhere where we face radicalism and that is that the way to 
defeat radicalism is to peel off moderates from extremists and 
have the moderates police their own community. And if you show 
moderates that they have a place in Europe, and that they can 
prosper, and that they can--you know, provide ever better lives 
for their families, then I think that you have solved a lot of 
your problem. It isn't going to make terrorism go away 
overnight, but it is going to reduce the space and reduce the 
grievance that radicals inhabit. And so, you know, I personally 
hope that there will be more discussion of that sort of thing 
in Europe. There are certainly areas--you know, parts of the 
political classes, that are addressing this already.
    Another issue that European's will need to face again, is 
going to be Turkey and it's accession to the European Union. 
Personally, I believe this is extremely important as a way of 
showing that Europe is not as some contend, strictly a 
continent for Christians, and that makes a really big 
difference.
    I have to say, I just got back from a visit in Vienna, and 
Austria has taken a fairly outspoken position in opposing 
Turkish accession and there is a sense now, that because of the 
failure of the Constitution--the European Constitution, that 
this has moved ever further to the bottom of the agenda. I 
think Robin Niblett can speak more effectively to this than I 
can. But insofar as the United States can continue to be--you 
know, an advocate for enlargement in that way, I think we will 
be serving our goals in terms of strengthening moderation on 
the continent.
    I would also add, that there is a lesson for us in the 
United States from what is going on in Europe, and that is the 
need to do what you can to avoid alienation. Now we're in, 
particularly, the Muslim community. We're in a much better 
situation in that regard. I noted the statistics regarding 
arrests, but we should not take our eye off the ball here. The 
Muslim community and the United States I think, feels a lot 
different as we approach September 2006, than it did before 
September 11, 2001. There's a lot of evidence that it feels 
itself to be a beleaguered community and a more stressed 
community. Pulling data in the United States also indicates the 
rise of anti-Islamic sentiment and I think that that is 
something that we need to watch very carefully and ensure that 
it isn't inflamed in any way.
    Senator Allen. Well it's one of the purposes of having 
these hearings--learn more so that we act properly, recognize 
the consequences or implications, not just of words, but of 
actions. The dialogs matter, that does help. Clearly, 
opportunity for individuals regardless of their religion, or 
their race, or their ethnicity, or their gender matters. That's 
one major difference.
    I find it interesting that Dr. Niblett brought this up. 
Former Secretary of Defense, Bill Cohen, invited my wife and me 
and others to a retreat in north Florida about a year ago, and 
it was, ``How does the Islamic world look at the United 
States?'' And the Islamic world is not just an Arab world. 
There are more people of the Muslim faith who are not an Arab 
than are Arabs. And of course Indonesia is a the largest, and 
obviously India is large as well. Even the term democracy was 
looked upon as a United States in position of a process. So 
I've always used those terms, freedom and justice, or liberty 
and justice. Who can be against those ideas while democracy is 
looked upon as United States. In our discussions, one thing 
that was really interesting, was what Dr. Niblett said is the 
role of women and the influence that women have on young 
people, on their own children, young people. My wife has a much 
bigger influence apparently on my children than I do. My oldest 
daughter would not even apply to the UVA, where I went to 
school. But they did apply to the University of South Carolina, 
at any rate.
    And if you do have women having freedom of expression 
without fear of retribution, it is phenomenal just 
statistically of--to the extent that women do have that greater 
freedom, that greater opportunity, or bringing it up in a 
variety of ways. That can have a very positive impact. And in 
places such as Europe, where there is a tradition of gender 
equality, compared to countries--some countries--where that 
isn't the case. You can take Saudi Arabia and a few others, in 
the Middle East. That would seem to me to be something that No. 
1, would be empowering to an individual, regardless of their 
gender. But it was very interesting on the phenomenal impact. 
It's like 16 to 1. They actually did it in a mathematical 
formula or equations of how women can be influential and 
moderating. Moderating--and also with their opportunities 
making sure the young people also look at those opportunities.
    Do any of you have any other pearls of wisdom for us? Oh, 
by the way, on Turkey, you brought up Turkey. Do all of you 
agree that Turkey will have to meet certain benchmarks like 
anybody else does to get into the European Union--to graduate 
into it, so to speak. While that may be a decade away, you 
indicated Mr. Benjamin, at least that's what I think you 
intimated, is that that would ameliorate the problem in Europe? 
Insofar as Islamic or Jihadism, or Islamist extremism that 
would make Islam less of a religion of immigrants, as opposed 
to more of a religion that's just another religion in Europe. 
Do you think it would have that impact, or if it wouldn't----
    Mr. Benjamin. Well let me turn the question a little bit on 
its head----
    Senator Allen. All right.
    Mr. Benjamin [continuing]. And say, to reject Turkey would 
be understood, I think quite powerfully is an anti-Islamic 
move.
    There are a number of countries in Europe that do recognize 
Islam as one of their national religions and, in fact, I didn't 
know this, but in Austria, it has been recognized as an 
Islamic--it has been recognized as a national religion since 
the early part of the 20th century because of the Austro-
Hungarians possession of Bosnia. And there was a Bosnian 
military unit, and as a result, it became a national religion.
    But it certainly would send a very powerful signal if first 
of all, the wheels of accession continue moving, and if the 
prospect that has been held out to Turkey which incidentally 
has had such a profound effect of reform in Turkey and it 
really made Turkey improve its democracy, its human rights 
records, so on and so forth. It's very important that that 
continues to be the case. I just think it would be viewed as an 
enormous slap in that regard.
    If I can just say one other thing about what we can do. 
Many, many of Europe's Muslims spend an awful lot of their 
mental energy thinking about the countries they came from and 
they hold the West collectively, and they all assign blame 
somewhat differently. But they hold the West responsible for 
propping up regimes that they view to be repressive in their 
home countries. This is something that there has been extensive 
research on and we don't need to debate whether it's true or 
not. I'll only cite President Bush who, I think, appropriately 
talked about the democracy pass that has been given too many 
countries for strategic reasons by the United States over the 
years. But to the extent that we continue to pursue a reform 
agenda and a democratization agenda in a measured and 
appropriate way, I think that we can play an important role in 
diffusing tensions in that part of the world. And most 
importantly, change our own image and make Muslims in Europe 
recognize that the Jihadist argument that the United States is 
a predator nation, is false. And I think that jamming their 
narrative is what has to be an absolutely core part of our 
policy going forward.
    Senator Allen. Dr. Habeck, I can see you wanted to add to 
that.
    Dr. Habeck. Well I was just going to say that that's a 
terrific idea and something that I know that is being worked on 
by other parts of this government. But working to drive a wedge 
between the Jihadis and the rest of the Islamic populations in 
these countries is, I think, key to lessening their appeal. And 
one of the major ways to do this is simply to point out what 
they really believe.
    They use a lot of terms that other Muslims believe they 
understand. They are terms that are familiar to everybody 
within Islam, but they are terms that the Jihadis have taken 
and perverted. And you know, basically, finding ways to 
communicate that through the very articulate moderate Muslim, 
Imams, the Sheikh's, others, leaders in the community who 
support democracy and who want to see other communities succeed 
within these countries, is I think key.
    So that kind of communication, I think is great. And just 
to follow up on your point about Turkey, I think speaking 
positively, I think it will have a tremendous positive impact 
on Muslim communities who see this kind of foot dragging, or 
what they perceive as foot dragging, as a sort of slap in the 
face. And he also--Mr. Benjamin also mentioned that there is 
this positive effect within Turkey itself, which has moderated 
a lot of its civil rights abuses has come more into line with 
European and American practices in a lot of ways. For instance, 
freedom of religion is now practiced for the first time in 
Turkey's entire history because of the hope of attaining some 
sort of--you know, of joining the European Union.
    Senator Allen. Well that is the moderation of Turkey is 
important and that gets into other matters, and their 
treatment, and almost isolation of Armenia which then gets me 
and others upset with that sort of approach if one wants to 
learn from history.
    I would think that in the future--and I don't know how much 
they deal with religious leaders, but I would think that the 
mainstream clerics could be very influential when one looks at 
our own civil rights movement in this country. So much of it 
was actually faith-based. It was peaceful. It was very smart, 
it was principled, and the churches were very much the 
sanctuaries for those who were advocating freedom and equality. 
And I think that the clerics--that the mainstream clerics could 
be--I would think, a good source of information and obviously, 
influenced on their flocks.
    Finally Dr. Niblett, you wanted to say something.
    Dr. Niblett. Just an opportunity to comment on one of your 
questions and some of my colleagues' comments, and to comment 
on Turkey as well. I'm very much in favor of a European Union 
enlargement to Turkey. It will take time--and it probably 
should take time. Both from Turkey's perspective, as well as 
from the European Union's perspective. Right now, talking about 
European Union enlargement to Turkey raises a sense of threat 
amongst most of Europe's population. It is not seen as a good 
thing. Those in favor of Turkish enlargement in a way, don't 
want to talk about it because the prevailing feeling is one of 
the reasons the Constitutional Treaty was rejected was that 
enlargement has gone too far too fast in Europe, and that 
Turkey is a bridge too far. So rather than enlargement to 
Turkey being seen by most Europeans--and I would include 
amongst them several senior government officials--rather than 
being seen as a strategic step to bridge to an Islamic country 
and set an amazing precedent, potentially a very positive one, 
it's seen ultimately as breaking the European Union apart. And 
ultimately, as further inflaming anti-Muslim feeling within 
Europe. That's the way it is perceived right now.
    Now I would hope that over time, it's going to go another 
way. And the way it will go, I would hope, is that over the 
next 10 years the negotiation takes place, people get used to 
the enlargements that have happened already, and people get 
used to the idea of Turkish European Union membership.
    What we must avoid in the near term, therefore, and this 
should be done quietly to the extent that U.S. officials want 
to argue this case. It's not helpful. Unfortunately right now, 
to talk about it publicly is to prevent this idea of privileged 
partnership coming forward instead of European Union 
membership. That would be a death blow to Turkey's enlargement 
and it's being proposed by several European leaders including 
Angela Merkel, the Chancellor of Germany. So that's where I 
would focus my efforts and I think it's very important that 
this enlargement do happen in the fullness of time, which is 
going to be a little bit of time.
    Just quickly on the comment that Mary made about clerics 
and leaders. You know, one of the problems I understand that's 
faced primarily in Europe, is people don't know who to talk to. 
Who are the moderate leaders? These religious groups are so 
atomized. They atomize not between countries, but within 
countries, within groups. How are they funded? Most of the most 
moderate clerics are being funded by governments in Turkey or 
Algeria, and paid for in Europe. Many of the clerics in Germany 
do it halftime. They have practically no money with which to be 
clerics. So they are then easily taken down tracks with people 
who have the funding and can get them to preach particular 
things. It's a very underdeveloped area. I don't know what the 
solution is because the extent that European governments try to 
embrace them, they delegitimize them. And yet to the extent to 
which they leave the status quo, it's bad. So I don't have a 
solution, but I would point it out as an area of focus.
    And my last point is about economic reform. One thing I 
didn't mention earlier because it's so big, but ultimately if 
Europe does not find a way to change its economy, and by this I 
should really talk about continental Europe--if continental 
Europe and most of that, especially France, Germany, Spain, 
Italy, Belgium, do not find ways to change the balance of 
economic favor from those who have jobs keeping them and those 
outside basically, having no chance to get in but paid nice 
welfare benefits. Unless that system is changed to a more 
dynamic system, we're never going to break out of this cycle of 
separation for those folks in the Muslim communities that are 
at the bottom of the ladder.
    European society is weighted toward a security of those who 
have what they have. And those who are outside have a tough 
time getting in. This is very different from the U.S. system. 
Everyone here lives with an element of insecurity, but there's 
more opportunity in my opinion.
    So I'm particularly depressed I have to say, therefore, by 
what's going on in France right now. But hopefully, you know, 
they are stepping up to these challenges. But that's going to 
be critical. The ability to integrate these Muslim communities 
then will depend on Europe making some of the broader steps it 
needs to take to face up to its competitive weaknesses.
    Senator Allen. Well thank each and every one of you all for 
your insight--it shows the enormity of the challenge. I am 
pleased at what we had at this hearing. It's a sense of 
realism. A lot of times you leave a hearing and say, ``All 
right, we're going to do A, B, C, and this will all be 
completed in 3 years.'' This is going to take generations. 
Everything from religious freedom, individual freedom, equality 
of gender. Then you get into the whole competitiveness aspect 
of Europe and how you're seeing the strikes in France with what 
some of their labor laws which no one in this country--or there 
might be a state that would want to do something like that, but 
for the most part, that's contrary to our views. But then you 
see in Europe, you know countries like Ireland whose 
prospering, that focused on lower taxes, it's in information 
technology, it's the Celtic tiger, after being the Celtic 
tortoise. But they focused on education and competitive tax 
policies. Only Luxembourg has lower taxes than they do. So then 
the rest of Europe talks about, ``Oh gosh, we have to harmonize 
tax rights and make Ireland raise their tax rates.'' Well 
maybe, they might want to learn from Ireland. And we're all in 
competition with one another. We have great trade of course and 
great ties with Europe, but we're in competition with countries 
such as China, Japan, and Korea, and India which is probably 
the model for a very large country with many religions, similar 
to us, but four times larger--or three times larger. But India, 
and the United States, and Europe should be examples and I'm 
hopeful that from this hearing, that our policymakers and those 
of us as individuals, will try to number one, understand the 
complexities and the implications of policies, words, and 
actions. And try not to exacerbate the problem, but find ways 
through dialog, through the role of women, through a variety of 
economic sort of approaches too at least, lessen the threat as 
far as terrorism is concerned. But ultimately, it is a 
prosperity in individual freedom of individuals, regardless of 
their religious beliefs, sex, gender--I should say, or 
ethnicity.
    So thank you all again, for your insight, for your 
knowledge, and your commitment to sharing this insight with us 
and we will make better decisions in the future, as difficult 
as that may be.
    The hearing is adjourned.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]

</pre></body></html>
